<html>
<title> - MONITORING AND COMBATING TRAFFICKING IN PERSONS: HOW ARE WE DOING?</title>
<body><pre>[Senate Hearing 107-576]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-576

   MONITORING AND COMBATING TRAFFICKING IN PERSONS: HOW ARE WE DOING?

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MARCH 7, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


80-844              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                 PAUL D. WELLSTONE, Minnesota, Chairman
ROBERT G. TORRICELLI, New Jersey     SAM BROWNBACK, Kansas
BARBARA BOXER, California            GORDON H. SMITH, Oregon
PAUL S. SARBANES, Maryland           BILL FRIST, Tennessee
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Cho, Hae Jung, project director, Coalition to Abolish Slavery & 
  Trafficking (CAST), Los Angeles, CA............................    46
    Prepared statement...........................................    48
Dinh, Viet D., Assistant Attorney General, Office of Legal 
  Policy, Department of Justice, Washington, DC..................    10
    Prepared statement...........................................    12
    Responses to additional questions for the record from Senator 
      Wellstone..................................................    62
Dobriansky, Hon. Paula, Under Secretary of State for Global 
  Affairs, Department of State, Washington, DC...................     5
    Prepared statement...........................................     7
    Responses to additional questions for the record from Senator 
      Wellstone..................................................    58
Ely-Raphel, Amb. Nancy H., Senior Advisor, Office to Monitor and 
  Combat Trafficking in Persons, Department of State, Washington, 
  DC.............................................................    23
    Prepared statement...........................................    24
    Responses to additional questions for the record from Senator 
      Wellstone..................................................    65
Equality Now, New York, NY, statement submitted for the record...    57
Hanh, Nguyen Van, Ph.D., Director, Office of Refugee 
  Resettlement, Department of Health and Human Services, 
  Washington, DC.................................................    26
    Prepared statement...........................................    28
    Responses to additional questions for the record from Senator 
      Wellstone..................................................    66
Jordan, Ann, director, Initiative Against Trafficking in Persons, 
  International Human Rights Law Group, Washington, DC...........    42
    Prepared statement...........................................    44
Loar, Theresa, president, Vital Voices Global Partnership, 
  statement submitted for the record.............................    53
Scalia, Eugene, Solicitor of Labor, U.S. Department of Labor, 
  Washington, DC, statement submitted for the record.............    54
Smolenski, Carol, coordinator, End Child Prostitution and 
  Trafficking (ECPAT-USA), New York, NY..........................    36
    Prepared statement...........................................    39
Wellstone, Hon. Paul D., U.S. Senator from Minnesota, prepared 
  statement......................................................     3

                                 (iii)

  

 
   MONITORING AND COMBATING TRAFFICKING IN PERSONS: HOW ARE WE DOING?

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 3 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Paul Wellstone (chairman of the 
subcommittee), presiding.
    Present: Senators Wellstone and Brownback.
    Senator Wellstone. The hearing before the Senate 
Subcommittee on Near Eastern and South Asian Affairs will come 
to order.
    I want to apologize to all of you who are here, panelists 
and those who are intensely interested in the hearing and the 
issue before us. We had some votes and it was unavoidable, 
otherwise I would not have kept you waiting. I am sure that 
Senator Brownback is probably on his way over here as well, and 
we will try to move things forward expeditiously. Senator 
Brownback is here right now.
    Certainly what I want to try to do is myself be relatively 
brief and then hopefully Senator Brownback as well, and we will 
ask each of you to try to stay within a 5-minute limit. Then we 
will have questions. Probably some of the questions we will 
submit in writing as well because we have a number of people 
who are here to testify.
    Sam, I was apologizing for the delay, explaining the votes 
that we had.
    A year ago, the Congress enacted landmark human rights 
legislation to put an end to trafficking in human beings. This 
was the Trafficking Victims Protection Act, and it provided a 
comprehensive plan of attack on trafficking from various 
agencies of the Federal Government and the advocacy community 
as well. There were prevention programs. I guess we called it 
the three P's. There was the protection of trafficking victims, 
and then there was the prosecution of the traffickers.
    I would like to again, for probably the 100th time, thank 
Senator Brownback for his wonderful leadership in this area. It 
has been a joyous journey for me to be working with him.
    Today's hearing is actually to assess our efforts against 
human trafficking one year after the passage of the bill.
    We have asked the witnesses to discuss the extent to which 
various agencies of the U.S. Government have discharged the 
responsibilities imposed upon them by the act. We need to know 
whether we have effectively used the tools provided by the act, 
and we need to know whether new tools might be necessary. A law 
without vigorous and effective implementation and oversight, at 
least in my view, is worse than no law at all because it lulls 
us into the false sense that we have done something to solve 
the problem. We are here today to learn whether or not we are 
doing all that we can to end this trafficking in persons, and 
we are here today to learn how committed the administration is 
to truly solving this growing problem of modern day slavery.
    I think the administration has done some very important 
work. The State Department released its first Trafficking in 
Persons report in July of last year. The Office to Monitor and 
Combat Trafficking in Persons was established later that 
October. We are now in the administrative comment period for 
the regulations implementing the trafficking T-visa at the 
Department of Justice, and the first meeting of the Interagency 
Task Force on Trafficking was held last month. But I think much 
more remains to be done.
    I will finish with concerns. I wanted to start with the 
positives because I think you should always give credit to 
people when they are doing good work.
    I am concerned that many victims of trafficking are not 
getting the assistance they need because the programs may not 
be designed appropriately or interagency coordination is 
lacking. I am concerned that many victims are still not 
recognized as trafficking victims due to lack of effective 
training back in our states for law enforcement. And I am 
concerned that our diplomatic message may not be getting 
through. We expect other nations to take vigorous actions to 
fight trafficking and we will hold them accountable if they do 
not. All of these concerns I hope will be addressed by the 
panelists.
    I am going to be asking the Office of Trafficking to tell 
me--I know there was a hearing just a day or two ago, but from 
my point of view, the Office of Trafficking is critically 
important in bringing the agencies together and having a real 
clear focus and having some benchmarks. And I am not sure that 
has been done in anywhere near as rigorous or vigorous a 
fashion as I would like to see.
    I am going to be asking questions about the INS because it 
seems to me, on the basis of reports we are hearing, that you 
have got some of these women and children in detention centers. 
We need the INS to be going into those detention centers to be 
interviewing these women and children and to be getting them 
out. That has not happened to the extent that it should. I 
understand we are only in one year, but I am impatient to see 
this happen on the ground.
    The Health and Human Services Administration. We received 
some calls from law enforcement that are doing their best, and 
they say, listen, we have got these refugees and they need 
specialized services. These are victims of trafficking, and yet 
we do not really know where to get the help for them. 
Obviously, Health and Human Services needs to do a better job 
of getting these specialized services to them.
    We know that some of these traffickers are being 
prosecuted, but I do not understand, Senator Brownback, why 
they are not being prosecuted according to the new criminal 
statutes that came with this legislation. And I am going to be 
asking questions about that.
    I do not want to take up any more time. I again want to 
thank all of the panelists for being here. I want to thank all 
the rest of you for being here, and I want to say that I am 
privileged to be working with Senator Brownback.
    [The prepared statement of Senator Wellstone follows:]

            Prepared Statement of Senator Paul D. Wellstone

    Thank you all for coming today. Just over a year ago, Congress 
enacted landmark human rights legislation to help put an end to 
trafficking in human beings. The Trafficking Victims Protection Act 
(TVPA) provided a comprehensive plan of attack on trafficking from 
various agencies of the Federal government and the private sector. It 
provided for prevention programs, the protection of trafficking 
victims, and the prosecution of traffickers. The purpose of today's 
hearing is to assess our efforts against human trafficking one year 
after passage.
    We have asked our witnesses to discuss the extent to which various 
agencies of the United States government have discharged the 
responsibilities given them by the Act. We need to know whether they 
have effectively used the tools provided by the Act, as well as whether 
new tools might be necessary. A law without vigorous and effective 
implementation and oversight can actually be counterproductive if it 
lulls us into a false sense that we have solved a problem. We are here 
today to learn whether we are doing all that we can to end trafficking 
in persons. We are here today to learn how committed this 
Administration truly is to solving the growing problem of modern day 
slavery.
    I applaud the Administration for the work it has done so far. The 
State Department released the first Trafficking in Persons Report in 
July of last year. The Office to Monitor and Combat Trafficking in 
Persons was established later that October. We are now in the 
Administrative comment period for the regulations implementing the new 
trafficking T-visa at the Department of Justice, and the first meeting 
of the Inter-Agency Task Force on Trafficking was held last month. But 
much more remains to be done.
    I am concerned that some victims of trafficking are not getting the 
assistance they need because programs may not be designed 
appropriately, or inter-agency coordination is lacking. I am concerned 
that some victims are still not recognized as trafficking victims due 
to the lack of effective training for law enforcement. And I am 
concerned that our diplomatic message may not be getting through. We 
expect other nations to make legitimate efforts to fight trafficking 
and we will hold them accountable if they don't. I hope all of these 
concerns will be addressed here today.
    Trafficking in persons is one of the fastest growing areas of 
international criminal activity, now ranking third as the largest 
source of profits for organized crime behind only guns and drugs. We 
should be very clear in our understanding of this problem. It is a 
growing industry. It affects virtually every country in the world, and 
it must be stopped. The United States has a moral obligation to lead 
this fight, and I know we will do the right thing. I am confident there 
is still broad bi-partisan support in Congress for whatever is 
necessary--more resources, further legislation, whatever it takes--to 
win the worldwide struggle against trafficking.

    Senator Wellstone. Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman. It 
has been my pleasure to be able to work with you and to hold 
this hearing, that a year later we are going to look at the 
progress being made under this particular bill that I think was 
one of the most significant pieces of anti-slavery legislation 
that has passed since 1865, when it moved forward and was 
passed last year. We are moving and pushing for freedom.
    Our assignment in this bill that we have given to the 
administration and others pressing forward with this is to 
eradicate slavery, starting with forced prostitution. The 
central objective was and remains freeing victims everywhere 
and empowering those who do this noble work.
    I suppose there were similar tensions regarding objectives 
and getting it initially implemented back in pre-1865 days. I 
think of some of the legendary figures of that time, of William 
Wilberforce, a parliamentarian in England, or Amy Carmichael in 
India who faced overwhelming odds at that time, who poured 
their lives into their work to end slavery, to end temple 
prostitution in India.
    I would like to think, Mr. Chairman, that we have in the 
audience here today some like-minded people with those 
individuals, heroic people who really worked a long time to try 
to bring freedom to these people who are underserved, not 
represented in some of the most difficult, dire situations that 
today's modern culture could find. And we want to empower you 
to work and to press this on forward.
    There are some technical admonitions I could make, which we 
will hear about today, but I really am more compelled to talk 
about the larger issues.
    I want to press the State Department and administration to 
encourage them to engage in direct advocacy to end trafficking, 
going beyond reporting, which is important. And I think your 
initial reports have been fantastic. I have stated that to 
Secretary Powell. I want to state that to Under Secretary 
Dobriansky, but to also say we need to move on forward past 
that into advocacy--and I am sure you will talk some about that 
today--advocating directly with countries worldwide to end this 
obscene practice, coordinating amongst countries regionally 
because I assure you the traffickers do. And you know what it 
takes and you are working on that effort, and I want to 
encourage that to move forward on advocacy.
    Combating trafficking is among the top human rights agendas 
for this administration. Truly you are cursed with a great and 
historic task and also blessed with that opportunity. Please 
fully embrace this assignment to deliberately and aggressively 
advocate for the eradication of trafficking both 
internationally and domestically. This legislation was written 
for you to do just that.
    Separately, Mr. Chairman, there will be a witness also on 
the third panel today. Carol Smolenski of ECPAT is going to 
testify about an insidious practice of tour operators worldwide 
on international sex tourism. I point this out because some of 
the operators are deliberately targeting international 
pedophiles and other adults who engage in this practice 
offering children with impunity.
    What I want us to do and look toward is the possibility of 
legislation in this area to be able to prosecute those who 
would engage in such a horrific international practice, and we 
will be hearing Ms. Smolenski a little bit later on in the 
third panel. And I am hopeful that we can press forward on 
addressing that legislatively. A number of Senators have 
expressed interest on working on that piece of legislation.
    Mr. Chairman, I hope we can get at the problems here at 
this hearing, but overall too, I want to make sure that people 
understand that I am excited about what has taken place to 
date. I think there are things that we need to continue to 
press forward and, as the chairman said, we are impatient about 
it. But the steps that have been taken I think have been great. 
We want to keep moving those on forward because the little 
girls and little boys who are being held in some of these 
situations cannot wait, and we need to be as aggressive as we 
can. I know the administration shares that objective.
    Mr. Chairman, thanks for working with this legislation and 
thank you for holding this hearing.
    Senator Wellstone. Thank you, Senator Brownback.
    We have some statements here, one from Theresea Loar, 
president, Vital Voices Global Partnership, that will be 
included in the record, and also one from Eugene Scalia, 
Solicitor of Labor, U.S. Department of Labor. That will also be 
included in the record.
    Senator Brownback. I have a statement, Mr. Chairman, from 
Equality Now to submit for the record.
    Senator Wellstone. And another one from Equality now, which 
will also be included in the record.
    [The statements can be found beginning on page    **:]
    Senator Wellstone. We can actually hold the record open too 
for another 2 weeks for additional statements if you want to 
submit those.
    We are going to hear the first panel. Again, I want to ask 
everyone, if you can, to try to stay within a 5-minute limit. 
Dr. Paula Dobriansky, who is Under Secretary of State for 
Global Affairs. We thank you for being here and thank you for 
your leadership. Mr. Viet Dinh, who is Assistant Attorney 
General, Office of Legal Policy, and prior to that was at 
Georgetown University Law Center. I could give you all much 
more extensive introductions. You have got real impressive 
resumes, but I think we want to get right to the substance of 
it. Secretary Dobriansky.

 STATEMENT OF HON. PAULA DOBRIANSKY, UNDER SECRETARY OF STATE 
    FOR GLOBAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Dobriansky. Thank you, Mr. Chairman. Thank you for 
holding today's hearing. I will submit my full text for the 
record and make some brief comments.
    Senator Wellstone. It will be included in the record.
    Ms. Dobriansky. Thank you.
    It is important to review the progress we have made on 
monitoring and combating trafficking in persons since the 
passage of the anti-trafficking law.
    The United States Government's efforts to fight trafficking 
and protect trafficking victims have been greatly enhanced by 
the Trafficking Victims Protection Act of 2000. I applaud you 
and your colleagues for your foresight in the creation of this 
law. It was enacted due to your leadership, your commitment, 
your tireless efforts and dedication.
    This law has provided policymakers and prosecutors with the 
tools necessary to fight trafficking in persons.
    Since the law's passage, I am pleased to report that we 
have released the first Trafficking in Persons report. We are 
working on the next. We established the Trafficking Office and 
convened the first President's Interagency Task Force on 
Trafficking.
    I might add that the law has also not only been an 
important tool in fighting trafficking in persons, but it has 
also been an invaluable model to share with other countries 
that are committed to ending this horrendous violation of human 
rights.
    Let me just say a few words about the report. Last July, 
the Secretary of State released the first annual Trafficking in 
Persons report. It was based on information gathered from 186 
embassies and consulates, as well as reporting from NGOs, 
international organizations, and the press.
    The report is an invaluable tool in our bilateral dialog on 
trafficking. It has prompted many countries at senior levels to 
engage with the United States on this issue. Significantly 
several countries, in fact, have asked for our advice and 
assistance in developing a plan of action to combat trafficking 
as a result of the report.
    In addition, the Department released earlier this week the 
annual Country Reports on Human Rights Practices, which 
included expanded information on trafficking and which was 
called for in the act.
    We are now preparing the 2002 Trafficking in Persons 
report, and in producing this next report, we have carefully 
considered many suggestions that we have received from the non-
governmental community, from Members of Congress, from 
congressional staff, and from others. One key area that we have 
strengthened in our solicitation out to our posts is 
governmental corruption. Basically we have asked our posts to 
come in with much more specific, concrete data in this area.
    Let me say a few words about the office. In October 2001, 
the State Department's Office to Monitor and Combat Trafficking 
was established. It reports directly to me and coordinates 
policy and programmatic efforts with respect to trafficking in 
persons. Ambassador Nancy Ely-Raphel is the Senior Advisor and 
Dr. Laura Lederer is the Deputy Senior Advisor of the office.
    I am also pleased to announce today that the office will 
soon be fully staffed with 14 permanent positions and 
complemented with personnel from other agencies, specifically 
HHS, DOJ, CIA, and USAID. In other words, commitments have been 
made and some are already in place as detailees to the office.
    The office focuses on three key areas: the compilation and 
the release of the Trafficking in Persons report, the 
assessment and implementation of programs, and outreach not 
only to partner agencies, to Congress, the non-governmental 
community, but also outreach entails our diplomatic strategy.
    A few words about the task force. Last month, the Task 
Force to Monitor and Combat Trafficking in Persons was convened 
and chaired by the Secretary of State. I would like to thank 
Senator Brownback and Mrs. Wellstone, as well as Representative 
Chris Smith, for joining the first meeting of the task force. 
At the task force, Secretary Powell announced the formation of 
a senior policy advisory group.
    I convened the first meeting of this group which is a 
subgroup of our Democracy PCC. It will meet regularly, and it 
is to provide policy oversight and coordinate policy and 
programs on an interagency basis.
    A few other words, and then I will bring my remarks to a 
close.
    The Trafficking Office is designing a State Department-wide 
international program strategy to identify prevention, 
prosecution and protection needs in each country, and to assist 
governments and non-governmental and international 
organizations to address trafficking. We will tailor our 
programmatic initiatives to identify the opportunities for 
greatest improvement and the greatest needs. We will ensure 
that our programmatic and diplomatic strategy are complementary 
to ensure that we are holding governments accountable and 
encouraging strengthened political will, while providing 
programmatic support where needed.
    I have just a minute more.
    Senator Wellstone. Absolutely.
    Ms. Dobriansky. We are committed to also reaching out to 
the public to educate them both domestically and 
internationally about the issue and what the United States is 
doing. At every opportunity, I have raised trafficking in my 
meetings with foreign governments, and I know that also many of 
my colleagues at the State Department have.
    A last word about training. We also have looked for new 
opportunities to educate U.S. officials about the problem so 
they too can contribute to the fight against trafficking. We 
have spoken to newly designated U.S. Ambassadors, to new 
classes of Foreign Service officers, law enforcement officers, 
and others as well as to senior Foreign Service officers who 
have been taking courses at the Foreign Service Institute.
    In sum, we have been busy. We have made significant 
progress, but much remains to be done.
    Mr. Chairman and colleagues, I want to thank you again for 
your leadership on this issue and the act. It has provided a 
solid framework for our efforts, impetus for increased 
coordination, and a model which we are able to use in reaching 
out to partners and partner countries.
    I look forward to our continued partnership on this issue 
and to a day when we can truly say that we have successfully 
eradicated trafficking.
    Thank you.
    [The prepared statement of Under Secretary Dobriansky 
follows:]

 Prepared Statement of Hon. Paula Dobriansky, Under Secretary of State 
                for Global Affairs, Department of State

      ``IMPLEMENTATION OF THE TRAFFICKING VICTIMS PROTECTION ACT''

    It is a pleasure to be here today to review the progress we have 
made on monitoring and combating trafficking in persons, since the 
passage of the anti-trafficking law, the Trafficking Victims Protection 
Act of 2000.
    Trafficking in persons is the new slavery of the 21st century. Both 
its magnitude and the inhumane conditions in which its victims find 
themselves are deeply troubling. The egregious nature of this crime has 
clearly been the driving force for many of you and for those of us who 
work on this issue.
    The United States Government's efforts to fight trafficking and 
protect trafficking victims have been greatly enhanced by the 
Trafficking Victims Protection Act of 2000. I applaud your foresight in 
the creation of this law. It was enacted due to your tireless efforts 
and dedication.
    This law has provided policymakers and prosecutors with the tools 
necessary to fight trafficking in persons, a truly grave human rights 
concern and a growing transnational crime problem. And it has given us 
a model to share with other countries that are also committed to ending 
the horrendous violation of human rights. Let me just highlight two 
mechanisms upfront. The report has been a crucial instrument in 
fostering dialogue with other countries and heightening global 
awareness. Similarly, the interagency coordination on policy and 
programs--particularly the Task Force--has strengthened the USG's 
efforts as a whole.
    Since the law's passage, I am pleased to report that we have 
released the first Trafficking in Persons Report, established the 
Trafficking Office and convened the first President's Interagency Task 
Force on Trafficking.

Annual Report on Trafficking in Persons
    Last July, the Secretary of State released the first annual 
Trafficking in Persons report. The report was based upon information 
gathered from 186 embassies and consulates, as well as reporting from 
NGOs, international organizations, and the press, regarding the extent 
of trafficking and the efforts of governments to combat it. In 
compiling the report, the Department assessed the efforts of 
governments of those countries where it was determined that there were 
a significant number of victims of severe forms of trafficking--82 
countries last year--to determine whether and to what degree such 
governments meet the minimum standards for the elimination of 
trafficking specified in the law.
    As expected, the report has become an invaluable tool in our 
bilateral dialogues on trafficking. It has prompted many countries--at 
senior levels--to engage with the U.S. government on the trafficking 
issue. I have met personally with a number of senior representatives of 
countries who said that the report had motivated them to examine and 
improve their efforts. Significantly, several countries even asked for 
our advice and assistance in developing a plan of action to combat 
trafficking. Many of our posts are reporting a higher degree of 
interest, awareness, and, more importantly, action, since the release 
of the report. This increased interest is indicative of a larger 
positive trend as many more countries are beginning to take this issue 
seriously.
    In addition to the trafficking report released last July, and in 
keeping with the provisions of the Trafficking Victims and Violence 
Protection Act, the Department released earlier this week the Annual 
Country Reports on Human Rights Practices included expanded information 
on trafficking. The Bureau of Democracy, Human Rights, and Labor worked 
with our embassies overseas and with other offices within the 
Department to include detailed information, including data on 
conditions for victims and efforts to provide them with protection and 
assistance.
    We are now preparing the 2002 Trafficking in Persons report. In 
producing this next report, we have carefully considered suggestions 
received in our meetings with NGOs, members of Congress and their staff 
and the interagency working group. One key area that we are looking to 
strengthen is consideration of governmental corruption. Ambassador Ely-
Raphel will provide some specific examples of the changes we are making 
in the substance and methodology of this year's Trafficking in Persons 
Report process in the next panel. This report is an important and 
evolving document.

New Trafficking In Persons Office
    In October 2001, the State Department's Office to Monitor and 
Combat Trafficking was established. The office reports directly to me 
and coordinates policy and programmatic efforts with respect to 
trafficking in persons, ensuring that both the human rights and law 
enforcement components of this problem are adequately addressed. 
Ambassador Nancy Ely-Raphel is the Senior Advisor and Dr. Laura Lederer 
is the Deputy Senior Advisor of the Office. I am pleased to announce 
today that the Office will soon be fully staffed with 14 permanent 
positions and complemented with personnel from other agencies, 
specifically HHS, DOJ, CIA, and USAID. We already have an HHS officer 
on board, and expect officers from CIA, DOJ, and AID in the next month. 
The office will focus on three key areas: the compilation and release 
of the trafficking in persons report; assessment and implementation of 
programs; and outreach to partner agencies, Congress, and the non-
governmental community. The office structure reflects these key 
priorities.

President's Interagency Task Force to Monitor and Combat Trafficking in 
        Persons
    As envisioned by the law, last month President Bush signed an 
Executive Order formally creating the President's Interagency Task 
Force to Monitor and Combat Trafficking in Persons, which is chaired by 
the Secretary of State. I would like to thank Senator Brownback and 
Mrs. Wellstone, as well as Rep. Smith, for joining the first meeting of 
the Task Force on February 13. At the meeting, led by Secretary Powell, 
six agencies were represented--Department of Justice, Department of 
Labor, Health and Human Services, the National Security Council, U.S. 
Agency for Development, and the Central Intelligence Agency--in most 
cases by their principals. Task Force members highlighted current and 
future initiatives and discussed the need to enhance interagency 
cooperation. In addition, Secretary Powell announced the formation of a 
Senior Policy Advisory Group to address policy issues related to 
trafficking in persons and to ensure the implementation of the 
Trafficking Victims Protection Act of 2000.
    I convened the first meeting of the interagency Senior Policy 
Advisory Group this week. This group, a subgroup of the Democracy PCC, 
will meet regularly to provide policy oversight and coordinate policy 
and programs. The first meeting was very productive and provided an 
excellent opportunity for extensive exchange among the agencies in 
attendance. We identified next steps in a number of areas in which to 
increase cooperation, such as intelligence sharing, coordination with 
local and state actors, and strengthening the link between our 
diplomatic efforts and our law enforcement efforts domestically.

Other Initiatives
    Let me say a few words about other initiatives that we are 
undertaking to strengthen our effort and broaden our information 
database.
    Programs: In the last year, the State Department has supported 
approximately 100 global anti-trafficking programs or initiatives in 
over 40 countries. Of these countries, two were in Tier 1, 24 countries 
were in Tier 2, and seven countries were in Tier 3. There were several 
countries not included in the 2001 Trafficking in Persons report that 
received assistance. In these instances these countries were part of a 
regional initiative, were countries where we saw a potential for an 
increase in trafficking, or saw an opportunity to integrate trafficking 
concerns into other bilateral engagement on, for example, human rights 
issues such as protection of women from domestic violence, or alien 
smuggling. The Trafficking Office is designing a State-Department-wide 
international programs strategy to identify prevention, prosecution and 
protection needs in each country, and to assist governments, and 
nongovernmental and international organizations, where appropriate, to 
address trafficking. We will tailor our programmatic initiatives to 
identify the opportunities for greatest improvement and the greatest 
needs. We will ensure that our programmatic and diplomatic strategy are 
complementary to ensure that we are holding governments accountable and 
encouraging strengthened political will, while providing program 
support where needed. Certainly, any strategy will include a review of 
the laws, law enforcement, victim protection, victim shelters/safe 
spaces, victim services, and repatriation and reintegration.
    The Office requested from our embassies a comprehensive listing of 
proposals they believe would be effective in strengthening local 
efforts to combat trafficking. The response has been great. The Office 
is now reviewing anti-trafficking proposals from various embassies and 
will spearhead the interagency review and coordination process for 
these proposals.
    Public Outreach: While the Act, our report, and other efforts have 
significantly raised awareness of the issue, we are committed to 
reaching out to the public to educate them about the issue and what the 
U.S. is doing. At every opportunity, I have raised trafficking in my 
meetings with foreign governments. Recently I have traveled to India, 
Ukraine and South Korea where I took the opportunity to raise 
trafficking at the highest levels. Amb. Ely-Raphel will outline the 
extent of the audiences we have been reaching.

Training
    We are looking for new opportunities to educate U.S. officials 
about the problem so they too can contribute to the fight against 
trafficking. We have spoken to the newly-designated U.S. Ambassadors, 
new classes of foreign service officers, senior foreign service 
officers taking courses at the Foreign Service institute, law 
enforcement officers, and various other officials to educate them about 
the problem and look at ways that they--through their particular work--
can fight this scourge.
Closing
    In sum, we've been busy; we have made significant strides. But much 
remains to be done.
    Mr. Chairman and colleagues, I want to thank you for your 
leadership on this issue and the Act, which has provided a solid 
framework for our efforts, an impetus for increased coordination, and a 
model as we reach out to our partner countries.
    I look forward to continued partnership on this issue, and to a day 
when we can say that we have successfully eradicated trafficking. Until 
that day, we will continue to work in close partnership with you, our 
allies, the NGO community, and those committed to ending this 
unacceptable practice.
    Thank you for this opportunity. I welcome your comments or 
questions.

    Senator Wellstone. Thank you very much.
    Mr. Dinh.

 STATEMENT OF VIET D. DINH, ASSISTANT ATTORNEY GENERAL, OFFICE 
     OF LEGAL POLICY, DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Dinh. Thank you very much, Mr. Chairman, Senator. With 
your permission, I will also only make a brief statement and 
submit my full statement for the record.
    I am here to assure you that Attorney General Ashcroft--
who, as you know, supported and voted under your leadership--
for the Trafficking Victims Protection Act when he was a 
Senator--is as impatient as you are for its full 
implementation, and he has made it a high priority for the 
Department of Justice to implement its provisions.
    I am particularly pleased that you have invited Ms. Hae 
Jung Cho of the Coalition to Abolish Slavery & Trafficking. I 
had the opportunity to meet Ms. Cho, along with the Attorney 
General, when we both traveled to Los Angeles in July of last 
year, when the Attorney General met with a young boy named 
Phanupong Khaisir, known as Got, a Thai boy who was used as a 
prop in an international human trafficking scheme. At that 
time, after that meeting, the Attorney General personally 
granted Got humanitarian parole and ordered the INS to accept 
his application for a T-visa non-immigrant status. The Attorney 
General's personal attention to the case reflects the high 
priority that he and the Department place on implementing the 
act.
    I will refer specifically to the Department's activities in 
these two main areas: first, the prosecution of traffickers, 
and second, the protection of trafficking victims. Our efforts 
to combat human trafficking fall into three main categories: 
prosecution of traffickers, outreach, and coordination.
    First, to improve the Department's prosecution effort, the 
Attorney General issued a guidance to all U.S. attorneys' 
offices concerning Federal prosecution under the act. The 
guidance details the important new law enforcement tools that 
you have given us under the act that remove past barriers to 
investigation and prosecution of trafficking or servitude 
activities. And this is not an empty promise or an empty 
guidance. The Criminal Section of the Civil Rights Division 
will add 12 new positions to its existing staff to prosecute 
human trafficking cases.
    This early emphasis has already brought some concrete 
successes, and with your permission, I will highlight two cases 
brought just this past year.
    In August of 2001, a Federal grand jury returned a 22-count 
indictment charging three defendants with violation of numerous 
Federal statutes, including involuntary servitude. Two others 
pled guilty to conspiracy and are awaiting sentencing. The 
defendants here allegedly held nearly 250 Vietnamese and 
Chinese workers in involuntary servitude for over 2 years in 
American Samoa, and thanks to the effort of you, thanks to the 
effort of Representative Chris Smith and others, the case was 
brought to our attention, and the prosecution is continuing 
apace. Approximately 180 of the victims remain in the United 
States and are helping law enforcement to prosecute this 
effort. Trial is scheduled for April of this year.
    In March of 2001, a Berkeley, California multi-millionaire 
pled guilty to using beatings and threats to hold girls captive 
whom he had brought here from India to work in his real estate 
business. The victims were predominantly from families of lower 
castes and were allegedly subjected to sexual servitude while 
they were here. The defendant was sentenced to 97 months 
incarceration and was ordered to pay $2 million in restitution 
to four of his victims.
    Human trafficking cases are labor-intensive and time-
consuming, often involving many victims and requiring the full-
time involvement of multiple attorneys and investigators. 
Nevertheless, the Department has prosecuted 34 defendants in 
fiscal year 2001, four times as many as in the year before.
    In addition, the Civil Rights Division has opened 
investigation into 64 allegations of trafficking in 2001. As of 
today, there are 92 investigations pending, which represents a 
20 percent increase over the previous year.
    Second, in addition to the Department's prosecutorial 
efforts, the Attorney General has also enhanced the 
Department's outreach efforts. He has created a community 
outreach program to work with local community groups, victims' 
rights organizations, immigrants rights' organizations, 
shelters, and other interested groups. This outreach effort is 
staffed full-time and has reached out to hundreds of 
organizations in the past year alone.
    The Department continues to hold roundtables with non-
governmental organizations and representatives of state and 
local law enforcement to ensure that we all work together to 
combat trafficking.
    To assist this outreach effort, the Department of Justice 
and the Departments of Labor, Health and Human Services, and 
State have jointly developed two brochures in trafficking in 
persons. The first is designed for Federal law enforcement 
personnel to hand out to victims whom they encounter during the 
course of their investigation and their activities. The second, 
also produced in collaboration with the Departments of Labor, 
State, and Health and Human Services, provides information to 
NGOs about the services available at the governmental level to 
help them in their important work. All of these brochures will 
be distributed widely to ensure that they reach their intended 
audiences.
    We also have coordinated, both on an intra-agency basis and 
on an interagency basis, as Under Secretary Dobriansky has 
highlighted. All of these efforts require coordinated team work 
and the Attorney General has ordered a number of training and 
coordination programs to ensure that our efforts are effective 
and humane.
    But prosecuting traffickers is only half of the picture. 
Equally important are the Department's efforts to protect and 
assist the victims of trafficking. Mr. Chairman, as you noted, 
earlier this year the Attorney General issued the final interim 
T-visa regulations which went into effect on March 4 of this 
year. Comments are still continuing, but because of the 
significant need for the implementation of this act and for 
this visa, he issued the regulation on an interim basis so 
victims can get the T-visa status as of now.
    Second, in July of last year, the Departments of Justice 
and State together issued regulations to implement section 
107(c) of the act, which gives victims the ability to have 
continued presence here in the United States while we prosecute 
the cases and while we investigate their complaints.
    Third, under section 107(b), victims of severe forms of 
trafficking are eligible for many federally funded assistance 
programs, to the same extent as aliens admitted as refugees 
under section 207 of the INA, and we are working very closely 
on a daily basis, as a matter of fact, with our colleagues in 
the Office of Refugee Resettlement at HHS in order to implement 
this provision.
    Finally, last but certainly not least, as you know, the CJS 
appropriations act for 2002 provides $10 million to the 
Department of Justice for a grant program established under the 
act. The Attorney General may use these funds in order to 
develop, expand, and strengthen victim service programs for 
victims of trafficking through grant making programs. The 
Office of Victims of Crime, which is charged with managing this 
grant program, is currently working with an interagency task 
force to finalize the final proposals for this development.
    In conclusion, I would only stress that we are as impatient 
as you are to see that the act is fully implemented and to take 
proactive steps to end this modern day form of slavery, as the 
Senator noted. Thank you very much.
    [The prepared statement of Mr. Dinh follows:]

Prepared Statement of Viet D. Dinh, Assistant Attorney General, Office 
                 of Legal Policy, Department of Justice

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present testimony concerning 
the implementation of the Victims of Trafficking and Violence 
Protection Act of 2000 (VTVPA). The Department of Justice is grateful 
to Congress for passing this vital piece of legislation. The VTVPA 
creates new tools that enhance the Department's ability to prosecute 
traffickers, and it allows us to assist trafficking victims in ways not 
possible before passage of the VTVPA in October 2000.
    I am particularly pleased that Hae Jung Cho of the Coalition to 
Abolish Slavery & Trafficking (CAST) has been invited to testify as 
part of the Subcommittee's third panel of witnesses. As the 
Subcommittee is aware, CAST, a Los Angeles-based organization focusing 
exclusively on victims of trafficking, has received funding from the 
Department of Justice's Office for Victims of Crime (OVC) since 1999. I 
was fortunate to meet Ms. Cho when I traveled with Attorney General 
Ashcroft to Los Angeles in July where he met and granted humanitarian 
parole to Phanupong Khaisri, known as Got, a child who had arrived at 
Los Angeles International Airport as a prop in an international 
trafficking scheme.
    The Department of Justice continues to fight the battle against 
trafficking in persons--a form of modern day slavery--that persistently 
victimizes helpless women and children. Victims are often lured with 
false promises of good jobs and better lives, and then forced to work 
under brutal and inhuman conditions. While many trafficking victims are 
forced to work in the sex industry, trafficking also takes place in 
labor settings involving domestic servitude, prison-like factories, and 
migrant agricultural work. Under the VTVPA, trafficking in persons 
includes the recruitment or transportation of persons through force, 
fraud or coercion. The VTVPA facilitates efforts on three fronts in the 
battle against trafficking in persons: providing protection and 
assistance to victims, prosecuting offenders, and preventing human 
trafficking by working with authorities in the victims' home countries. 
My remarks will focus on the areas in which the Department of Justice 
is most directly involved--the prosecution of traffickers and the 
protection and assistance of victims in the United States.
    The fight against human trafficking--a top priority of the Justice 
Department--was the focus of one of the Attorney General's first 
publicly-announced policy initiatives after taking office. In March 
2001, the Attorney General set forth new steps to address trafficking 
in persons, and in July 2001 and January 2002, he announced publication 
of two regulations implementing portions of the VTVPA. The Attorney 
General noted:

          Human trafficking is a serious violation of the law. It is an 
        affront to human dignity. The Department of Justice is 
        determined not to stand idly by while the toll in human 
        suffering mounts. Human trafficking victims often are too 
        young, too frightened, too trapped in their circumstances to 
        speak for themselves. By setting high standards of conduct for 
        federal officials in meeting the needs of these victims, we 
        hope to be the victims' voice, to lessen the suffering, to 
        prosecute those who commit these crimes to the fullest extent 
        of the law.

    The Department has taken a number of important steps to implement 
the Attorney General's initiative. The Department continues to work 
steadily to stem the tide of this form of modern-day slavery, 
addressing the needs of victims, and sending a clear warning to 
traffickers that this barbaric action will not be tolerated.
      attorney general's program to combat trafficking in persons
    In March 2001, when the Attorney General declared that combating 
trafficking in persons was an important priority for the Department of 
Justice, he stated that additional resources would be allocated for 
prosecution, outreach, and coordination.

Prosecutions of Traffickers
    To improve the Department's prosecution efforts, the Attorney 
General issued the first guidance to all U.S. Attorneys' offices 
concerning federal prosecution under the VTVPA. Among other things, the 
guidance document details the important new law enforcement tools 
available under the Act. For example, the guidance points out that 
under the VTVPA, those convicted of trafficking offenses may be 
imprisoned for up to 20 years and, in some instances, for life. This 
represents a significant increase over preexisting servitude statutes, 
which carried a maximum sentence of 10 years' imprisonment. Moreover, 
the guidance explains that the new statutes created by the Act are 
designed to address the subtle means of coercion that traffickers often 
use to bind their victims in servitude. Such means include 
psychological coercion, trickery, and the seizure of documents. 
Preexisting servitude statutes and case law made it difficult to 
prosecute such conduct, because they require a showing of physical 
force, threats of force, or threats of legal coercion. The new statutes 
permit federal prosecutors to address a wider range of activities that 
traffickers use to facilitate their criminal objectives.
    The Department is bringing on new prosecutors to assist in anti-
trafficking efforts. The Commerce-Justice-State Appropriations Act for 
FY 2002 appropriates funding for twelve new positions in the Civil 
Rights Division to prosecute trafficking in persons cases, seven 
prosecutors and five support staff. In most trafficking cases, 
prosecutors in the Civil Rights Division's Criminal Section serve as 
co-counsel with the 94 U.S. Attorneys' offices across America. The 
Criminal Section's attorneys have prosecuted servitude cases for many 
years.
    The following descriptions are illustrative of some of the cases 
the Department has prosecuted during the last year alone:

  <bullet> In December 2001, a federal jury in Maryland convicted 
        Louisa Satia and Kevin Waton Nanji, of Silver Spring, Maryland, 
        of holding a teenage Cameroonian girl in involuntary servitude 
        and of illegally harboring her in their home to use her as 
        their domestic servant. The defendants were convicted of 
        involuntary servitude, conspiracy to harbor, and harboring the 
        girl for their financial benefit. In addition, Satia was 
        convicted of conspiracy to commit marriage fraud and conspiracy 
        to commit passport fraud. Sentencing is scheduled for March 27, 
        2002.

  <bullet> In August 2001, a federal grand jury returned a 22-count 
        indictment charging three defendants with violations of 
        numerous federal statutes, including involuntary servitude. Two 
        others pleaded guilty to conspiracy and are awaiting 
        sentencing. We allege that one of the defendants, Kil Soo Lee, 
        held nearly 250 Vietnamese and Chinese workers (mostly young 
        women) in involuntary servitude for over two years in the U.S. 
        Territory of American Samoa, using them as forced labor in his 
        garment factory. He reportedly maintained a captive and cheap 
        labor force through various coercive means, including assaults, 
        beatings, extreme food deprivation, creation of company store 
        indebtedness, denial of other work opportunities, threats of 
        deportation with severe economic consequences including 
        bankruptcy, confiscation of passports, and false arrest. Lee 
        and his subordinates are alleged to have held the victims in a 
        guarded compound containing a factory, living barracks, and a 
        cafeteria. Approximately 180 of the victims remain in the 
        United States and are helping law enforcement. Trial is 
        scheduled for April 2002 (United States v. Kil Soo Lee)

  <bullet> In August 2001, a federal grand jury in El Paso, Texas 
        returned a six-count indictment charging two defendants with 
        recruiting women from Uzbekistan into the United States under 
        false pretenses, then forcing them to work in strip clubs and 
        bars in order to pay back an alleged $300,000 smuggling fee. We 
        allege that the victims' passports were taken away, that they 
        were required to work seven days a week, and that they were 
        told that their families in Uzbekistan would be harmed if they 
        did not comply with the defendants' demands. (United States v. 
        Gasanov)

  <bullet> In August, May, and March 2001, three defendants pleaded 
        guilty to rounding up and enslaving homeless and drug-addicted 
        African-American men in Fort Pierce, Florida, and forcing them 
        to pick oranges against their will by using crack-cocaine, 
        threats and violence. The two primary defendants were 
        subsequently sentenced to prison terms of 55 and 48 months. 
        (United States v. Lee)

  <bullet> In June 2001, three men pleaded guilty in federal district 
        court to bringing two sixteen-year-old Russian giris to 
        Anchorage, Alaska to dance nude in a strip club. The two main 
        defendants were sentenced in August and September to 46 and 30 
        months incarceration. (United States v. Virchenko)

  <bullet> In March 2001, a Berkeley, California multimillionaire 
        pleaded guilty to using beatings and threats to hold girls 
        captive whom he had brought into the United States from India 
        to work in his real estate business. The victims were 
        predominantly from families of ``lower'' castes and were 
        brought here by way of fraudulent employment offers or sham 
        marriages. The defendant was sentenced to 97 months 
        incarceration and was ordered to pay $2 million in restitution 
        to four of his victims. (United States v. Reddy)

    As the facts of these cases suggest, human trafficking cases are 
labor-intensive and time-consuming matters, often involving many 
victims and requiring the full-time involvement of multiple attorneys 
and investigators. Nevertheless, the Department of Justice prosecuted 
34 defendants in FY 2001, four times as many as in the year before. In 
addition, the Civil Rights Division opened investigations in 64 
allegations of trafficking in FY 2001. As of today, there were 92 
investigations pending, which represents a 20 percent increase in the 
number of pending investigations we had a year earlier and a three-fold 
increase since establishing our Trafficking in Persons and Worker 
Exploitation Task Force toIl-free hotline in February 2000. Since the 
new statute was only recently passed and its criminal law provisions do 
not apply retroactively, only three of the Department's recent 
indictments included charges under the new criminal statutes. Many of 
our 92 investigations currently underway include allegations that may 
lead to indictments under the VTVPA, however.

Outreach
    To enhance the Department's outreach efforts, the Attorney General 
announced in March of 2001 that there would be permanent funding of our 
Trafficking in Persons and Worker Exploitation Task Force toll-free 
hotline (1-888-428-7581). He also announced the creation of a community 
outreach program to work with local community groups, victims' rights 
organizations, immigrants' rights organizations, shelters, and other 
interested groups.
    The Department plans to continue or initiate several outreach 
activities during 2002.
    First, various components in the Department will release 
interagency trafficking in persons brochures. The Department has 
developed two brochures on trafficking in persons: The first brochure 
is designed for federal law enforcement personnel to hand out to 
trafficking victims they encounter during the course of their 
investigations and prosecutions. The Executive Office for United States 
Attorneys, the FBI, and INS will send the brochure to their agents and 
victim specialists in the field. Based on research about trafficking 
victims found in this country, this brochure is designed to provide 
information to victims about their rights and available services and to 
give them specific contact information for the Department of Justice or 
Department of State law enforcement agency working with them. We 
anticipate translating the brochure into Spanish, Chinese, Vietnamese, 
Thai, and Russian. These five languages are among the most common 
languages spoken by trafficking victims in the United States.
    The second brochure is being published by the Department of Justice 
in collaboration with the Departments of Labor, State, and Health and 
Human Services (HHS). It is designed to provide information about 
federal activities on human trafficking for non-governmental 
organizations (NGOs) that are likely to encounter trafficking victims. 
The Civil Rights Division plans to send this brochure to the 1,500 
organizations and service providers in its trafficking database; post 
the brochure on the Trafficking in Persons and Worker Exploitation Task 
Force website (other components within Justice will post it on their 
websites as well); provide the brochures to the Office of Special 
Counsel for Immigration-Related Unfair Employment Practices grantees 
(including faith- and community-based organizations), which conduct 
public education programs for workers, employers, and immigration 
service providers about immigration-related job discrimination; and use 
the brochure in outreach presentations before appropriate audiences. 
The Department's Violence Against Women Office (VAWO) plans to send the 
brochure for NGOs to the National Domestic Violence Hotline, the 
National Resource Center on Domestic Violence (which collaborates with 
1,800 shelters nationwide), STOP Violence Against Women Formula Grant 
Program state administrators, and state and tribal domestic violence 
and sexual assault coalitions.
    Second, the Department will continue to hold roundtables with NGOs 
and law enforcement groups. In January 2002, the Department held a 
roundtable meeting with approximately 35 NGOs to discuss the main 
features of the T nonimmigrant status regulation, and to inform them 
that the T nonimmigrant visa was available for victims of severe forms 
of trafficking. The Department intends to hold future meetings with the 
NGOs, perhaps in smaller groups, to provide an overview of the 
Department's efforts to combat and monitor trafficking in persons. The 
Department is also planning to meet with national and local law 
enforcement groups to present the trafficking brochures, and to discuss 
collaborations between the Department of Justice and national and local 
law enforcement groups to combat trafficking.
    Third, the Department plans to continue and expand its public 
presentations on trafficking with a wide range of audiences, including 
the annual meetings of law enforcement groups, victim service 
organizations, immigrant and refugee advocacy groups, public health 
professionals, and others. This work frequently involves participating 
in community-level meetings in places around the country. The 
Department is also providing information on the Department's anti-
trafficking efforts to such groups for dissemination to their networks 
through newsletters and other publications. Two specific areas of 
Department activity in this area are as follows:

  <bullet> First, the Department continues to provide training and 
        assistance to VAWO grantees. The technical assistance providers 
        for each of the VAWO grant programs conduct several ``technical 
        assistance institutes'' annually; these institutes provide VAWO 
        grantees and subgrantees with an opportunity to receive 
        training and support. Throughout FY 2002, VAWO plans to use 
        these institutes as a vehicle to provide information to its 
        grantees about the new federal trafficking law and about 
        resources for victims.

  <bullet> Second, through the Child Exploitation and Obscenity Section 
        of the Criminal Division (CEOS), the Department will 
        collaborate with police departments and federal law enforcement 
        to provide training on the trafficking of American youth for 
        exploitation. For instance, CEOS will offer programs through 
        the Dallas Children's Advocacy Center and Police Department's 
        annual program and the Children's National Advocacy Center 
        program in Huntsville, Alabama.

Coordination
    The Attorney General stated as a third component in his March 2001 
announcement that the Department would increase coordination among its 
offices in order to investigate and prosecute human trafficking cases 
more effectively. He directed both the FBI and the INS to work with the 
Civil Rights Division to explore ways to identify victims of 
trafficking and to refer these cases to the Division for prosecution. 
The FBI and INS play critical leadership roles in identifying victims 
and investigating these crimes.
    The Department has begun, and will continue, to implement the 
Attorney General's mandate for increased coordination by training 
federal prosecutors and law enforcement. The Department's continuing 
training activities include: training federal prosecutors and agents at 
the Justice Department's National Advocacy Center (NAC) in South 
Carolina; training FBI agents and civil rights supervisors at the FBI 
facility at Quantico; training federal victim-witness coordinators at 
the NAC; and training through the Justice Television Network (JTN), a 
satellite television network broadcast to U.S. Attorney's offices and 
other components of the Department of Justice. The Department is 
planning another training course for federal prosecutors and agents in 
October 2002.
    The Department has also begun, and will continue, training INS 
personnel regarding trafficking issues. In January 2002, the INS 
conducted training at its Vermont Service Center on the adjudication of 
T nonimmigrant status applications. The program included substantive 
education about the dynamics of trafficking, identifying trafficking, 
and the statutory and regulatory eligibility for T status. INS has also 
produced a training video entitled ``Stopping Traffick,'' which began 
airing on INS TV this week, and which is being distributed for viewing 
in all INS Districts and Sectors. INS will also train new Border Patrol 
agents, district counsels, new attomeys and advanced attorneys, and 
asylum officers. INS's Office of International Affairs is also creating 
a training film on ``Trafficking of Women and Children'' in 
coordination with the INS Training Academy. INS through its Internet 
website (http://www.ins.usdoj.gov/graphics/lawenfor/interiorenf/
antitraf.htm) provides employees and the public with information, 
forms, and procedural guidance related to the provisions of the VTVPA.
    In addition to these intra-agency efforts, the Department is also 
actively pursuing inter-agency coordination on two fronts.
    First, the Department of Justice has worked with the Department of 
State to finalize the creation of an intelligence-sharing center: the 
Migrant Smuggling and Trafficking in Persons Coordination Center, which 
will be in the Justice Department's Civil Rights Division, will work 
with the State Department, Central Intelligence Agency, the National 
Security Agency, the Coast Guard, the INS, the FBI, and others to share 
intelligence information about trafficking in persons and alien 
smuggling activity.
    Second, the Department of Justice will continue its leadership and 
participation in the Trafficking in Persons and Worker Exploitation 
Task Force. This interagency group helps coordinate the investigation, 
prosecution, and protection of victims of trafficking and other 
exploitive work practices. The Task Force is co-chaired by the 
Assistant Attorney General for Civil Rights and the Solicitor of Labor. 
Other participating Department of Justice components include the 
Criminal Division, the FBI, the INS, the Executive Office for U.S. 
Attorneys, the Office of Legal Policy, the Office for Victims of Crime, 
and the Violence Against Women Office. Participating Department of 
Labor components include the Office of the Solicitor, the Wage and Hour 
Division, and the Women's Bureau. Other federal partners include the 
U.S. Departments of State, Agriculture, and Health and Human Services; 
the Equal Employment Opportunity Commission; and the National Labor 
Relations Board. In addition, the Task Force has created fifteen 
regional task forces, each of which has points of contacts from local 
offices of federal agencies. In 2002, the Department will devote 
particular attention to strengthening the regional task forces.

          PROTECTION AND ASSISTANCE TO VICTIMS OF TRAFFICKING

Issuance of the T Nonimmigrant Status Regulation
    Section 107(e) of the VTVPA created a new nonimmigrant status (so-
called ``T'' visas) for eligible victims of severe forms of 
trafficking. The Attorney General has signed an interim T non-immigrant 
status regulation, which became effective as of March 4, 2002. The 
interim final regulation addresses the essential elements that must be 
demonstrated for classification as a T nonimmigrant alien, the 
procedures for applicants to follow in applying for nonimmigrant 
status, and evidentiary guidance to assist in the application process. 
Five thousand T status classifications will be available annually to 
principals. See 67 Fed. Reg. 4783 (January 31, 2002).

Issuance of the 107(c) Regulation
    In July 2001, the Departments of Justice and State issued a 
regulation implementing section 107(c) of the VTVPA, which provides 
authority for the INS to arrange for ``continued presence'' to allow 
victims of trafficking to remain in the United States while law 
enforcement is investigating or prosecuting trafficking crimes. This 
regulation also requires Justice and State to identify and 
appropriately address the particular needs of victims of severe forms 
of trafficking and to provide access to information about their rights 
and translation services.
    Specifically, the 107(c) regulation requires federal law 
enforcement personnel, immigration officials, and Department of State 
officials to: (1) identify victims of severe forms of human 
trafficking; (2) protect victims in custody; (3) provide victims with 
access to information and translation services; (4) establish legal 
mechanisms for allowing victims of severe forms of trafficking in 
persons, who are potential witnesses, continued presence and reasonable 
protection in the United States; and (5) develop appropriate training 
for Department of Justice and State personnel investigating and 
prosecuting these cases.

          Identifying Victims. Federal officials must identify victims 
        of severe forms of trafficking in persons. The regulation helps 
        clarify the roles and responsibilities of federal officials in 
        identifying victims of severe forms of trafficking in persons 
        as early as possible in the investigation and prosecution 
        process, to ensure efforts are made to see that such victims 
        are accorded the rights described in 42 U.S.C. Sec. 10606, and 
        to provide the protections and services required under 42 
        U.S.C. Sec. 10607 and under the VTVPA.

          Protection. Victims of severe forms of trafficking who are in 
        custody must be protected. The regulation establishes 
        procedures for appropriate federal employees to ensure, to the 
        extent practicable, that victims of severe forms of trafficking 
        in persons are housed in a manner appropriate to their status 
        as crime victims, afforded proper medical care and other 
        assistance, and protected while in federal custody.

          Access to Information. Trafficking victims must be informed 
        of their rights, provided information about pro bono and low-
        cost legal services, and accorded reasonable access to 
        translation services if they are unable to communicate in 
        English. In order to help meet these obligations, the 
        Department and other federal agencies have created, and plan to 
        distribute, the brochures that I have previously described for 
        NGOs and victims.

          Continued Presence. The regulation clarifies the procedures 
        for federal law enforcement officials to request that certain 
        victims of severe forms of trafficking in persons, who are 
        aliens and potential witnesses to such trafficking, be 
        permitted to have continued presence in the United States in 
        order to effectuate the investigation and prosecution of those 
        responsible. It also establishes procedures to protect victims' 
        safety, including taking measures to protect victims of severe 
        forms of trafficking in persons and their family members from 
        intimidation, reprisals, and threats of reprisals by 
        traffickers and their associates. The INS may use a variety of 
        immigration mechanisms to ensure the alien's continued presence 
        in the United States. The specific mechanism used will depend 
        on the alien's current status under the immigration laws and 
        other relevant facts. These mechanisms may include parole, 
        voluntary departure, stay of final order, section 107(c)(3)-
        based deferred action, or any other authorized form of 
        continued presence, including applicable nonimmigrant visas. In 
        most circumstances, victims granted continued presence will be 
        eligible for temporary employment authorization. As of February 
        28, 2002, the INS had received, processed, and was tracking 216 
        requests for continued presence (of which 184 are in connection 
        with the case in American Samoa, mentioned earlier). To date, 
        none of the requests for continued presence has been denied.

          Training. The regulation provides guidance about training of 
        appropriate Justice and State Department personnel in 
        identifying victims of severe forms of trafficking in persons, 
        in understanding the particular needs common to victims of 
        severe forms of trafficking in persons, and in providing for 
        the protection of such victims. In addition to general training 
        of internal federal prosecutors, agents, and INS personnel, 
        which have already been described, the Department continues to 
        conduct extensive training activities on various components' 
        responsibilities under the 107(e) regulation. The Department 
        plans to develop training modules to highlight the relationship 
        between trafficking in persons cases and other types of 
        criminal prosecutions, such as organized crime, money 
        laundering and other topics, as appropriate.

HHS Certification
    Victims of severe trafficking in persons may be eligible for a 
number of benefits and services, regardless of immigration status. 
Under Section 107(b) of the VTVPA, alien victims of severe forms of 
trafficking are eligible for many federally-funded assistance programs 
to the same extent as aliens admitted to the United States as refugees 
under Sec. 207 of the Immigration and Nationality Act. To be eligible 
to receive this assistance, adult victims of severe forms of 
trafficking must have been certified by HHS after consultation with the 
Department of Justice. HHS will testify about the implementation of 
107(b) at today's hearing; however, I can report that the Department of 
Justice and HHS have worked very closely together since the enactment 
of the VTVPA. We remain in frequent communication and coordination 
about how best to implement the VTVPA and how to assist victims in 
trafficking.

Federal Grants
    The Commerce-Justice-State Appropriations Act for FY 2002 
appropriated $10 million to the Department to fund a grant program 
established by the VTVPA. The VTVPA provides that the Attorney General 
may use these funds to make grants to states, Indian tribes, units of 
local government, and nonprofit, non-governmental victims' service 
organizations to develop, expand, or strengthen victim service programs 
for victims of trafficking. The Office for Victims of Crime, which is 
charged with managing this program, is currently working with an 
interagency task force to finalize its development.

                               CONCLUSION

    Since passage of the VTVPA, the urgent need for these measures has 
only become more apparent. The Department of Justice continues to 
encounter many human trafficking victims who need assistance and 
protection. We commend Congress for passing this legislation and assure 
the Subcommittee that we are working--and will continue to work--
diligently to implement the VTVPA and to help bring a measure of 
comfort, justice, and dignity to trafficking victims in the United 
States by combating this modem form of oppression.
    Mr. Chairman, that completes my prepared statement. I would be 
pleased to respond to your questions at this time.

    Senator Wellstone. Let me thank both of you for your 
excellent testimony. I think Senator Brownback and I will each 
try to limit ourselves to 10 minutes for questions.
    Let me start with Under Secretary Dobriansky. How high on 
the agenda is trafficking for the Department of State? Let me 
kind of operationalize that. In your diplomatic efforts, with 
whom are you raising this issue? When President Bush meets with 
President Putin for a summit in May, will he raise the issue of 
trafficking? Who have you met with specifically to raise this 
issue?
    Ms. Dobriansky. First, I will begin with this important 
point--the fact that as an Under Secretary of State for Global 
Affairs, as I indicated, the office reports directly to me. I 
have personally raised this issue. In fact, I was abroad just 
recently in Ukraine, in South Korea, and in India. I had 
meetings at, in a couple of cases, the head of state level and 
at other levels. This was an issue that, in fact, was raised 
and discussed.
    Our Deputy Secretary has been very vigorous, very engaged 
in these trafficking-in-person issues, very helpful I think in 
a number of diplomatic exchanges and also in terms of our 
interagency coordination.
    Then finally, I would say a word about the Presidential 
level. Recently, the President, as you know, was in Asia. I am 
not aware and I cannot say that it was addressed in all of the 
countries, but I do know that there was some discussion 
actually in one of the countries, but actually for positive 
reasons because of some positive movement.
    Senator Wellstone. I think when some of the countries have 
made the improvements, that is certainly part of what we are 
asking for. It is high profile. That is important. And I would 
hope that the President, when it is not so positive, would also 
challenge governments and make it clear that this is very high 
on our list of priorities.
    What has the State Department done in domestic worker 
trafficking or abuse cases involving foreign officials of 
international organizations or diplomats in the United States 
or, for that matter, American diplomats abroad? As you know, we 
have had some sticky situations, and I am wondering what the 
State Department----
    Ms. Dobriansky. You are referring to, you said, domestic 
situations. Is that correct?
    Senator Wellstone. Yes. You have got a diplomat over here 
in Washington who has a young woman working for a family who is 
basically in slave labor conditions. What are we doing about 
that?
    Ms. Dobriansky. Well, to my knowledge, first, it goes back 
to the question about diplomatic approaches, when there are 
cases that are here in the United States, we do make 
representations certainly to the respective embassies and also 
certainly inform our posts overseas about the scale or scope of 
any cases. In addition, I believe there is also collaboration 
with the Department of Justice because it also would have 
prospective domestic legal implications. Those are the kinds of 
things that we have been doing.
    Senator Wellstone. But do we do anything beyond 
representations? Any kind of action taken that makes it clear 
it is unacceptable?
    Ms. Dobriansky. Absolutely. I would say it is also 
addressed in a broader context. If you look at this issue, we 
try to take it on more strategically. When we sit down with 
other countries--and, if I may say, using the report as a peg--
that does not only mean at the time the report was issued--but 
subsequently when we have bilateral exchanges with countries--
specific cases, specific examples are shared.
    Senator Wellstone. Mr. Dinh, I was talking earlier about 
the concern I have just based upon what I have heard or what we 
have heard all together with staff around the country. And I am 
now focusing on sort of the trafficking in our own country. By 
the way, this is a question I will ask later of the Office of 
Trafficking. We need to collect the data. I have heard so many 
different reports on exactly how many women, girls--sometimes I 
guess men or boys--we are dealing with. I think we need to have 
a clear picture of the magnitude of the problem.
    But one of the concerns I have is just in the states law 
enforcement is not necessarily trained, so they do not really 
recognize this when it is before them. Does the Department of 
Justice have any plans to ensure a greater amount of 
coordination among the assistant U.S. attorneys around the 
country and here with you all in Washington?
    Mr. Dinh. Yes, sir, and if I may highlight the coordination 
and training efforts about which you are interested and also 
highlight some of the things that we are doing in order to 
further that effort.
    In October 2000, immediately after the passage of the act, 
the Department of Justice hosted a training program for 
interagency personnel, including personnel from the Departments 
of Labor, State, and HHS, on the impact of the act on the 
investigation and prosecution of these cases and also on the 
assistance of victims. We followed up again last year with 
training of INS and FBI personnel on identifying victims and 
processing them in a humane and cooperative way through the 
process to assist the prosecution.
    In March of last year, almost immediately upon taking 
office, the Attorney General announced his initiative to combat 
trafficking. As part of that initiative, he directed our 
Intergovernmental Affairs Office, our U.S. attorneys, our FBI, 
and INS to work with the Civil Rights Division in a cooperative 
manner and also to work with our state and local partners, the 
28,000 state and local police agencies, who really come in 
contact at a very first level with these activities.
    We will continue these efforts both in training and in 
identification. We have worked with the Department of State to 
finalize an interagency intelligence center, which will be 
supervised by the Civil Rights Division, in order to get more 
intelligence, more information sharing on this matter.
    One of the things that we have encountered is the fact that 
these crimes operate in darkness. The perpetrators hide in the 
shadows. The victims suffer in silence and helplessness, so we 
have to have a very well-coordinated effort to work together 
with our state and local partners and the service agencies and 
NGOs to identify victims, to put them into the loop so that we 
can help them.
    Senator Wellstone. Let me make a quick comment and put the 
final two questions in one question to you. That way we can 
move it right to Senator Brownback and we will move things 
along.
    I again want to emphasize what I said at the beginning. I 
appreciate your comment. I am under the very distinct 
impression--and I think Senator Brownback had the sort of mood 
piece of this hearing. I think he hit it the right way, which 
is to give a lot of credit. It is only a year and people are 
moving forward. But I am impatient and I think we can do 
better, and that is fine. I think we all agree. I am under the 
impression we have a fine INS Commissioner, who was our 
Sergeant at Arms.
    I do think there has to be more training because I do think 
that you have got some of these women or some of these girls in 
these detention centers, and I do not think we are in there 
interviewing them and understanding why they are there or what 
they have been through. We need to do a better job of that. So, 
I would just emphasize that and push very hard, and I think you 
all could play a critical role.
    Let me put two cases together and just get your response. 
If the INS has determined a victim will suffer unusual or 
severe harm upon return to the country of origin, but then 
determines that the victim has not complied with the requests 
of law enforcement, will the victim be deported even though it 
is certain that she--usually we are talking about she--will 
suffer harm? And are there efforts made to protect these women 
or girls if they are deported? That is the first question. I 
will have a followup real quickly.
    Mr. Dinh. The requirements of the T-visa are specified 
under section 107 of the act and they include both extreme 
hardship and reasonable cooperation with law enforcement 
requests. So, each one of these is a statutory requirement that 
we, in implementing the non-immigrant status, have to comply 
with.
    With respect to your specific question----
    Senator Wellstone. My question is based on that----
    Mr. Dinh. Exactly, exactly. With respect to the specific 
question on whether extreme hardship is met--your asking what 
else we can do to ensure that this person is not returned to a 
country where they would suffer hardship--first I would note 
that the cooperation standard under the T-visa is only one of 
compliance with reasonable requests of law agencies. This 
standard can be met in a number of ways: by a copy of the 
complaint, by an endorsement of the law enforcement agency, by 
a transcript, by any other evidence. And it is only a 
preponderance of the evidence standard, so it is not the very 
high standard imposed in a normal criminal prosecution. So, I 
would hope that the INS, in issuing the T-visas--and indeed, 
the personnel have been trained in this regard--would be 
sympathetic toward the granting of these visas for these 
victims.
    But if there were a case when the extreme hardship 
requirement is met and yet one or the other of the statutory 
requirements are not met, then the person would not be eligible 
for a T-visa. That does not mean that he or she is not eligible 
for continued presence under 107(c) or for humanitarian parole 
that the Attorney General can grant upon his personal 
discretion such as he granted to Phanupong Khaisri, or Got.
    Senator Wellstone. I am not a lawyer, but what you are 
saying to me--I mean, we worked with you on the definition of 
cooperation. I think we reached a good compromise. But what you 
are saying is even given that definition, you have a situation 
where she has not cooperated, that the Attorney General can 
still provide, if you will, amnesty or whatever. Right?
    Mr. Dinh. Yes. Humanitarian parole, yes, sir.
    Senator Wellstone. If in fact it is clear that if she now 
is deported back to the country of origin, she could be in 
harm's way.
    Mr. Dinh. Yes. It is a discretionary grant by the Attorney 
General.
    But let me stress that noncooperation can always be 
remedied by continued cooperation or future cooperation. That 
is certainly our hope, working with the victim hand in glove, 
because I think victims and investigators here are part of the 
same team.
    Senator Wellstone. I am going to hand it to Senator 
Brownback. I am going to have a written question on the Samoa 
case that you talked about. OK?
    Mr. Dinh. That is a case near and dear to my heart.
    Senator Wellstone. Yes, I have a number of other written 
questions too.
    Senator Brownback.
    Senator Brownback. Thanks, Mr. Chairman.
    Congratulations on the work that you are doing. I am glad 
to hear about all of this.
    Dr. Dobriansky, on the advocacy work that you are doing--
and thank you for raising this in so many various places, and 
the countries you cited are certainly some key ones to raise 
these issues. I have been to a couple of those myself and 
raised the issue, and each time that is raised, I think it 
drives further home, OK, the United States is serious about 
this. My experience on human rights issues and issues like this 
is unless the U.S. raises it, it just does not get raised. So, 
I really appreciate your doing that.
    One group that I talked with was in Thailand and some of 
the regional countries there talking about a regional 
conference and working together to combat. Are you working with 
them, and what is your sense of that one? Or are there other 
regions that are working together to try to combat the issue of 
sex trafficking?
    Ms. Dobriansky. The regional approach is one which is very 
much welcome because, as you well know, this is a transborder 
issue. It does not affect just one country or a group of 
countries. It is a global problem. Certainly in a number of 
regions, it is very much interwoven and interconnected.
    The regional approach in this case, also in Africa, has 
been invaluable. In fact, let me share some developments with 
you. In December of last year, our Ambassador in Nigeria 
initiated a conference, which included a number of the 
countries surrounding Nigeria and which have been affected by 
trafficking flows. They worked toward the goal of trying to 
think about how they could collaborate regionally through 
preventive action and prosecutions because of trafficking flows 
going from one location to another. The sharing of information 
in that regard, and then also the protection of victims was 
featured. This, I think, has significant potential and is 
really a kind of strategy that we should be pursuing more 
vigorously and not just in only this region mentioned.
    Senator Brownback. Good, because it seems to me the most 
likelihood of us being able to have a basis of success where 
you get, as I understand, the information, both the sending and 
the recipient countries working together and each doing what 
they can to try to stop this flow of people moving back and 
forth.
    Mr. Dinh, we will hear a witness on the third panel about 
international sex tourism. There are some laws on the books 
already about this, but it involves, as I understand, you have 
to establish an intention in the person's mind once they buy 
the ticket before they leave the country to do this. And that 
makes those cases pretty difficult to prosecute. Have you had 
any review of cases like this or any dealings with cases like 
that?
    Mr. Dinh. Yes, sir. When this problem was brought to our 
attention, I asked the Child Exploitation and Obscenity Section 
to explain the problem to me in light of the prosecution of 
these cases and difficulties they encounter. And the problem is 
exactly as you stated. That is, a person has to have formed the 
intent to engage in sex with a minor abroad before he leaves 
the country in order to qualify for prosecution under current 
law. And, indeed, even if a person has formed such an intent, 
you can imagine the prosecutorial and investigative problems we 
encounter in establishing the formation of such intent prior to 
getting on the plane and leaving this country. Having sex with 
a minor while abroad alone is not enough under current law. One 
has to have formed the intent prior to one leaving the country, 
and that is the evidentiary problem that we have under current 
law.
    Senator Brownback. Well, we want to work with you to make 
changes in the current law so that those cases can be 
prosecuted because one of the things that the Thai officials 
raised with me was saying, we are getting people traveling in 
here from out of country and conducting and doing really awful 
activities. We want to stop the trafficking, but we want to 
stop this person from coming in and doing these sorts of 
activities. And I thought, well, that is a legitimate request 
on their part toward us.
    Have you had any conversations like that with other 
officials? Or maybe I should ask Dr. Dobriansky as well if you 
have.
    Mr. Dinh. I certainly have asked our folks to suggest ways 
that we can think about, with your leadership, as you 
suggested, curing this problem. One way to think about the 
problem is to make the simple act of sex with a minor abroad 
without the prior intent sufficient to prosecute under the 
Federal law. That would require a legislative fix. Likewise, 
those who facilitate such actions by the operating of tours for 
those purposes should be held liable so that we can get at the 
root cause of these, the operators of these tours. But we would 
welcome your leadership on the issue, and I look forward to 
working with you for the legislative fixes we need.
    Senator Brownback. Have you had this raised with you?
    Ms. Dobriansky. I would just say that our discussions have 
varied. There have been some countries that have been more 
forthcoming on information and there have been others that have 
not. It depends upon who you are speaking to and the context. 
But I have to say that on several occasions this issue has been 
raised.
    Senator Brownback. Good. Thank you both. Really, please 
express our appreciation to your Departments for really 
grabbing a hold of this aggressively, early, quickly and 
pressing it. We want to work with you to get more done fast. 
When you look in the eyes of the children that you are helping, 
it is a very gratifying thing, what you are doing. It is an 
awful thing that is happening to them, and for us to get what, 
I think the chairman has once referred to, as this part of the 
dark side of the globalizing economy, getting at that is an 
important thing for us and humanity to be dealing with. So, 
thanks for what you are doing.
    Senator Wellstone. Thank you, both of you. We appreciate 
your leadership.
    Mr. Dinh. Thank you.
    Ms. Dobriansky. Thank you.
    Senator Wellstone. We are just going to try to move right 
along. The second panel will be Ambassador Ely-Raphel. 
Ambassador Ely-Raphel is the new Senior Advisor to the 
Secretary on trafficking issues and the Director of what I will 
call the Office of Trafficking. And Dr. Van Hanh is the new 
Director of the Office of Refugee Resettlement.
    Ambassador Ely-Raphel.

 STATEMENT OF AMB. NANCY H. ELY-RAPHEL, SENIOR ADVISOR, OFFICE 
  TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Ely-Raphel. Thank you, Mr. Chairman. With your 
permission, I would like to present my full testimony for the 
record and thus abbreviate my statement.
    Senator Wellstone. It will be in the record.
    Ms. Ely-Raphel. Thank you.
    It is an honor for me to appear before the Senate for the 
first time in my capacity as the head of the Office to Monitor 
and Combat Trafficking in Persons.
    Trafficking in persons is a criminal commerce in human 
lives in which individuals are nothing more than commodities to 
be exploited for profit. It is a contemporary form of 
enslavement through physical, economic, or psychological 
bondage by those who dishonor and corrupt every value and ideal 
American society represents. It is a problem that cries out for 
redress.
    The 2001 Trafficking in Persons report has proven to be an 
invaluable tool in raising the profile of trafficking 
throughout the world and spurring governments to take action. 
The stigma attached and the threat of sanctions is a strong 
motivator.
    The annual trafficking report is a work in progress. Over 
the last several months, we have solicited feedback from NGOs, 
congressional officials and staff, and relevant government 
agencies. Based on this response, we launched an e-mail address 
to enable NGOs and international organizations to send 
trafficking information directly to the office. This change, we 
believe, will allow more direct engagement by the NGOs, as well 
as enhance transparency.
    In addition, our embassies and consulates are providing 
more detailed information. We have added data-specific 
questions on the number of arrests, indictments, plea bargains, 
fines, and convictions of traffickers.
    During fiscal year 2001, the State Department supported and 
implemented over 100 trafficking-related programs and 
initiatives in approximately 40 countries. This year we will 
focus on assisting eligible countries in tiers 2 and 3. We will 
continue to expand our assistance to local NGOs and 
international organizations. In addition, we will seek to 
expand our government-to-government programs for those 
governments that are committed to address trafficking. These 
types of programs included legislative assistance, training 
programs for government officials to investigate and prosecute 
traffickers, and startup equipment for anti-trafficking task 
forces or police units. We are encouraging our embassies to 
solicit financial or in-kind support from the host governments 
for programs implemented by NGOs. We hope this approach will 
help to ensure sustainability of the NGO programs, as well as 
facilitate government-NGO cooperation.
    Next week my office will meet with relevant State 
Department bureaus, AID, and the Department of Labor to begin 
reviewing the many good proposals we received for possible 
funding.
    As Under Secretary Dobriansky noted, we have raised 
trafficking at every opportunity with foreign governments, 
domestic audiences, and within our own government. Last week I 
attended the Regional Ministerial Conference on People 
Smuggling, Trafficking in Persons, and Related Transnational 
Crimes in Indonesia. I was struck by the high level of 
commitment in that region to combat trafficking in persons and 
organized crime. There was much candid discussion about the 
need to improve their efforts to address trafficking in 
persons.
    Over the last year, members of our new office have traveled 
to Japan, West Africa, Belgium, Brazil, Mexico, Germany, and 
Jamaica to speak on trafficking panels at international 
conferences and to share information with various foreign 
government officials and non-governmental representatives. They 
also traveled to different states, ranging from Alaska to 
Vermont, to enhance domestic public awareness of the 
trafficking issues or participate in training courses and 
conferences for U.S. Government officials.
    The U.S. Government and Congress' enactment of the Victims 
of Trafficking and Violence Protection Act of 2000 put the 
spotlight on this violation of fundamental human rights. As a 
result of our leadership, in many cases governments are taking 
action, and we will work very, very hard to ensure success in 
our program.
    I thank you very much for the opportunity to share our 
efforts and progress and look forward to continued 
collaboration with you.
    [The prepared statement of Ambassador Ely-Raphel follows:]

Prepared Statement of Amb. Nancy H. Ely-Raphel, Senior Advisor, Office 
   to Monitor and Combat Trafficking in Persons, Department of State

    It is an honor for me to appear before the Senate for the first 
time in my capacity as the head of the Office to Monitor and Combat 
Trafficking in Persons at the U.S. Department of State. We are all here 
today to talk about trafficking in persons, which is the modern-day 
form of slavery that plagues our societies in the new millennium.
    As Under Secretary Dobriansky indicated in the previous panel, the 
Department of State is actively implementing the provisions of the 
Victims of Trafficking and Violence Protection Act of 2000. I would 
like to take this opportunity to provide details about what the 
Trafficking Office is doing at the working level with respect to the 
Trafficking in Persons Report, international programs and outreach.

                     TRAFFICKING IN PERSONS REPORT

    The 2001 Trafficking in Persons Report has proven to be an 
invaluable tool in raising the profile of trafficking throughout the 
world and spurring countries to take action. The stigma attached--and 
the threat of sanctions--is a strong motivator. Government 
representatives from Tier 3 countries such as South Korea, Israel and 
Romania, met with us on several occasions for guidance on actions they 
could take to improve their record.
    The Annual Trafficking in Persons Report is a work in progress. 
Over the last several months, we solicited feedback from non-
governmental organizations, congressional officials and their staff, 
and relevant U.S. government agencies on how we can improve this 
Report.
    Based on this feedback we launched an e-mail address to allow non-
governmental and international organizations to send trafficking 
information directly to the Office. This change we believe will allow 
more direct engagement by the non-governmental organizations as well as 
enhance transparency. The response has been very positive. Already, we 
are getting information from various NGOs around the world.
    In addition, our embassies and consulates around the world are 
providing more detailed information for the 2002 Report regarding 
corruption and the political will of governments to combat trafficking. 
We also added data-specific questions on the number of arrests, 
indictments, plea bargains, fines, and convictions of traffickers. This 
is in direct response to a concern raised by many of our colleagues in 
the non-governmental arena, who noted that a country's commitment can 
certainly be measured through their commitment to stamping out 
corruption. As of this week, over half of our embassies have submitted 
their information for the second annual Trafficking in Persons Report.
    I will use this report as a mechanism to expand our bilateral 
dialogues with other countries. It is only through this dialogue that 
we can educate countries, identify their shortcomings, and assist them 
in strengthening their efforts.
    Finally, I would also like to note that the Annual Country Reports 
on Human Rights Practices, which the Department issued this past 
Monday, contained detailed information about the problem of 
trafficking, which was compiled by the Bureau of Democracy, Human 
Rights, and Labor and our many embassies overseas. Members of my office 
worked collaboratively with the Bureau of Democracy, Human Rights, and 
Labor on these reports, which contain detailed information on a variety 
of subjects related to trafficking, including conditions for victims 
and efforts by Governments and non-governmental organizations to combat 
trafficking.

                         INTERNATIONAL PROGRAMS

    During fiscal year 2001, the State Department supported and 
implemented over 100 trafficking-related programs and initiatives in 
approximately 40 countries. The estimated value of the State Department 
programs is $11.5 million. The types of programs funded included 
information campaigns, international visitor programs, law enforcement 
training programs, equipment for new anti-trafficking police units, 
equipment for forensic interview rooms for child victims, equipment for 
new crisis centers, and repatriation and reintegration programs.
    This year we will focus on assisting eligible countries in Tiers 2 
and 3 to address trafficking in persons. We will continue to expand our 
assistance to local non-governmental and international organizations 
for services to victims and for trafficking prevention. In addition, we 
will seek to expand our government-to-government programs for those 
governments that are committed to address trafficking. These types of 
programs include legislative assistance, training programs for 
government officials to investigate and prosecute traffickers, and 
start-up equipment for anti-trafficking taskforces or police units. We 
are encouraging our embassies to solicit financial or in-kind support 
from the host governments for programs implemented by nongovernmental 
organizations. We hope this approach will help to ensure sustainability 
of the NGO programs as well as facilitate government-NGO cooperation, 
and ultimately end our engagement so we can invest our funds in other 
countries that present new opportunities for beginning or strengthening 
the battle against trafficking.
    Next week, my Office will meet with relevant State Department 
bureaus, USAID, and Department of Labor to begin reviewing the many 
good proposals we received for possible funding. We will collectively 
identify the proposals which merit further consideration, then each 
bureau or agency will proceed with its own internal approval and 
administrative process to get these proposals funded. We have a 
tracking system in place to begin monitoring the amount of funds 
obligated for international anti-trafficking programs. This will help 
us better allocate our limited resources and promote transparency and 
coordination within the U.S. government.

                                OUTREACH

    A key role of my Office is to promote awareness about the 
trafficking issue and the U.S. government's antitrafficking efforts 
with foreign governments, our own government, non-governmental 
organizations and the general public.
    As Under Secretary Dobriansky noted, we have raised trafficking at 
every opportunity with foreign countries, domestic audiences, and 
within our own government. Last week I attended the ``Regional 
Ministerial Conference on People Smuggling, Trafficking in Persons and 
Related Transnational Crimes'' in Indonesia. I was struck by the high-
level commitment in the region to combat trafficking in persons and 
organized crime. There was much candid discussion about the need to 
improve their efforts to address trafficking in persons.
    While the Trafficking in Persons Report has helped illuminate the 
importance of the issue, we need to continue to educate governments on 
the importance of safeguarding the rights of victims, providing them 
with protection and prosecuting the traffickers. We also need to 
educate governments on the differences between migrant smuggling and 
trafficking in persons.
    Over the last year, members of our new office traveled to Japan, 
West Africa, Belgium, Brazil, Mexico, Germany, and Jamaica to speak on 
trafficking panels at international conferences and share information 
with various foreign government officials and non-governmental 
representatives. They also traveled to different states, ranging from 
Alaska to Vermont to South Carolina, to enhance domestic public 
awareness of the trafficking issue and/or participate in training 
courses and conferences for U.S. government officials.
    We are working to institutionalize anti-trafficking training for 
our foreign and civil service officers, ambassadors, and other U.S. 
government officials. For example, we recently did a presentation on 
the scope and magnitude of trafficking in Vermont as part of a program 
for INS personnel who will be adjudicating T Visa applications.

                                CLOSING

    The United States Government, and Congress' enactment of the 
Victims of Trafficking and Violence Protection Act of 2000, put the 
spotlight on this human rights and criminal problem. As a result of our 
leadership, in many cases governments are taking action to eradicate 
this crime and to help its victims. The success of our efforts will be 
determined by the extent to which the fight against trafficking and 
assistance to its victims becomes institutionalized in civil society 
and governments all over the world.
    I thank you for the opportunity to share our efforts and progress, 
and look forward to our continued collaboration.
    Thank you.

    Senator Wellstone. Thank you very much. You made the yellow 
light, broke a record for all of us.
    Dr. Hanh.

   STATEMENT OF NGUYEN VAN HANH, PH.D., DIRECTOR, OFFICE OF 
REFUGEE RESETTLEMENT, DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Dr. Hanh. Mr. Chairman and distinguished members of the 
committee, thank you for the opportunity to testify on the 
progress of the Department of Health and Human Services [HHS], 
in implementing the Trafficking Victims Protection Act of 2000. 
With your permission, my full testimony has been submitted for 
the record.
    Senator Wellstone. It will be included in the record.
    Dr. Hanh. The following is my brief statement.
    As evidenced by this panel, HHS is only one of the many 
Federal agencies playing a role in efforts to combat human 
trafficking. Given the complexity of participating in such a 
multi-agency endeavor, I am pleased at the progress that has 
been made and I am committed to continuing our efforts to 
implement the law in conjunction with the other key Federal 
agencies.
    The Trafficking Victims Protection Act makes adult victims 
of severe forms of trafficking, who have been certified HHS, 
eligible for certain benefits and services to the same extent 
as refugees. Victims of severe forms of trafficking who are 
under 18 years of age also are eligible for these benefits to 
the same extent as refugees, but do not need to be certified. 
Rather, these young victims receive letters of eligibility for 
services.
    HHS has developed a systematic approach to the 
certification of trafficking victims and the facilitation of 
their access to benefits and services. We consult frequently 
with the U.S. Department of Justice, the agency that 
investigates and prosecutes trafficking cases and refers 
appropriate cases to my office for certification. We also 
coordinate with the U.S. attorneys' offices around the country 
on trafficking cases, as well as other Federal law enforcement 
officials from the Department of Labor and Immigration and 
Naturalization Service [INS].
    Once we receive a referral, in order for us to issue a 
letter of certification, we must ensure that the victim has met 
all of the criteria required by the act. Adult victims must 
either have been granted continued presence or have received a 
bona fide T-visa application determination by INS. In addition, 
adult trafficking victims must be willing to assist in every 
reasonable way in the investigation and prosecution of 
traffickers. Finally, individuals must be determined to be 
victims of a severe form of trafficking.
    If the appropriate criteria are met, then we will provide a 
certification letter to adult victims safely and without 
breaches of confidentiality. In addition, we contact local 
refugee service providers and other benefit-granting agencies 
to identify the most appropriate local programs to help the 
victims.
    We also work with the INS to coordinate access to 
employment authorization documents, or EAD's. If a victim has 
an EAD, he or she may be eligible to enroll in programs which 
emphasize employment. One of these programs, the matching grant 
program, is designed to help refugees and now trafficking 
victims to obtain self-sufficiency within 4 months.
    No group of individuals is more fragile and susceptible 
than victims who are under the age of 18, especially when the 
minors are unaccompanied by a parent or guardian. We are 
developing procedures to provide the best options for these 
victims, who not only need to begin their recovery from their 
traumatic experiences but also require resolution of their 
custody.
    In fiscal year 2001, we issued 194 certification letters to 
adults and 4 eligibility letters to minors under the age of 18. 
Since the beginning of fiscal year 2002, 17 more certification 
letters for adults have been sent and 5 additional minors have 
received letters of eligibility.
    If you will allow me a couple of minutes, I would like to 
clarify a couple points here.
    In addition to certification and assistance activities, the 
Trafficking Victims Protection Act calls for HHS, in 
collaboration with other designated Federal agencies, to 
establish and carry out programs to increase public awareness 
about trafficking in persons. To that end, we have been 
actively involved with outreach efforts aimed at immigrant and 
refugee communities, non-governmental organizations, voluntary 
agencies, state and local social service providers, and other 
Federal and state officials.
    Clearly, the trafficking program requires a close working 
relationship among many departments. HHS Deputy Secretary 
Claude Allen recently participated in the inaugural meeting of 
the President's Interagency Task Force on Trafficking, chaired 
by Secretary of State Colin Powell, reinforcing our commitment 
to work together on this critical effort.
    In fiscal year 2001, we awarded more than $1.25 million in 
discretionary grants to aid organizations throughout the United 
States. The grants provide groups the means to assist certified 
and/or eligible victims of trafficking in order to enhance 
their transition from victimization to self-sufficiency. In 
addition, these trafficking grant funds may also be used to 
fund other services needed during the time between the date of 
HHS certification/eligibility letters and the receipt of public 
benefits and support services.
    I want to thank the committee for offering me the 
opportunity to outline HHS' response to the problem of human 
trafficking. Thank you.
    [The prepared statement of Dr. Hanh follows:]

   Prepared Statement of Nguyen Van Hanh, Ph.D., Director, Office of 
    Refugee Resettlement, Administration for Children and Families, 
                Department of Health and Human Services

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to testify on the progress of the Department of 
Health and Human Services (HHS) in implementing the Trafficking Victims 
Protection Act of 2000. As the Director of the Office of Refugee 
Resettlement (ORR), within the Administration for Children and 
Families, I am responsible for implementation of several provisions in 
the Trafficking program which I will discuss today. I want to assure 
you that the Department of Health and Human Services is fully committed 
to implementing this important legislation to protect and assist 
trafficking victims as part of the fight against the atrocity of human 
trafficking.
    Since enactment of the law, HHS has acted quickly to implement our 
responsibilities under the Act, keeping in mind that behind our paper 
processes are vulnerable human beings who have been subjected to severe 
physical and emotional cruelty. These trafficking victims are 
frequently in desperate need of assistance, and HHS has worked 
diligently to see that once someone is determined to be a victim, no 
time is wasted in linking them up with necessary benefits and services.
    HHS is determined to see that victims are given the opportunity to 
regain their dignity--by emphasizing benefit programs geared toward 
building self-sufficiency, rather than dependency. It has been our 
experience to date that this approach is what most trafficking victims 
prefer. When victims are empowered to gain back control of their own 
lives, everyone wins.
    HHS is only one of many federal agencies playing a role in efforts 
to combat human trafficking. Given the complexity of participating in 
such a multi-agency endeavor, I am pleased at the progress that has 
been made and will commit to continuing our efforts to implement the 
law in conjunction with the other key federal agencies. Before speaking 
to our progress, however, I would like to provide a brief overview of 
the Trafficking Victims Protection Act and our Department's role in its 
implementation.

                             I. BACKGROUND

    The Trafficking Victims Protection Act of 2000 makes adult victims 
of severe forms of trafficking, who have been certified by HHS after 
consultation with the Attorney General, eligible for certain benefits 
and services to the same extent as refugees. Victims of severe forms of 
trafficking who are under 18 years of age also are eligible for these 
benefits to the same extent as refugees but do not need to be 
certified.
    ``Severe forms of trafficking in persons'' is defined under the Act 
to mean: 1) sex trafficking in which a commercial sex act is induced by 
force, fraud, or coercion, or in which the person induced to perform 
such act is under 18 years of age; or 2) the recruitment, harboring, 
transportation, provision, or obtaining of a person for labor or 
services, through the use of force, fraud, or coercion for the purpose 
of subjection to involuntary servitude, peonage, debt bondage, or 
slavery.
    I would like to turn now to our efforts to implement the 
certification requirements under the trafficking program.

                II. CERTIFICATION AND VICTIM ASSISTANCE

    HHS has been actively involved in developing policies and 
procedures related to certifying individuals who are determined to be 
victims of a severe form of trafficking, and making victims eligible to 
access federal and certain state benefits and services to the same 
extent as refugees.
    HHS has developed a systematic approach to the certification of 
trafficking victims and the facilitation of their access to benefits 
and services. We consult on a daily basis with staff at the U.S. 
Department of Justice, the agency that investigates and prosecutes 
trafficking cases and refers appropriate cases to my office for 
certification. We also coordinate with U.S. Attorneys' Offices around 
the country on trafficking cases as well as other federal law 
enforcement officials from the Department of Labor and Immigration and 
Naturalization Service.
    Once a referral is received, we must ensure that the victim has met 
all the criteria required by the Act in order to be certified. Adult 
victims must either have been granted continued presence or have 
received a bonafide T-visa application determination by INS. In 
addition, adult trafficking victims must be willing to assist in every 
reasonable way in the investigation and prosecution of severe forms of 
trafficking in persons. Finally, individuals must be determined to be 
victims of a severe form of trafficking. Individuals under the age of 
18 only need to be determined to be victims of a severe form of 
trafficking in order to be eligible to access federal and certain state 
benefits and services to the same extent as refugees.
    If the appropriate criteria are met, then a certification letter 
will be provided to victims safely and without breaches of 
confidentiality. In addition, we contact local refugee service 
providers and other benefit-granting agencies to inquire about 
appropriate local programs to help the victims. Many victims are in 
need of psychological counseling, medical assistance and legal 
referrals.
    Further, we work with the Immigration and Naturalization Service 
(INS) to coordinate access to Employment Authorization Documents 
(EADs). I am very pleased that INS recently decided that EADs for 
victims whose continued presence is necessary to effectuate the 
prosecution of traffickers will be processed and issued centrally. This 
decision means that every victim will receive continued presence and 
his/her EAD at the same time. The EAD is a critical document because it 
permits eligible victims to work, which, in turn, leads towards self-
sufficiency and improved self-esteem. If a victim has an EAD, she/he 
may be eligible to enroll in programs, such as ORR's Voluntary Agency 
Match Grant Program, which emphasize employment. The increased 
stability that employment provides better prepares victims to assist in 
the prosecution of the traffickers.
    I am also heartened by the recent issuance of the T-visa 
regulations by the Department of Justice. Victims whose application for 
a T-visa is determined by INS to be bonafide, and who are willing to 
cooperate with prosecution efforts, are eligible for HHS certification. 
Creating a process by which victims may work towards normalizing their 
immigration status while simultaneously making them eligible for 
benefits, encourages victims to develop stability in their lives and 
gain trust in the American justice system.
    No group of individuals is more fragile and susceptible than 
victims who are under the age of 18, especially when the minors are 
unaccompanied by a parent or guardian. We are developing procedures to 
provide the best options for these victims, who not only need to begin 
their recovery from their traumatic experiences but also require 
resolution of their custody. Our goal is to ensure that all minors who 
are victims of a severe form of trafficking come forward and receive 
the protection and assistance they need.
    Through regular contact with refugee service providers and other 
agencies assisting trafficking victims, we continue to learn a great 
deal about the certified trafficking population in the United States 
today. In FY 2001, ORR issued 194 certification letters to adults and 4 
eligibility letters to minors under the age of 18. Since the beginning 
of fiscal year 2002, 17 more certification letters for adults have been 
sent, and five additional minors have received letters of eligibility.
    The majority of victims, 82 percent, are female, while 39 victims, 
18 percent, are men. Although the 220 victims have come from a variety 
of countries, a disproportionate number are from Vietnam. The 
Vietnamese victims were all involved in a single case in which garment 
workers, who believed they were coming to work in a U.S. factory, were 
held in slavery-like conditions with their freedom of movement 
restricted and, in some instances, suffered physical abuse.
    Victims have also come from Bangladesh, Brazil, Cameroon, China, 
India, Jamaica, Mexico, Micronesia, Russia and Sri Lanka. Some of the 
victims were forced into a form of involuntary domestic servitude, 
forced to stay in the trafficker's house, suffering physical abuse and 
receiving no compensation for their work. Other victims were forced to 
work in the sex industry. In many of these cases, traffickers took the 
victims' immigration documents, restricted victims' freedom of 
movement, physically abused them and did not provide payment for work.
    Victims are located throughout the United States. In all, 
certification/eligibility letters have been sent to benefit-issuing 
offices in 19 states plus the District of Columbia. Despite the 
hardships that these victims have suffered, many have been able to 
successfully participate in the refugee assistance program called the 
Voluntary Agency Match Grant Program. This program is designed to help 
refugees, and now trafficking victims, attain self-sufficiency within 
four months. The program emphasizes employment, English language 
training and cultural orientation.
    During FY2001, 34 percent of the victims applied for food stamps, 
while 21 percent applied for Refugee Cash Assistance and 35 percent 
applied for Refugee Medical Assistance. Less than one percent of 
victims applied for Temporary Assistance for Needy Families (TANF) and 
Supplemental Security Income (SSI). The low application rates for TANF 
and SSI benefits are reflective of the fact that the overwhelming 
majority of certified/eligible victims are relatively young, employable 
single adults with no children.

                        III. OUTREACH ACTIVITIES

    In addition to certification and assistance activities, the 
Trafficking Victims Protection Act calls for HHS, in collaboration with 
other designated federal agencies, to establish and carry out programs 
to increase public awareness about trafficking in persons. To that end, 
we have been actively involved in outreach efforts aimed at immigrant 
and refugee communities, non-governmental organizations, voluntary 
agencies, state and local social service providers, state and local law 
enforcement, the general public, and other federal and state government 
officials.
    HHS is developing plans to conduct a public awareness campaign 
designed to raise awareness about trafficking in persons and to 
encourage victims to step forward and seek help. HHS will continue to 
work with our federal counterparts to ensure trafficking victims 
receive all the benefits they are eligible for through the 
certification process. To further that end, we have facilitated 
training and given presentations in a variety of organized forums, 
reaching out to more than 1,400 individuals and organizations. These 
sessions focused on the problem of trafficking, background of the 
legislation, the roles and responsibilities of HHS within the law, the 
role of benefit-issuing offices within the HHS certification process, 
and the benefits and services available to certified/eligible 
trafficking victims.
    Clearly, the trafficking program requires a close working 
relationship among many cabinet departments. HHS Deputy Secretary 
Claude Allen recently participated in the inaugural meeting of the 
President's Interagency Task Force on Trafficking, chaired by Secretary 
of State Colin Powell, reinforcing our commitment to work together on 
this critical effort. In addition, we have participated in an 
interagency working group that drafted a ``trafficking in persons'' 
brochure designed for wide dissemination to nongovernmental 
organizations. The brochure focuses on the needs of trafficking victims 
and what non-governmental organizations can do to assist them.

                        IV. DISCRETIONARY GRANTS

    The last implementation activity I would like to address is ORR 
discretionary grants. In FY 2001, we awarded more than $1.25 million in 
17-month discretionary grants to eight organizations throughout the 
United States. The grants provide these non-governmental groups the 
means to assist certified and/or eligible victims of trafficking in 
order to enhance their transition from victimization to self-
sufficiency. Grant funds may be used for a wide range of services, 
including case management, temporary housing, special mental health 
needs (such as trauma counseling), legal assistance referrals, and 
cultural orientation. These grant funds also may be used to fund other 
services needed during the time between the date of HHS certification/
eligibility letters and the receipt of public benefits and support 
services.
    We are pleased with the efforts of our grantees to date in finding 
ways to address the needs of trafficking victims, reaching out to 
community groups, and developing a growing network of service providers 
and law enforcement agencies who are committed to providing assistance 
to trafficking victims. Because of our successful experience so far 
working with these grantees, we plan to issue another grant 
announcement in the current fiscal year to provide additional 
opportunities and expand efforts to reach out to increasing numbers of 
trafficking victims.

                             V. CONCLUSION

    As important as are the steps we have taken so far, we know that 
there are still a large number of victims trafficked annually into the 
United States. Our experience so far has made it clear how important it 
is to provide the right type of assistance to victims. We need to help 
victims understand that coming forward will result not in further 
victimization, but in their being made safe and provided with help.
    We are committed to continuing our close relationships working with 
our fellow federal agencies and ensuring that we increase the 
communication to trafficking victims that we will protect them and will 
provide them with supportive services. If successful, our model will be 
important not only for victims in the United States but also for 
trafficking victims throughout the world.
    I want to thank the committee for offering me the opportunity to 
outline HHS' response to the problem of human trafficking. At this time 
I'd be glad to address any questions you may have.

    Senator Wellstone. Thank you very much, Dr. Hanh, and to 
you too, Ambassador Ely-Raphel.
    Let me start with Ambassador Ely-Raphel because of the 
remarks that I made in my opening statement. One of the 
concerns that I have, as you know, in the spirit of ``we can do 
better,'' is the importance of your office really bringing the 
agencies together and having a clear focus, clear benchmarks. 
It appears to me that a lot of your effort has been toward 
combating trafficking internationally, which is, of course, 
important. I am interested, in my questioning, in what efforts 
are underway to fight the trafficking domestically. How many 
meetings have you had with staff from DOJ and HHS and Labor? Do 
you have a coordinated strategy so the programs do not 
duplicate each other? Have you established some benchmarks 
whereby we can evaluate the programs?
    Ms. Ely-Raphel. Mr. Chairman, I could say I am in almost 
constant communication with the Department of Justice, with the 
Department of Labor and the Department of HHS. We have had 
innumerable meetings, not only the task force meetings, but any 
number of meetings. The Justice Department co-chairs meetings 
with the Solicitor of Labor on victim exploitation and 
trafficking in persons. We have participated in all the 
meetings that they have held.
    Senator Wellstone. Maybe I am just misinformed. My 
impression is that the actual bringing together all of the 
different agencies for an interagency meeting, that you have 
had just one of these meetings. Am I wrong?
    Ms. Ely-Raphel. We had one large meeting just before----
    Senator Wellstone. When was that?
    Ms. Ely-Raphel. But we have had innumerable meetings with 
all the agencies.
    Senator Wellstone. No, I understand you talk with different 
people, but I am talking about bringing people together, doing 
the coordination, doing the focus. You are key to that.
    When have you brought everybody together from all the 
agencies where you had an interagency meeting, you chair, you 
coordinate? Was that this past week?
    Ms. Ely-Raphel. We had one this week. We had one the week 
before that that the Secretary chaired, and we had one about 2 
weeks before that and we have had a number of meetings in 
between. So, I think we are doing a lot of coordinating and a 
lot of meeting. You talked with my colleagues from the other 
departments. I think they may be getting tired of seeing me and 
hearing my voice.
    Senator Wellstone. I do not want to say that is good.
    Have you met regularly with the NGOs and some of the 
trafficking victims?
    Ms. Ely-Raphel. We have. We had all the NGOs--I met with 
all of them when I first began this job in acquiring 
information as to what they thought we should do to improve the 
report before we send out our cable to all our embassies asking 
for information on the reports. I met with them subsequently. 
In fact, yesterday I spoke to a whole group of NGOs on 
trafficking.
    Senator Wellstone. Ambassador Ely-Raphel, so if I met with 
the NGOs--our office is close to them--and I say do you feel 
like this Office of Trafficking is reaching out, meeting with 
you in regular consultation, their answer will be yes?
    Ms. Ely-Raphel. I hope so, and if not, we will be very 
happy to meet with them more often. My door is always open to 
all the NGOs.
    Senator Wellstone. That is very responsive and I thank you.
    Do you plan to release an interim report on the progress 
made? I think you know some of these questions that are coming. 
It is just good to get your answer on the record. Tier 1, 2, 
and 3, and in particular with the 3 countries, I am interested 
in whether or not any of those countries have now made some 
positive steps and are now more cooperative in light of the 
report.
    Ms. Ely-Raphel. Well, I think the country that drew the 
most attention of all probably was South Korea that was on tier 
3. We have met with the South Korean Government from the 
highest levels. They presented us with a great deal of 
information. They took their place in the report very, very 
seriously and, indeed, are a role model for the way states 
should react to the situation. As I indicated to their Minister 
whom I met with when I was in Indonesia, I would give them a 
tremendous amount of credit as would any other members of the 
administration, the State Department, for what they were doing, 
but we were very close to issuing the next report, which will 
come out in June, and I have been complimenting the South 
Koreans on the role that they have taken in doing this.
    Senator Wellstone. The next report will be out in June?
    Ms. Ely-Raphel. And the next report will be out in June. 
So, the information is coming in now.
    Senator Wellstone. As to progress made by tier 1, 2, and 3?
    Ms. Ely-Raphel. And similarly, there have been other 
countries as well that were on tier 3 that have come in and 
made major efforts.
    Senator Wellstone. Thank you. I will just keep moving 
along.
    I said this earlier and I was wondering about your 
response. I was saying we have got the CIA with an estimate of 
50,000 victims that are trafficked in the United States per 
year. The administration has identified fewer than 250 victims. 
Do you have any data that you can present to us as to what we 
are dealing with here, the magnitude of the problem in our own 
country? In other words, I am for the global part, but then 
when we hear a report of women from Ukraine forced into 
prostitution 2 miles from here in Bethesda, I think we better 
make sure we get it right here too. Do you have any data as to 
the magnitude of the problem we are dealing with here in our 
own country?
    Ms. Ely-Raphel. I know the figures that we use for the 
United States. I am not confident that we have the right 
figures. In many respects, when I go around talking to people, 
I feel like it is the tip of the iceberg, that it is much more 
serious than the figures that we have. I have been in 
communication with all the intelligence agencies, and they have 
assured us that they are working on this and will provide us 
with better information.
    Senator Wellstone. Any help I think you could give us in 
presenting your best estimate. I am not trying to be snide 
between 50,000 and 250,000. So, any help you can give us, given 
your key position, giving us some sense of what the magnitude 
of the problem is would be much appreciated.
    Finally, Dr. Hanh, because I will run out of time, I think 
you referred to the $10 million that you received for 
trafficking victim services. What are your plans for funding 
organizations that provide these victim services and also to 
train those organizations? I think you referred to it but I was 
rushing you along.
    Dr. Hanh. Certainly out of the $10 million authorized we 
have spent $1.25 million for eight grants nationwide to help 
with providing services, assistance to the victims. We also use 
the money for staffing and other services. We intend to engage 
in grants to the communities in anticipation of the expanded 
needs of services to the victims. We also, in particular, are 
planning for increasing awareness or a campaign for public 
awareness, if you wish, just to be sure not only nonprofit 
organizations and community-based organizations are aware of 
the issues, but also to encourage victims and others to come 
forward so that we have a better handle on the magnitude of the 
problems and how to help the victims.
    Senator Wellstone. Thank you.
    Senator Brownback.
    Senator Brownback. Thanks, Mr. Chairman, and thank you both 
for being here to testify in front of us.
    Ambassador, you being the first person to head this office, 
you kind of set the template for it, and so we wish you well 
and Godspeed on really setting an aggressive agenda.
    The first report that came out was excellent. It really lit 
a fire under a number of places. I thought it was quite 
valuable.
    There has been some internal discussion going on about is 
the office just about issuing a report or is it about advocacy 
and other issues. My clear preference is for it to be a very 
aggressive advocacy office for elimination of international 
trafficking, this modern form of slavery. As you look at what 
your role is at the head of this office, how would you put it 
in a couple of words?
    Ms. Ely-Raphel. Absolutely. I think it is advocacy. I think 
the report gives us a wonderful tool to use, but in my 
conversations--and I met with many government officials, 
particularly at the meeting in Indonesia. They had 31 Ministers 
there. They are all interested in trafficking and they all 
seemed to be interested in doing something about it. So, I 
think we are getting their attention, but I think we just have 
to go back and work out country action plans that will address 
the problems and try to go some way to resolve them.
    Senator Brownback. I would hope you would be on the road a 
lot, not that I want to hurt your family life or anything like 
that. But it seems like right now would be a very important 
time to be on the road, particularly with the second and third 
tier countries and going there and saying, here is what we are 
looking for and we would like to get you off of being in the 
third tier. We are happy to work with you on this. I hope you 
would be out there a great deal.
    Ms. Ely-Raphel. That is exactly what I intend to do and 
that is exactly what we are hoping we can work out with these 
countries to encourage them to work with us, because if they 
are not interested, we cannot do anything for them. But if they 
are interested in dealing with the problem, it is such a great 
opportunity for us.
    Senator Brownback. I want to ask you about an aspect of 
this that I think is pretty tough to deal with, and I wonder 
how you are responding to it. You are a former Ambassador and 
have worked overseas a great deal. You know the sensitivity of 
what happens to families in that country. For instance, if you 
are a girl who has been trafficked from the Ukraine, that 
organized crime may have been a part of this, and that your 
family that remains in the Ukraine is under a threat. We have 
heard about these sort of situations. We had some women who 
have been trafficked and reported that their families had been 
intimidated in their home country and that they could not speak 
out because of that intimidation toward their own families. How 
do we address that issue for them? How do you think we go about 
making it safe for people to come forward and speak out about 
what has happened to them back in their own countries?
    Ms. Ely-Raphel. Well, if they are a victim here in the 
United States and they are agreeing to cooperate with law 
enforcement, they would be eligible for a T-visa which would 
enable a woman to bring her husband and family here, or if it 
is a child, to bring the parents here.
    Senator Brownback. What about the rest of the extended 
family?
    Ms. Ely-Raphel. It depends on what country we are dealing 
with. You mentioned Ukraine. We do have a regional legal 
officer, a LEGATT, in the Ukraine. And the Justice Department, 
if they were issuing the visa, would be in communication with 
our LEGATT in the capital.
    I know so much of it depends upon how good the law 
enforcement situation is in the country. It would be easy, for 
example, for me in Slovenia because I know that when I would 
contact the police, they would be responsive immediately, but 
in other countries of the world, it really depends on the law 
enforcement situation and the relationship that we have with 
them. But I know in southeastern Europe and central Europe, we 
do have legal attaches in many of those posts, so we have 
contacts that we can work with.
    Senator Brownback. I think this is going to be a tough 
aspect of this problem, and the answers that you develop may 
have to be broader-based answers than direct to a child or a 
husband. It could be some extended family members that are 
being threatened a great deal. And we are going to need to work 
with them. I think initially, as we get into this area, we are 
going to have to make it safe for people to come out of the 
dark, to be able to testify against organizations. I think 
particularly if it is a significant organization that is doing 
trafficking and we really want to get at them, we are probably 
going to have to work pretty broadly to get people to testify 
and provide some security for several members within that 
family to work with them.
    Ms. Ely-Raphel. We have had training programs, and in fact, 
I think they had one in the Ukraine on what witness protection 
is all about. But I do not think they have the facilities to 
implement it, but I think those kinds of training programs will 
be useful.
    We also have the FBI Academy which is in Budapest that 
trains a lot of the law enforcement people in that part of the 
world. We have some elsewhere. So that may be also an avenue 
because so much of it is cooperation.
    Senator Brownback. It is going to be a lot of cooperation.
    Thank you very much for your initial efforts in this. We 
want you to be very aggressive on this because I think it is 
the right moment. Make hay while the sun is out, and I think 
really we have got the sun shining in some of this area and it 
is time for us to really aggressively move forward. Thanks.
    Ms. Ely-Raphel. Thank you, Senator.
    Senator Wellstone. Before you all leave--and I thank both 
of you, and we will move right on to the next panel--I did want 
to say to Ambassador Ely-Raphel--first of all, thanks to both 
of you. Senator Brownback was asking about advocacy, and I 
wanted to mention to you that this conference that is being set 
up on trafficking, I know $1 million is going to this 
conference. It is a lot of money and I hope that there will be 
a very strong focus on advocacy at the conference. Frankly, 
that is my first point.
    My second point is I can see a whole lot we need to do 
other than getting ready for a conference, and I will just 
express that to make that part of the record. I think you hear 
me.
    Let me thank both of you very much for coming today. Your 
work is much appreciated. Thank you.
    Ms. Ely-Raphel. Thank you, Mr. Chairman.
    Senator Wellstone. We will move on to the third panel. We 
are going to go in this order because Senator Brownback is 
going to have to excuse himself a little bit before we are 
done. Carol Smolenski, who is coordinator of the U.S. branch of 
End Child Prostitution and Trafficking, followed by Mrs. Ann 
Jordan who is director of the Initiative Against Trafficking at 
the International Human Rights Law Group, and then Ms. Hae Jung 
Cho, who is project director of the Coalition to Abolish 
Slavery & Trafficking.
    I wanted to point out for the record that we have a wide 
variety of perspectives in panelists here. I am not sure the 
panelists all agree with each others' positions on every issue. 
I am not sure I agree with the panelists' positions on every 
issue. I know I do not agree with him on hardly any issues.
    Senator Brownback. You are getting better.
    Senator Wellstone. You are getting better.
    We thank all of you.
    Carol.

     STATEMENT OF CAROL SMOLENSKI, COORDINATOR, END CHILD 
         PROSTITUTION AND TRAFFICKING-USA, NEW YORK, NY

    Ms. Smolenski. Thank you Mr. Chairman. My name is Carol 
Smolenski. I am the coordinator of ECPAT-USA. ECPAT-USA is the 
U.S. branch of ECPAT-International based in Bangkok. ECPAT 
stands for End Child Prostitution, Child Pornography, and 
Trafficking of Children for Sexual Purposes.
    I am here to tell you something about the problem of child 
sex tourism, how it intersects with the larger crime of 
trafficking in persons and what can be done to stop it. It is 
the demand side of the trafficking problem that still needs to 
be addressed.
    ECPAT got its start in Asia in 1991 when some churches and 
children's rights activists heard the results of a study about 
the sale and trafficking of children within Asia. What they 
learned was shocking and yet virtually unrecognized by the rest 
of the world, that uncounted numbers of children were being 
forced into the sex industry in Asia partly to meet the demand 
of foreign sex tourists from all over the world.
    Initially focused on Thailand, Taiwan, Sri Lanka, and the 
Philippines, now ECPAT is a global organization focusing on the 
commercial sexual exploitation of children in all its forms, 
not just in Asia, but around the world, including in the United 
States. We define children as people under 18 years old, using 
the definition of the U.N. Convention on the Rights of the 
Child. It is generally accepted that there are at least 2 
million sexually exploited children in the world, including 
both boys and girls.
    One reason, among the many, that people travel abroad is to 
experience something of the local cultures, to experience the 
exotic, to live, if ever so briefly, outside the confines of 
their everyday life. On vacation you can imagine yourself in a 
life unlike life at home, an idea the legitimate tourism 
industry promotes in its advertisements.
    Some of the people who have these fantasies are called sex 
tourists. They are people who go on vacation in order to have 
repeated sexual contact with the local population. In the same 
way that some people go on skiing holidays or on vacation to 
experience the local culture through visits to museums or 
theaters, sex tourists travel to have sex. They go to a place 
where they are unknown and can behave in a way that friends and 
neighbors back home would find unacceptable. Child sex tourists 
seek out sex with children.
    Child sex tourists are not just pedophiles, though 
pedophiles do abuse a lot of children. Research on pedophiles 
calls them adults with a diagnosable disorder that prevents 
them from being able to experience and enjoy sexual intimacy 
with other adults. Their sexual interest is exclusively focused 
on young children. Pedophiles share information among 
themselves about where to find vulnerable children around the 
world. The first sex tourist prosecuted in the United States 
for traveling abroad to Honduras, in his case to sexually 
exploit children, had information on his computer about how to 
find children in Nepal as well as other countries.
    But there are other sex tourists who are not pedophiles. 
These are people--I should say men, because men are by far the 
majority of child sex abusers. These are men who wish to 
experiment by having children as sexual partners when they are 
in a situation where they believe this is acceptable behavior, 
for example, in a foreign country with a racial group different 
from their own. Or they have sex with children because they 
simply do not care whether their sex partner is 12, 18, or 25 
as long as the partner meets certain physical requirements that 
the man considers attractive. We call them situational child 
sex abusers.
    Since so many societies and cultures consider an attractive 
``woman'' to be one who is slender, fit, youthful, and young 
looking, it is very likely that a man will seek out a young 
girl for a sex partner. Child sex tourists sexually abuse 
children because they are prostitute-users and/or strip and sex 
show customers and/or consumers of pornography in a world 
which, on the one hand, places sexual value on youth and, on 
the other, forces large numbers of children, either through 
direct coercion or economic necessity, into working in the sex 
industry. Many prostitutes enter the sex market before their 
18th birthdays, often well before they turn 18, so anyone 
having sex with a prostituted person may well be a child sex 
abuser, whether he acknowledges it or not.
    Sex tourists have a vast array of sex tours to choose from. 
A few years ago, Business Week magazine turned up 25 sex tour 
companies in the United States. The Internet is filled with 
advertisements for sex tours to a variety of destinations. Last 
week I type the words ``sex tours'' into the Google.com search 
engine. I got a list of 14,600 entries. Not every one of those, 
of course, was a site for a sex tour company. Many were 
pornography sites, and some were analyses of sex tourism.
    But a review of sex tour sites and sites where men share 
information about sex tourism shows that people are trafficked 
to sex tour destinations to meet the demand; that mass 
marketing to moderate income sex tourists is part of the 
appeal; and that men are often indiscriminate about the age of 
the prostitutes they seek, although youthfulness and 
willingness to do whatever they are asked to do seem to be some 
of the most attractive attributes a prostituted person can 
offer.
    Here are some excerpts from the sites I looked at. There is 
a 7-year-old in the room so I will not go too far into detail 
here.
    ``Costa Rica Sex Sizzles,'' is the name of one of them. 
``Costa Rica sex is the magnet that pulls men to this tropical 
land where prostitutes and prostitution are legal at age 18.'' 
This is a quote from the site. ``Sensuous senoritas and escorts 
from Colombia, Cuba, and other Latin lands come here too. Why 
go all the way to Thailand on Asian tours when Latin America is 
so close and so hot?''
    On Best of Asia.com, there are tours advertised but also a 
number of pornography links including some entitled ``Barely 
Legal Asian,'' ``Hot Young Teens.'' This is one of the 
characteristics of sex tour sites. They might put a disclaimer 
on the site--oh, my time is up and I was going to go on and on.
    Well, I guess I will leave it at that for now.
    Senator Brownback. Do you mind, Mr. Chairman?
    Senator Wellstone. Go ahead for a few more minutes.
    Ms. Smolenski. Thank you.
    They put a disclaimer on the site stating that they do not 
provide child sex tours or provide girls under 18, but sex 
tourists know and are given to believe on the Websites that 
young girls are available when they get to the destination.
    I will skip the horrific quotes from the sex tourists about 
why they go to these destinations. They do it because they 
believe that girls like it there.
    The advertised sex tours feed into these stereotypes by 
advertising the passivity and youth of the children and women 
who the men will meet on these tours.
    The sex tour is the nexus between the supply of children's 
bodies and the demand by men--again, it is mostly men--with 
enough disposable income and equipped with the rationale that 
it is culturally acceptable and even legal to exploit the 
vulnerable children they come across in poor countries. They 
even convince themselves that they are helping the children 
because they give them money. Any country with a growing 
tourism industry confronts the growth of the demand for 
prostituted children in that country.
    For example, as Cambodia looks to tourism for economic 
development, the potential danger of sex tourism looms for poor 
children. And then I have a quote here from a sex tourist who 
is sharing information about what he got and how much it cost 
in Phnom Penh. ``The poor (literally),'' he wrote, ``little 
girls some of them do try, they get a few cents only from 
papasan and own little more than a dress or two.'' Cambodia's 
Tourism Ministry is trying to do something about this, and they 
have a program for that.
    Senator Wellstone. We can have the full statement included 
in the record.
    Ms. Smolenski. I know. It is on the record. I am just going 
to read the last few things that tell you what you can do about 
it.
    Senator Wellstone. We would be very interested in that.
    Ms. Smolenski. Deterrence. Advertise the laws against child 
sex tourism. This can be done in a number of ways. The European 
travel industry has been very involved in fighting child sex 
tourism. Unfortunately, the U.S. industry has declined to 
become involved. For example, nine European airlines show or 
have shown in-flight videos advertising the laws against child 
sex tourism as a deterrent to the situational child sex abuser. 
Every single U.S. airline, even though requested by the Federal 
Department of Transportation, the president of Air France, and 
ECPAT-USA, has refused to get involved.
    It should be made easier to prosecute American sex tourists 
by training law enforcement in other countries about how to 
gather evidence for use in U.S. courts and putting more 
resources into making cases against American sex tourists and 
also changing the law in the way that you had said, Senator 
Brownback, about doing away with the intention provision.
    There are some regulatory ways that it can be treated. I 
can give you a much longer list than is actually in here.
    As we speak--let me just finish--children are being forced 
into the sex business and American men are eagerly joining the 
ranks of those who seek out their bodies. The United States 
must stop the contribution that American men make to this 
abhorrent practice. The U.S. trafficking bill successfully 
focuses on the supply side. This is a market, though. It is 
time to stop the demand.
    [The prepared statement of Ms. Smolenski follows:]

     Prepared Statement of Carol Smolenski, Coordinator, ECPAT-USA

    My name is Carol Smolenski. I am the Coordinator of ECPAT-USA. 
ECPAT-USA is the U.S. branch of ECPAT-International based in Bangkok. 
ECPAT stands for End Child Prostitution, Child Pornography, and 
Trafficking of Children for Sexual Purposes.
    I'm here to tell you something about the problem of child sex 
tourism, how it intersects with the larger crime of trafficking in 
persons, and what can be done to stop it. It is the demand side of the 
trafficking problem that stills needs to be addressed.
    ECPAT got its start in Asia in 1991, when some churches and 
children's rights activists heard the results of a study about the sale 
and trafficking of children within Asia. What they learned was shocking 
and yet virtually unrecognized by the rest of the world: that uncounted 
numbers of children were being forced into the sex industry in Asia, 
partly to meet the demand of foreign sex tourists from all over the 
world.
    Initially focused on Thailand, Taiwan, Sri Lanka and the 
Philippines, now ECPAT is a global organization focusing on the 
commercial sexual exploitation of children in all its forms, not just 
in Asia, but around the world, including in the United States. We 
define children as people under 18 years old, using the definition of 
the U.N. Convention on the Rights of the Child. It is generally 
accepted that there are at least two million sexually exploited 
children in the world, including both boys and girls.
    One reason among the many that people travel abroad is to 
experience something of the local cultures, to experience the exotic, 
to live, if ever so briefly, outside the confines of their every day 
life. On vacation you can imagine yourself in a life unlike life at 
home, an idea the legitimate tourism industry promotes in its 
advertisements.
    Some of the people who have these fantasies are called sex 
tourists. They are people who go on vacation in order to have repeated 
sexual contact with the local population. In the same way that some 
people go on skiing holidays, or go on vacation to experience the local 
culture through visits to museums or theaters sex tourists travel to 
have sex. They go to a place where they are unknown and can behave in a 
way that friends and neighbors back home would find unacceptable. Child 
sex tourists seek out sex with children.
    Child sex tourists are not just pedophiles, though pedophiles do 
abuse a lot of children. Research on pedophiles calls them adults with 
a diagnosable disorder that prevents them from being able to experience 
and enjoy sexual intimacy with other adults. Their sexual interest is 
exclusively focused on young children. Pedophiles share information 
among themselves about where to find vulnerable children around the 
world. The first sex tourist prosecuted in the United States for 
traveling abroad (to Honduras in his case) to sexually exploit children 
had information on his computer about how to find children in Nepal as 
well as other countries.
    But there are other sex tourists who are not pedophiles. These are 
people, I should say men, because men are by far the majority of child 
sex abusers, these are men who wish to experiment by having children as 
sexual partners when they are in a situation where they believe this is 
acceptable behavior, for example, in a foreign country, with a racial 
group different from their own. Or, they have sex with children because 
they simply do not care whether their sex partner is 12, 18 or 25 as 
long as that partner meets certain physical requirements that the man 
considers attractive. We call them situational child sex abusers.
    Since so many societies and cultures consider an attractive 
``woman'' to be one who is slender, fit, youthful and young looking, it 
is very likely that a man will seek out a young girl for a sex partner. 
Child sex tourists ``sexually abuse children because they are 
prostitute-users (and/or strip and sex-show customers, and/or consumers 
of pornography) in a world which, on the one hand places sexual value 
on youth, and on the other forces large numbers of children (either 
through direct coercion or economic necessity) into working in the sex 
industry.'' (Julia O'Connell Davidson and Julia Sanchez Taylor, 1996, 
``The Sex Exploiter''). Many prostitutes enter the sex market before 
their 18th birthdays, often well before they turn 18, so anyone having 
sex with a prostituted person may well be a child sex abuser, whether 
he acknowledges it or not.
    Sex tourists have a vast array of sex tours to choose from. A few 
years ago, Business Week magazine turned up 25 sex tour companies in 
the United States. The internet is filled with advertisements for sex 
tours to a variety of destinations. Last week I typed the words ``sex 
tours'' into the Google.com search engine. I got a list of 14,600 
entries. Not every one of those was a site for a sex tour company. Many 
were pornography sites. Some were analyses of sex tourism by academics 
or organizations like mine.
    But a review of sex tour sites and sites where men share 
information about sex tourism shows that people are trafficked to sex 
tour destinations to meet the demand, that mass marketing to moderate 
income sex tourists is part of the appeal, and that men are often 
indiscriminate about the age of the prostitutes they seek out, although 
youthfulness and willingness to do whatever they are asked to do seem 
to be some of the most attractive attributes a prostituted person can 
offer.
    Here are excerpts from some of the sites I looked at:

          Costa Rica Sex Sizzles. Cost Rica sex is the magnet that 
        pulls men to this tropical land where prostitutes and 
        prostitution are legal at age 18. Sensuous senoritas and 
        escorts from Colombia, Cuba and other Latin lands come here 
        too. Why go all the way to Thailand on Asian tours when Latin 
        America is so close and so hot?

    On Best of Asia.com there are tours advertised but also a number of 
pornography links including some entitled ``Barely Legal Asian, Hot 
Young Teens''. This is one of the characteristics of sex tour sites. 
They might put a disclaimer on the site stating that they do not 
provide child sex tours or provide girls under 18, but sex tourists 
know, and are given to believe on the websites, that young girls are 
available when they get to the destination.
    On Dexterhorn.com where trips to Asia and Germany are advertised it 
reads ``we know all the places to go to have sex with women, 24 hours a 
day. . . . Beer bars overflowing with young girls begging you to take 
them back to your hotel. . . . Massage parlors where you can get 
massaged, - - - - - - and - - - - - - by one or more Thai girls for the 
price of filling up your gas tank.''
    The infamous online company Love Tours advertises ``every girl in 
every club is available. Every girl in every club is affordable''.
    Men who travel with sex tours say they believe that it is 
culturally acceptable and legal to have sex with children in other 
countries. Another man, interviewed sitting in a bar with two girls, 12 
and 13 years old by his side, said ``American girls, in America and 
places like that you see, they're not so free about sex and their 
bodies. . . . They let you do things here an American girl'd never 
dream of doing. I can't even say to you what they let you do.'' (Quoted 
in Julia O'Connell Davidson and Jacqueline Sanchez Taylor, 1996, 
``Child Prostitution and Sex Tourism: The Dominican Republic.'')
    The advertised sex tours feed into these stereotypes by advertising 
the passivity and youth of the children or women who the men will meet 
on these tours.
    The sex tour is the nexus between the supply of children's bodies 
and the demand by men, again, it is mostly men, with enough disposable 
income and equipped with the rationale that it is culturally acceptable 
and even legal to exploit the vulnerable children they come across in 
poor countries. They even convince themselves that they are helping the 
children because they give them money. Any country with a growing 
tourism industry confronts the growth of the demand for prostituted 
children in that country.
    For example, as Cambodia looks to tourism for economic development, 
the potential danger of sex tourism looms for poor children and women 
who will come in contact with well-off foreign tourists for the first 
time. Here is an excerpt from a website used by sex tourists to share 
information about Phnom Penh,: ``Price of girls: short time $3-$5; all-
nite $15-20 . . . I got two girls for $7 once. Don't pay in advance and 
don't be bashful about sending her back if she doesn't do as 
advertised. . . . Be sure to tip the chick privately for good service. 
The poor (literally) little girls some of them do try, they get a few 
cents only from papasan and own little more than a dress or two.'' At 
least in Cambodia's case, officials are aware of the problem and would 
like to mitigate it. In Autumn 2000 Cambodia's Tourism Ministry 
announced plans to start a campaign against child sex tourism by 
posting signs in hotels, guest houses and nightclubs warning against 
sex with children.
    As sex tour destinations are opened up and advertised, for a 
variety of income groups, the increase in demand increases the need to 
traffick more bodies to the brothel areas in the sex tour destinations. 
Of course it is not just sex tours that lead to increased trafficking. 
For example, we know from our colleagues around the world about 
increasing numbers of people being trafficked from Eastern Europe and 
Latin America to meet the demand from U.S. military personnel in the 
brothel areas near the U.S. military bases in South Korea. The presence 
of military personnel from any country in any country is associated 
with a growth of prostitution.
    But we also know that women and children are trafficked into the 
sex tour destinations of Bangkok and Costa Rica. The sex tour focuses 
the demand in certain areas facilitating the transaction by 
concentrating the business in one place.
    ECPAT-USA and our partners around the world call on you to take a 
number of steps to stop the demand for trafficking victims.
    Deterrence: Advertise the laws against child sex tourism. This can 
be done in a number of ways. The European travel industry has been very 
involved in fighting child sex tourism. Unfortunately, the U.S. 
industry has declined to become involved. For example, nine European 
airlines show or have shown inflight videos advertising the laws 
against child sex tourism as a deterrent to the situational child sex 
abuser. Every single U.S. airline, even though requested by the federal 
Department of Transportation, the president of Air France and ECPAT-
USA, has refused to get involved.
    Law enforcement: Make it easier to prosecute American sex tourists 
by training law enforcement in other countries about gathering evidence 
for use in U.S. courts, or policies to encourage other countries to 
prosecute and incarcerate American sex tourists. Put more resources 
toward making cases against American sex tourists and change the U.S. 
extraterritoriality law to make it easier to prosecute American sex 
tourists.
    Regulation: Require sex tour companies to keep records of the 
people going on sex tours such as name, address, social security number 
and passport number and similar information about the names of the 
children or women to whom they are introduced in the foreign country.
    As we speak, children are being forced into the sex business and 
American men are eagerly joining the ranks of those who seek out their 
bodies. The U.S. must stop the contribution that American men make to 
this abhorrent practice. The U.S. trafficking bill successfully focuses 
on the supply side. This is a market in children bodies. It is time to 
stop the demand.

    Senator Wellstone. Thank you.
    Senator Brownback. Mr. Chairman, because I am going to have 
to leave, can I make a comment quickly? This is the point that 
I raised in my opening statement and it is what I have seen as 
I have traveled too. And you put it very well. We have been 
focusing on the supply side, and we need to get at the demand 
side. When I was in Thailand up on the border, they showed me a 
notebook that was full of pictures, and this was at a hotel. 
Somebody would go into the hotel that was on some sort of sex 
tour and was interested in that and they could get at this 
notebook that just showed pictures of young girls for them to 
point out and say, well, OK, I like this one and this one. And 
then a courier goes and gets this young girl who could be very 
young.
    This is, unfortunately, a regular organized business. We 
are trying to get at the supply side, but the Thai Government 
was frustrated. Why are these people coming here from Europe, 
from the United States? You need to get at it on that end of 
it. it is just an awful, sick thing that is going on.
    So, I am hopeful that we can put forward some legislation 
in a bipartisan way to address this and that the Congress will 
act on it to get at this intent issue because that is just so 
tough to prove, that yes, I got on the plane to do this, not 
that I did it, but I got on the plane meaning to do it, so that 
we could prosecute. If that person actually did conduct that 
activity, base it on that.
    Senator Wellstone. Well, I would just thank you too. I said 
to Sam this has the makings of another counterintuitive 
Brownback-Wellstone alliance. I think we will definitely work 
together. This will not be the end of this. We are really going 
to work on it.
    Senator Brownback. Thank you.
    Ms. Smolenski. Thank you. I would welcome that so much.
    Senator Wellstone. Ms. Jordan. Thank you for coming, Ms. 
Jordan.

     STATEMENT OF ANN JORDAN, DIRECTOR, INITIATIVE AGAINST 
 TRAFFICKING IN PERSONS, INTERNATIONAL HUMAN RIGHTS LAW GROUP, 
                         WASHINGTON, DC

    Ms. Jordan. Thank you. I would like to present my full 
testimony for the record and provide some comments.
    Senator Wellstone. It will be included in the record.
    Ms. Jordan. I wish to begin by thanking Senators Wellstone 
and Brownback, as well as Representative Chris Smith and former 
Representative Gejdenson, for ensuring that the United States 
has one of the strongest pieces of trafficking legislation in 
the world. I would also like to thank the subcommittee members 
for providing me with this opportunity to speak.
    The International Human Rights Law Group's trafficking 
initiative has organized a freedom network for service 
providers and advocates. It has worked with its Cambodia legal 
aid program to create a Center Against Trafficking to provide 
legal services to trafficked persons and is working with its 
offices in Bosnia and Herzegovina and Nigeria to create a 
network of service providers and lawyers. It was also actively 
involved in the development of this wonderful new law and the 
U.N. Trafficking Protocol.
    It is encouraging to note, as we have heard today, in a 
little over a year since the trafficking law was enacted, 
tremendous progress has been made. I am sure that even greater 
progress can be expected over the next year, given the 
administration's commitment to combating trafficking.
    The next speaker, Hae Jung Cho, will talk about many of the 
gaps in the legislation, and I will just address three that 
have been noted by members of our network.
    The first is that it appears that investigations and 
prosecutions are slowing down. It is unclear whether this is 
due to the shift in focus to terrorism or to the threefold 
increase in the number of cases being investigated, or both. We 
hope that the Justice Department has the resources to be able 
to investigate these cases more rapidly.
    Second, the INS has yet to designate an office or a person 
responsible for coordinating INS activities and liaising with 
service providers. The INS started this week to process T-visa 
applications, and so the advocacy community's need for a point 
person or an office is immediate.
    Third, the Office for Victims of Crime in the Department of 
Justice, which has $10 million to provide services for NGOs, 
has yet to develop a comprehensive plan for funding those 
services. The need for trained and funded service providers is 
increasing rapidly, so that we hope that the Office for Victims 
of Crime will be able to start issuing requests for proposals 
quickly so that the organizations will be ready to take on the 
clients that come to them with all of these increased 
investigations.
    I will now turn to trafficking abroad. The U.S. commitment 
to supporting and contributing to peacekeeping and civilian 
police forces is essential to the development of stability and 
democracy around the world. At the same time, well-documented 
reports concerning the relationship between such international 
forces and trafficking into forced prostitution cannot be 
ignored. For example, a recent Washington Post article reported 
on problems in investigating numerous allegations of 
International Police Task Force involvement in trafficking in 
Bosnia.
    In my recent trip to Bosnia, I heard heartbreaking stories 
of women and girls who are being brought into the country under 
false pretexts. In Bosnia and in many other countries around 
the world, women and girls are held by traffickers who sell the 
right to have sex with them or, more accurately, to rape them. 
While some women do sell sex voluntarily in Bosnia in brothels 
and clubs, local groups have told me that they believe that the 
overwhelming majority, perhaps 70 to 90 percent, of the women 
are being held against their will or under psychological 
coercion.
    Governments contributing forces should investigate and 
prosecute police and military personnel who commit crimes while 
on peacekeeping missions and should waive diplomatic immunity 
which blocks such prosecutions. While the U.S. Military 
Extraterroritorial Jurisdiction Act provides that our 
Government has the authority over U.S. military personnel who 
commit crimes abroad, no similar law exists for the 
international police personnel who consequently have immunity 
from prosecution in the United States. This should be changed.
    Additionally, arm's length relationships between the U.S. 
Government and private contractors who hire and recruit and 
employ staff within peacekeeping missions is a problem. In 
Bosnia, the U.S. police contingent is hired by a private 
company called DynCorp. This system of contractual 
relationships is said to limit the accountability of the United 
States and to make it more difficult to address any 
unprofessional, corrupt, or criminal behavior by U.S. 
International Police Task Force personnel.
    Immunity is also a problem with respect to trafficking and 
abuse by foreign diplomats and officials of international 
organizations in the United States. Despite growing evidence of 
such abuse, I am not aware of any case in which a diplomat or 
international organization official has suffered the 
consequence of being sent home or denied the right to bring in 
additional domestic workers.
    Additionally, I have been contacted by NGO partners abroad 
who have asked for information about any U.S. law that would 
permit domestic workers in their countries who are employed by 
U.S. diplomats to sue their U.S. employers. I am unaware of any 
such law or any such case that has ever been allowed to be 
brought against a U.S. diplomat to address this harm.
    I wish to thank you again for offering me this opportunity 
to speak, and I want to assure you that my organization and 
members of the network are looking forward to working with the 
relevant departments and agencies and with Members of Congress 
to ensure that traffickers are punished and that the rights of 
victims are protected. Thank you.
    [The prepared statement of Ms. Jordan follows:]

    Prepared Statement of Ann Jordan, Director, Initiative Against 
   Trafficking in Persons at the International Human Rights Law Group

    I wish to begin by thanking Senators Wellstone and Brownback (as 
well as Representative Chris Smith and former Representative Gejdenson) 
for ensuring that the United States has one of the strongest pieces of 
anti-trafficking legislation in the world. I would also like to thank 
the Subcommittee members for providing me with this opportunity to 
present some views from the service provider and advocacy community.
    The Initiative Against Trafficking in Persons at the International 
Human Rights Law Group works towards development of a human rights 
framework in state responses to trafficking in persons worldwide. It 
has organized U.S. service providers and advocates into the Freedom 
Network (USA), has worked with its Cambodia legal aid program to create 
a Center Against Trafficking to provide legal representation for 
trafficked persons and is working with its offices in Bosnia and 
Herzegovina and Nigeria to create a network of service providers and 
lawyers. It was also actively involved in the development of the new 
U.S. trafficking law and the UN Trafficking Protocol.
    It is encouraging to note that, in the little over a year since the 
Victims of Trafficking and Violence Protection Act was enacted, 
tremendous progress has been made. The State Department and USAID are 
moving forward in creating development and assistance programs abroad 
as part of a prevention strategy. The State Department's Office to 
Monitor and Combat Trafficking has opened. The Department of Justice 
has tripled its number of investigations and the INS has issued 
regulations for the new T visa. This is indeed tremendous progress and 
even greater progress can be expected by this time next year given the 
Administration's commitment to combatting trafficking.
    I would like to share with the Committee some thoughts on a range 
of issues that could be, or should be, addressed over the coming year:

 IMPLEMENTATION OF THE VICTIMS OF TRAFFICKING AND VIOLENCE PROTECTION 
                                  ACT

    I will first share with you some of the concerns of members of the 
Freedom Network (USA) to Empower Trafficked and Enslaved Persons. The 
Freedom Network (USA) is composed of direct service and advocacy 
organizations that have been involved in some of the most important 
trafficking cases to date in this country. More information is 
available about the Freedom Network at www.freedomnetworkusa.org and in 
the handout distributed today.
    The Coalition to Abolish Slavery & Trafficking, a Freedom Network 
member, has already described some of the gaps in implementation and I 
will address some additional areas of concern:

          1. Investigations and prosecutions appear to have slowed 
        down. It is unclear whether this is due to the shift of focus 
        to terrorism or to the threefold increase in the number of 
        cases being investigated, or both. We hope the Justice 
        Department has the resources to be able to investigate cases 
        more rapidly.

          2. Processing time for continued presence or other status and 
        work authorizations for trafficking victims is often extremely 
        slow. Some requests to the INS take months, which then delays 
        the issuance of work authorizations and benefits. We appreciate 
        the difficulties in setting up a new program, but we hope the 
        INS will solve this problem quickly.

          3. The INS has yet to designate an office or a person 
        responsible for coordinating INS activities and liaising with 
        the service providers. The INS started this week to process 
        applications for T visas, and so the advocacy community's need 
        for a point person or office is immediate.

          4. Training for INS and FBI agents and Assistant U.S. 
        Attorneys should proceed more rapidly. Many agents and 
        attorneys are unaware of the law or the difference between 
        trafficking and smuggling. Furthermore, they may not 
        immediately contact the Civil Rights Division trafficking team 
        for assistance, which can result in cases being labeled 
        incorrectly as smuggling or other offenses.

          5. The Office for Victims of Crime in the Department of 
        Justice has yet to develop a comprehensive plan for funding 
        service providers and trainers. The OVC has received $10 
        million for these purposes. Very few service providers are 
        funded to provide services even though more trained and funded 
        service providers will be necessary soon to handle the 
        increased number of cases resulting from the increased number 
        of investigations now underway. We hope OVC will be able to 
        start issuing RFPs quickly.

         INTERNATIONAL POLICE, MILITARY FORCES AND TRAFFICKING

    I will now turn to trafficking abroad. The U.S. commitment to 
supporting and contributing to peacekeeping and civilian police forces 
is essential to the development of stability and democracy around the 
world. At the same time, well-documented reports concerning the 
relationship between such international forces and trafficking into 
forced prostitution cannot be ignored. For example, a recent Washington 
Post article reported on problems in investigating numerous allegations 
of international police task force involvement in trafficking in 
Bosnia.
    In focusing on the relationship between international forces and 
trafficking into forced prostitution, however, we should not forget 
that the international customers are not the main problem. For example, 
a UN representative in Bosnia estimates that about 30% of brothel 
customers are internationals; the majority of the men then are locals. 
Yet, it is essential that the international community set a higher 
standard of conduct and that the apparently symbiotic relationship 
between the international forces and trafficking be addressed.
    In working with the Law Group's staff and local organizations in 
Bosnia, I have heard heartbreaking stories of women and girls who are 
being brought into the country under false pretexts. In Bosnia, and in 
many other countries around the world, women and girls are held by 
traffickers who sell the right to have sex with them, or more 
accurately, to rape them. While some women sell sex voluntarily in 
Bosnian brothels and clubs, local groups believe that the overwhelming 
majority (maybe 70-90%) of the women are being held against their will 
or under psychological coercion.
    The groups in Bosnia are also convinced that the reaction by the 
international community is inadequate. Few traffickers are ever 
prosecuted and even fewer ever spend any time in prison. The 
international community could provide support to the judiciary in 
Bosnia and elsewhere to improve the chances of successful prosecutions. 
It could also provide more training for, and more accountability by, 
the international community, particularly the military and 
international police in order to set a high standard of conduct in 
their missions.
    In particular, governments contributing forces should commit 
themselves to investigating and prosecuting police and military 
personnel who commit crimes while on peacekeeping missions and to 
waiving diplomatic immunity, which blocks such prosecutions. While the 
U.S. Military Extraterritorial Jurisdiction Act provides our government 
with authority over U.S. military personnel who commit crimes abroad, 
no similar law exists for the international police personnel who, 
consequently, have immunity from prosecution in the U.S. This should be 
changed.
    A further problem raised by UN officials and organizations in my 
recent trip to Bosnia is the arms-length relationship that is created 
when the U.S. hires private companies to recruit and employ staff 
within peacekeeping missions. In Bosnia, the U.S. IPTF contingent is 
hired by a private contractor, DynCorp, and not by the U.S. government. 
This situation is said to limit accountability of the U.S. and to make 
it more difficult to address any unprofessional, corrupt or criminal 
behavior by U.S. IPTF personnel.
    The presence of international military and police forces is 
essential for countries recovering from international conflicts and 
internal strife. However, the international community needs to address 
the problem created by the presence of so many unaccompanied men in 
impoverished countries. It should set an example by taking strong 
measures to prosecute all traffickers at home and assisting other 
countries to strengthen their law enforcement responses. Ideally, the 
U.S. could play a leadership role in raising this issue internationally 
by developing the necessary legal and policy framework in the U.S.

                          DIPLOMATIC IMMUNITY

    Immunity is also a problem with respect to trafficking and abuse by 
foreign diplomats and officials of international organizations in the 
United States. Despite growing evidence of abuse of domestic workers 
that, in many instances, amounts to trafficking for forced labor, as 
far as I am aware, not one abusive or trafficking diplomat or 
international organization official has suffered the consequence of 
being sent home or denied the right to bring in additional domestic 
workers.
    Similarly, I have been contacted by NGO partners abroad who have 
asked for information about any U.S. law that would permit workers to 
sue their U.S. diplomat employers. I am unaware of any case in which an 
U.S. diplomat has been prosecuted in the U.S. for such abuse.
    In closing, I want to ensure you that my organization and other 
members of the Freedom Network (USA) look forward to working with the 
relevant departments and agencies and members of Congress in order to 
ensure that traffickers are punished and the rights of trafficked 
persons are protected.
    Thank you again for offering me this opportunity to speak. I would 
be glad to address any questions you might have.

    Senator Wellstone. I tell you, your testimony--the 
collective ``you''--is riveting, and I want to come back with 
some questions.
    Hae Jung Cho is project director of the Coalition to 
Abolish Slavery & Trafficking, and since you are last, I want 
to give just a little bit more of an introduction because CAST 
is based in Los Angeles and you have been a real pioneer when 
it comes to helping trafficking victims. The organization that 
Hae Jung Cho represents is the first and only organization in 
the United States exclusively dedicated to serving victims of 
trafficking in a domestic context, and we thank you for your 
work.

   STATEMENT OF HAE JUNG CHO, PROJECT DIRECTOR, COALITION TO 
         ABOLISH SLAVERY & TRAFFICKING, LOS ANGELES, CA

    Ms. Cho. Thank you, Senator. I would like to thank both 
Senators Wellstone and Brownback, also Representative Chris 
Smith and former Representative Gejdenson, for their leadership 
in championing the rights of trafficking victims, for seeking 
the input of non-governmental organizations, and for 
understanding that this is a global problem that also must be 
fought here at home.
    As the first and only organization exclusively dedicated to 
assisting victims of trafficking in the domestic context, the 
Coalition to Abolish Slavery & Trafficking, CAST, has served 
over 100 victims since 1998. Through CAST's program victims 
receive access to food and shelter, health and mental health 
services, ESL, job readiness, legal and immigration assistance, 
life skills training, and human rights education.
    Although the Victims of Trafficking and Violence Protection 
Act is a great leap forward, there are many victims who remain 
in desperate situations. I hope that the following real stories 
of victims will illustrate the challenges ahead.
    One of our clients is a Bangladeshi woman who finally 
managed to escape from her traffickers after more than 5 years 
of continuous physical assaults. Her unwavering desire for 
justice made possible the conviction of her traffickers. 
However, before the trial, the traffickers tried to intimidate 
her by sending thugs to beat her brother, burn down their 
house, and threaten her family. Her family members continue to 
be harassed today.
    If a victim is asked to help convict these criminals here 
in the United States, is she not owed some assurance that her 
family back home will be safe from reprisals? In this case, the 
other convicted trafficker will be released from prison soon 
and deported. What will prevent deported traffickers from 
searching out the victim's family members and taking revenge? 
How can our government work with other governments to ensure 
the safety of victims' families? If their safety cannot be 
ensured, could a provision be made to reunite them with the 
victims here in the United States?
    Another one of our victims is an Indonesian woman who had 
been enslaved as a domestic worker for over half of her life. 
With a strong desire for justice, she reported her story to the 
authorities. She was interviewed several times and was even 
asked to help gather more evidence. However, 6 months have 
passed and she is still waiting for the FBI to call her again. 
Opportunities to gather critical evidence are disappearing.
    The next story is about an Indian woman whose case never 
went to trial. Although from the beginning this woman wanted to 
return home, the agents and prosecutors insisted on keeping her 
here to assist in the investigation. After more than 1 year of 
living in homeless shelters where no one spoke her language, 
the victim was anguished to find out that no one was to be 
indicted. She never received any of the wages owed to her, and 
she returned to India with essentially nothing. There was no 
government provision to assist even in her repatriation.
    The problems in these cases stem from, one, a lack of 
training for agents and Assistant U.S. attorneys; two, a lack 
of sensitivity to victim issues and an emphasis on a law 
enforcement goal rather than a prioritization of the victim's 
welfare; and three, a lack of interagency coordination. For 
example, why was the Department of Labor not called in to 
obtain back wages for these victims? What is needed is more 
manpower, training that emphasizes responsiveness to victims' 
needs, and a willingness on the part of investigators, 
prosecutors and their supervisors to conduct cases in a timely 
manner.
    Even in a successful case where restitution for victims is 
ordered, it is unclear whether victims will ever receive any 
money because restitution is not paid until after the 
traffickers get out of prison. As sentences increase under the 
new law, it becomes even less likely that they will ever see 
any of their back wages. This is another area where 
coordination between the Department of Justice and the 
Department of Labor could ensure meaningful outcomes for 
victims.
    Many of the victims CAST has been assisting have had to 
wait for months to receive a status or work authorization from 
the INS even after they have testified in a successful 
involuntary servitude case. Victims are usually not notified of 
their status, not given any documents, and not told where they 
are in the process. Even INS agents themselves tell us they do 
not know why one victim was able to receive a work permit while 
another waits in limbo. In the new certification process, 
victims should be given an explanation about the entire process 
and what their status is when they receive it. Communication 
about their legal situation is an important way for victims to 
feel a sense of participation and control over their lives.
    This lack of consistency is especially extreme for victims 
in so-called retroactive cases, those cases that came to light 
before the law was passed. Several of CAST's clients, who had 
previously been given work authorization, are now in limbo 
again because their case was successfully prosecuted but their 
work authorization expired before the T-visa regulations were 
released. In one case, a victim lost her job when this happened 
and she is now again in crisis. For a formerly enslaved person, 
lack of certification and work authorization means a return to 
the vulnerable state of only being able to work in exploitative 
and underground employment. Victims are often just as 
vulnerable to exploitation after they escape from slavery as 
before.
    Thank you.
    [The prepared statement of Ms. Cho follows:]

  Prepared Statement of Hae Jung Cho, Coalition to Abolish Slavery & 
                           Trafficking (CAST)

    First I would like to thank Senators Wellstone and Brownback (and 
Representative Chris Smith and former Representative Gejdenson) for 
their leadership in championing the rights of victims of trafficking, 
for seeking the input of nongovernmental organizations and for 
understanding that this is a global problem that also must be fought 
here at home. I am also heartened that the new Administration, 
especially Attorney General Ashcroft, has also shown an interest in 
moving forward on this important human rights issue.
    As the first and only organization exclusively dedicated to serving 
victims of trafficking in the domestic context, the Coalition to 
Abolish Slavery & Trafficking (CAST) has served over 100 victims since 
1998 through intensive and comprehensive case management, information 
and assistance and information and referral. Through CAST's program, 
victims receive access to food and shelter, health and mental health 
services, ESL and job training and referral, legal and immigration 
assistance, life skills training, human rights education and individual 
advocacy as they participate as a witness in a federal criminal 
investigation. It is this direct experience, working to assist 
trafficked persons on a daily basis with their struggle to gain 
independence and freedom that informs my testimony today.
    Although the Victims of Trafficking and Violence Protection Act is 
a great leap forward for victim protections, there are many victims who 
remain in desperate situations. I hope that the following real stories 
of victims will illustrate the challenges ahead as we seek to evaluate 
our progress in implementing the Act.

                 PROTECTION FOR THE FAMILIES OF VICTIMS

    The first young woman I will speak of is from Bangladesh, who 
finally managed to escape from her employers after more than five years 
of continuous physical assaults and abuse. Her courageous and 
unwavering desire for justice made possible the conviction of her 
traffickers, one with an eleven-year sentence. Before the trial, the 
traffickers tried to intimidate her by sending thugs to beat her 
brother, burn down their house and threaten her family. The house was 
saved, but family members continue to be harassed to this day and live 
in fear of the associates of the traffickers. The victim has been 
ostracized from the Bangladeshi community here in the U.S. and has been 
maligned by the traffickers in the press of her home country and in the 
ethnic press here.
    If a victim in the United States is asked to help convict criminal 
traffickers in the name of justice, isn't she owed some assurance that 
her family back in her home country will be safe from reprisals? In 
this case, the other convicted trafficker will be released from prison 
soon and then deported. What will prevent deported traffickers from 
searching out the victim's family members and exacting revenge, 
especially in places where the traffickers have influence and power and 
the victims likely none? How can our government work with other 
governments to ensure the safety of victim's families? And if their 
safety cannot be ensured in their home country, could a provision be 
made to reunite them with the victims here in the United States?

    NEED FOR RESOURCES, MANPOWER AND TRAINING FOR INVESTIGATORS AND 
                              PROSECUTORS

    The next stories I will tell point to the lack of resources, 
manpower and training to move forward the investigation and prosecution 
of these cases. One of our clients is a woman from Indonesia who had 
been enslaved for over half of her life and was never paid for her 
labor. She also came to CAST with a strong desire for justice. We 
helped her to report her story to the authorities. At first, the FBI 
interviewed the victim thoroughly and asked her to help them gather 
more evidence. However, six months have passed, and she is still 
waiting for the FBI to call her to set up the consensual monitoring. 
Opportunities to gather evidence continue to disappear. This victim had 
also reported that this family had another domestic worker in another 
house. We do not know whether that woman is still in that situation.
    The next story is about a woman from India whose case never went to 
trial. Although, from the beginning, this woman wanted to return home 
to her daughter and grandchildren, the agents and prosecutors insisted 
on keeping her here to assist in the investigation. They were even 
opposed to moving her to a shelter in another city where the staff 
spoke her language and shared her culture because it might have 
interfered with the investigation. This victim was initially 
interviewed several times. Then there were no developments for many 
months. After more than one year, a year of living in homeless shelters 
where no one spoke her language, the prosecutors decided that they 
would not pursue a prosecution. No one was ever indicted, even on 
harboring or smuggling charges. She never received any of the wages 
owed to her, and she returned to India with essentially nothing. There 
was no government provision to assist in her repatriation.
    The problems in this case stem from (1) a lack of training for 
agents and assistant U.S. attorneys on how to investigate and prosecute 
trafficking cases, (2) a lack of sensitivity to victim issues and an 
emphasis on the law enforcement goal rather than a prioritization of 
the victim's welfare and (3) a lack of interagency coordination. For 
example, why wasn't the Department of Labor called in to at least file 
a wage claim for the victim? What is needed is more manpower, training 
that emphasizes responsiveness to victim's needs, a willingness on the 
part of investigators and prosecutors to prioritize these cases so that 
they will be conducted in a timely manner and, finally, 
institutionalization of expertise. We have too many times seen good 
agents and prosecutors promoted or moved just as they were becoming 
experts in this highly specialized area. Their replacements come with 
no training, background or experience and must learn by doing.

          LACK OF CONSISTENCY IN IMPLEMENTING VICTIM BENEFITS

    Many of the victims CAST has been assisting have had to wait for 
months to receive a status or a work permit from the INS, even after 
they have testified in a successful involuntary servitude case. Victims 
are usually not notified of their status, not given documents and not 
told where they are in the process. There is no transparency and no 
accountability. Even INS agents themselves tell us they don't know why 
one victim was able to receive a work permit while another waits in 
limbo. In the new ``certification'' process created by the Victims of 
Trafficking and Violence Protection Act, there should be a formal 
notification process so that victims can understand what the process 
is, when they move from one stage to another and what their exact 
status is when they receive it. Communication about their legal 
situation is an important way for victims to feel a sense of 
participation and control over their lives.
    This lack of consistency is especially extreme for victims in so-
called ``retroactive'' cases--those cases that came to light before the 
law was passed in October 2000. Several of CAST's clients, who had 
previously been given work authorization, are now in limbo again 
because their case was successfully prosecuted but their work permits 
expired before the T visa regulations were released. In one case, a 
victim lost her job when this happened, and she is now again in crisis. 
These victims are falling through the cracks because the new 
``continued presence'' process does not apply to those whose cases have 
already been prosecuted, and it seems that they must wait several 
months while their T visa applications get prepared, filed and 
processed. For a victim of slavery with no savings, the lack of valid 
work authorization means a return to the vulnerable state of only being 
able to work in exploitative and underground employment.
    One final note about victim benefits. The Office for Refugee 
Resettlement must be commended for its organizational will to provide 
services to a completely new population. However, refugee programs are 
limited in the ways that they can help trafficking victims because they 
were created for a different population. Refugees have cut ties to 
their homeland and arrive in the U.S. eager to start new lives. They 
often join relatives or a larger community. Trafficking victims, just 
released from the isolation of a slavery-like situation, are bewildered 
and face an uncertain present and future. Victims need time to adjust 
to their new situation and time to participate in an ongoing 
investigation and prosecution. Usually their housing situation is 
unstable as they move from Good Samaritan to emergency shelter to 
transitional shelter to perhaps other housing situations. The ORR 
matching grant program that aims to place victims in a job within four 
months will not be successful for the majority of trafficking victims 
who lack basic English and other competitive job skills. Victims will 
often fall into jobs that are again in informal industries that do not 
pay minimum wage.
    The most disturbing case in point is the situation of the victims 
from the American Samoa garment factory or Daewoosa case. Although the 
roughly 200 victims were certified and mostly did receive the refugee 
cash assistance, food stamps and medi-care coverage they were entitled 
to, there have been reports that many of these victims are in a 
precarious state. Some victims have been handing over their food stamps 
and cash assistance as payment for room and board. In addition, some 
have accepted below minimum wage garment factory jobs in order to make 
money to pay back their sponsors for the plane fare from American 
Samoa. This scenario is much too reminiscent of their situation at the 
Daewoosa factory. This is the unfortunate result when victims are 
forced to fend for themselves before they have been given the resources 
to be able to build an independent life.
    Victims are often just as vulnerable to exploitation after they 
escape from slavery as before.

    Senator Wellstone. Well, I want to thank all of you.
    I want to also point out that Ambassador Ely-Raphel stayed 
to listen to your testimony, and I want to thank Ambassador 
Ely-Raphel for doing so. I think sometimes people come in, 
testify pro forma, and leave, and I would like to thank you for 
that, Ambassador Ely-Raphel.
    Let me not do this in any particular order. Hae Jung Cho, 
let me ask you this. The examples that you were giving--you 
know, I was talking about agency coordination, but I was 
talking about like in Washington bringing everyone together. It 
sounds like what you are saying is that on the ground where 
this is happening, that is where you are not getting the agency 
coordination. At least from the examples you gave, clearly INS, 
Labor, Justice just are not in sync. Is that correct?
    Ms. Cho. We would have to say that on the ground, the 
agents that we are working with are usually very dedicated. 
Sometimes they have a lack of training. At the bottom and also, 
of course, here at the top, there is an emphasis on 
coordination, but somewhere in the middle it seems to have 
gotten lost, the supervisors of the ground-level agents, the 
district directors----
    Senator Wellstone. This is an important distinction that 
you are making. You have got people who are so dedicated that 
you are working with, but then when it comes to actually the 
agencies being able to follow through with what needs to be 
done to make sure a woman is not without work, somehow in the 
middle it does not happen. Is that what you are saying?
    Ms. Cho. Yes. We have had cases where INS agents made 
reauthorization requests for trafficking victims for work 
permits and those requests were not approved.
    Senator Wellstone. I can also in my own way talk to 
Commissioner Ziegler about this.
    Your testimony just proves again the importance of the 
NGOs, and the work that you all do is, I think, so critical to 
informing all of us.
    I do not know if you mentioned this or not. Are the 
incidents of trafficking in the Los Angeles area increasing or 
decreasing, or do you have any sense of that? And why to 
however you answer it.
    Ms. Cho. We feel that trafficking is a huge problem in the 
Los Angeles area. We have no way to know whether the overall 
incidence is increasing or decreasing. What I can say that in 
2001, we seemed to, in the spring of the year, see an increase 
in cases that were referred to us and then, as Ann Jordan 
mentioned, there was a decrease in referrals from law 
enforcement agencies. Recently we have started to see an 
increase of referrals once again, but actually through the 
local community. I think our outreach efforts have resulted in 
Good Samaritans and other community organizations bringing 
victims to us after they have escaped.
    Senator Wellstone. And then with the law and with justice, 
it may be a question of the whole question of homeland defense 
and war on terrorism.
    Ms. Cho. Yes.
    Senator Wellstone. See, that is one of the questions we 
also want to get to. I think ultimately I would want to know, 
and I think Senator Brownback would too, from everyone whether 
or not--if ultimately we need to look at more resources and 
more women and manpower to do the job, then we ought to step 
forward with that request and push it as hard as we can. That 
may be part of what we are talking about. Unfortunately, this 
is no small issue. No small issue at all.
    Ms. Jordan, can I ask you? On the whole issue of private 
contractors and involved in trafficking or what you described 
as rape, I think is the way you put it, what is the record of 
DynCorp?
    Ms. Jordan. I know that there has been a lot of criticism 
of DynCorp, and I will just say as for peacekeeping, I have a 
binder here full of cases on problems with peacekeeping. And 
DynCorp is involved in Bosnia with hiring the Americans who 
serve there on the International Police Task Force. I met the 
head of the U.N. mission there, Jacque Klein, and I met also 
with the head of the IPTF, the commissioner, and the woman who 
runs the stop team. This is a team that goes out and raids the 
clubs. They have told me that DynCorp for them is a real 
problem, or this whole system is a real problem for them 
because they give the example of the French. They will send 
their national gendarmerie over there, and they are in a 
command position. They are controlled. They are under a 
military structure and they suffer consequences if they 
misbehave or get involved in anything criminal.
    Whereas, DynCorp has no such system. These men are hired. 
Many of them are retired. They go over there. They get paid 
$100,000 a year. Jacque Klein told me they only give them 3 
days' training when they get there. All he tells them is that 
we know that you think you are going to have fun over here, but 
if you get caught going to clubs, you are going to get sent 
home. But that is the only consequence that is paid. At that 
point, they send a report back to the U.N. The U.N.--for the 
United States--then would send it back to the State Department 
and the State Department would decide whether to send it to 
Justice. So, basically they just get sent home. And I could not 
find out from him of anyone who had ever been prosecuted in any 
country for this kind of problem, but it is much worse when you 
have a company like DynCorp because there is no control.
    Senator Wellstone. I think we have heard some of the 
reports from Colombia as well. It might be worth taking some 
time for me and others to meet directly with DynCorp and ask 
them, in light of this, what they do intend to do.
    Ms. Smolenski, we really in a way already focused in on a 
lot of what you said. We had a hearing this morning where we 
were talking about two protocols, one on child soldiers and the 
other was on the sale of children, child prostitution, and 
child pornography, which certainly ties into what this hearing 
has been about. I think that the Senate has not yet ratified 
the protocols. I think we are going to. It looks very good. I 
thought it was a good day because I think we are all in 
agreement and I think it is coming out of the Foreign Relations 
Committee. Do you think the protocol will be at all helpful?
    Ms. Smolenski. Yes, it will definitely be helpful, and 
especially since it calls attention to the U.N. Convention on 
the Rights of the Child in general, which is a very powerful 
human rights convention. But the optional protocol does go much 
further than the original convention on detailing how children 
can be protected, and we absolutely support ratification of it.
    Senator, may I followup on something that Ann Jordan said 
about DynCorp?
    Senator Wellstone. If I say no, what would you then do?
    Ms. Smolenski. I will obediently close my mouth.
    Senator Wellstone. I do not believe that for a moment.
    I would never say no.
    Ms. Smolenski. I am not kidding, but I would come up to you 
afterwards.
    Senator Wellstone. If I did say no, I would hope you would 
ignore that. Yes.
    Ms. Smolenski. I just wanted to say that ECPAT-USA has 
formed a coalition of groups to try to deal with the U.S. 
military problem of child prostitution because it is known that 
wherever there is a U.S. military facility and it is not just 
U.S. military, but since we are at ECPAT-USA, we work on U.S. 
military facilities. There is an increase in child prostitution 
in that area. There are lots of things that the U.S. Defense 
Department could do, and we met with them and said they could 
do these things. Basically, they said, well, we are not going 
to do those and that was that. So, I just wanted to call your 
attention to the problem and that we have suggestions for what 
they could do, and I am wondering if you might help us move 
them to another level.
    Senator Wellstone. You are just suggesting another easy 
issue for us to get involved with.
    Ms. Smolenski. It should not cost that much money, though.
    Senator Wellstone. I would be very interested in your 
giving us your best ideas.
    I probably should not say this in a formal hearing, but 
especially some of what you were saying, Ms. Smolenski, I was 
thinking--no self-righteousness intended. I was trying to 
figure out what the problem is with men. I should not say this 
as part of the hearing.
    I am very serious about this. I just cannot quite 
understand this. I do not think we are going to have a hearing 
about the state of men.
    Some of you traveled a long way, and I think we are going 
to stay in very close touch. I am hoping sometime to come to 
Los Angeles and maybe do some work with you there. I think we 
made a good start a year ago, and I think everybody who 
testified today, across the board, is committed to really doing 
our level best. I think my job is to be pushy and to really 
keep pushing hard, and I think Senator Brownback feels the same 
way. I think this was a very, very important hearing. I would 
like to thank everyone for coming. Thank you for your interest. 
Thank you for your commitment. Thank you for your work.
    And the subcommittee is adjourned.
    [Whereupon, at 4:49 p.m., the subcommittee was adjourned.]
                              ----------                              


             Additional Statements Submitted for the Record


  Prepared Statement of Theresa Loar, President, Vital Voices Global 
                              Partnership

    I want to thank the Senators for the opportunity to provide 
testimony about the implementation of the legislation to combat 
trafficking and protect trafficking victims that would not have been 
possible without your strong leadership. I wish to acknowledge Senators 
Wellstone's and Brownback's continued commitment to ensure that this 
issue does not get lost among the many important issues facing our 
country at this time.
    We have moved into a new and critical time for the United States 
anti-trafficking work. It is a time of expectations heightened by the 
promise of the world's most comprehensive and potentially powerful law 
against trafficking. In the previous period--the one leading up to the 
passage of the Trafficking Victims Protection Act of 2000--I had the 
honor of being the Director of the President's Interagency Council on 
Women, the office that for many years led the coordination of the 
Executive Branch's efforts to combat trafficking in persons. We worked 
closely with Congress, with the Departments of State, Justice, Labor, 
and Health and Human Services, with nongovernmental and international 
organizations in the U.S. and in many regions of the world. I am proud 
of our shared accomplishments during that period to get trafficking on 
the U.S. and world agenda.
    Due to the leadership of Senators Brownback and Wellstone, and 
Representative Chris Smith in the House, the United States has a law to 
protect trafficking victims and to prosecute trafficking. This now 
presents both opportunity and responsibility.
    Our responsibility will be met by prosecuting traffickers in 
numbers significant enough not only to punish but to deter, finding and 
assisting enslaved victims in numbers that are defensible compared to 
the estimated thousands of new trafficking victims in the U.S. each 
year, and preventing mothers, fathers, sisters, brothers, daughters and 
sons around the world from being trafficked in the first instance.
    After almost a year and a half, some aspects of legislative 
implementation are progressing. Secretary Colin Powell recently 
convened the first meeting of the Cabinet-level Task Force. We look 
forward to working closely with the Secretary and Ambassador Nancy Ely-
Raphel, the head of the Office to Combat and Monitor Trafficking, to 
make real progress in the fight against this tragic human rights abuse, 
growing health threat, and global criminal activity.
    In several cities, such as Chicago and New York, service providers 
are beginning to assess what local capacity exists to provide services 
to victims of trafficking. However, we are aware of no Department of 
Justice funding to service providers resulting from the legislation as 
contemplated by section 107(B)(2). This does not portend well for the 
prospects of trafficking victims in our country (as well as the 
prospects of identifying witnesses for prosecution). This also is hard 
to understand given the real commitment to this issue exhibited so far 
by the Attorney General.
    I am hopeful that the T-visa will become a cornerstone permitting 
the humane treatment of trafficking victims and increasing the 
likelihood that victims will help prosecute their traffickers. I am 
concerned however that the new regulations may be unworkable in the 
real world context. Does the process make sense for a teenager, for 
example, who has endured years of treatment tantamount to torture and 
recently escaped enslavement by her captors. Did the Senators intend 
that such a victim endure a complex application process and be charged 
application fees (which purport to be waivable). Is it possible that 
the process has been made sufficiently difficult for these victims of 
crime that they will not reach out for help?
    We are confident that if provided adequate resources the 
Trafficking in Persons and Worker Exploitation Task Force, co-chaired 
by the Departments of Justice and Labor, will continue to lead the 
United States' commitment to prosecuting cases while not further 
victimizing those who have escaped the traffickers. There is great 
motivation and commitment among the prosecutors in the Civil Rights 
Division to expand their skilled prosecution of traffickers. But more 
prosecutors dedicated to trafficking cases are needed.
    On their face, these may appear to be domestic elements of the 
global fight against trafficking. However with trafficking the domestic 
and international are intertwined. For example, when U.S. officials go 
to a country of origin to participate in anti-trafficking training or 
to speak at a conference, one of the first questions that arise 
concerns whether we have prosecuted any traffickers in the U.S. from 
that country. As long as this is answered in the negative, we have less 
chance of convincing other countries of our seriousness in confronting 
this problem.
    Let me propose a straightforward, but I believe critical, way to 
gauge meaningful progress of implementation of the legislation. 
Congressional hearings in the future on this subject should ask for the 
status of the following: 1) how many traffickers have been prosecuted 
and jailed for terms commensurate with the heinousness of the crime; 2) 
how many victims have been identified, rescued and assisted; and 3) 
what are the measurable results of prevention projects in countries of 
origin. These are the core questions that must frame the discussion in 
the future.
    We have rough baselines to start from today. The Department of 
Justice, for example, knows the number of investigations underway and 
prosecutions of traffickers undertaken. It knows how many victims it is 
working with and the Department of Health and Human Services knows how 
many victims have been certified. NGOs around the country should be 
encouraged to tabulate the victims and document their stories that they 
assist (even if those victims for whatever reasons choose not to seek 
help from the justice system).
    The effectiveness of the international programs sponsored by the 
U.S. government should be measured in much the same way. Taking account 
of the specific circumstances we find in each country we engage, we 
should ask how specifically do our trainings, cooperative arrangements, 
conferences, and meetings result in advancing these objectives in 
measurable ways. Nearly every country of the world has in one way or 
another, by signing the U.N. Protocol or through other means, expressed 
an official position that trafficking is an intolerable human rights 
violation and crime. The projects that our government undertakes must 
now assist these countries achieve the practical results that reflect 
that view.
    We have a long way to go. We know this because there is another 
baseline that these numbers should be compared against: Up to 50,000 
new victims are enslaved in the United States by trafficking every 
year; more than one million around the world. We must not lose the 
momentum in the fight against this heinous crime. We are making 
progress, but it is too early to tell whether our commitment to 
practical results that prosecute traffickers and assist victims will 
match the promise of the powerful tools contained in this legislation.
    Vital Voices is working to fulfill the promise of this new law in 
two important ways, by raising awareness of the issue in the United 
States and around the world and by training and empowering women in 
countries stricken by trafficking to fight this human rights abuse in 
their own country.
    To raise awareness, we are launching public service announcements 
developed by the Office of United Nations Drug Control and Crime 
Prevention for use in the U.S. Vital Voices is currently working to tag 
these award-winning public service announcements with a call to action 
to abolish this modern-day slavery here in the U.S. and globally. 
Additionally, we are publishing a regular newsletter via e-mail and on 
line to over 2000 representatives of governments, nongovernmental 
organizations and international institutions. Our goal is to promote 
effective partnerships between government officials and NGOs across the 
nation and around the world to fight trafficking in persons.
    In collaboration with Georgetown University, the Vital Voices 
Global Leadership Institute is training emerging women leaders to fight 
trafficking on the ground in source, destination and transit countries 
in the areas of prevention, protection and prosecution.
                                 ______
                                 

Prepared Statment of Eugene Scalia, Solicitor of Labor, U.S. Department 
                                of Labor

    I am submitting this statement on behalf of the Department of Labor 
in connection with the Subcommittee's March 7 hearing on the 
Trafficking Victims Protection Act of 2000 (TVPA).
    The Department of Labor has a strong commitment to the objectives 
of the Act, and I am pleased to describe the measures we have taken, 
and plan to take, to combat trafficking in persons. Secretary Chao 
considers effective implementation of the TVPA to be an important 
departmental objective.
    It should be stated at the outset that Congress is to be applauded 
for passing this groundbreaking legislation with overwhelming 
bipartisan support in 2000. This is the first comprehensive law in the 
United States designed to stop trafficking in persons. Congress adopted 
a three-prong approach--prevention; protection and assistance; and 
prosecution--because it recognized that trafficking is a multi-
dimensional problem. We will not be fully effective if we increase our 
prosecution effort here in the United States without attempting to stop 
trafficking where it originates--often overseas--and without 
endeavoring to protect and assist the victims.
    As Congress recognized in its findings, trafficking in persons is 
not limited to prostitution. Rather, ``[t]his growing transnational 
crime also includes forced labor and involves significant violations of 
labor, public health, and human rights standards worldwide.'' Thus, 
from the Department of Labor's perspective, trafficking is not only a 
moral and human rights problem, it is also a serious workplace issue. 
Far too many trafficking victims are working in the fields and 
factories of this country, suffering under exploitative labor 
practices. Too often, these victims are forced to work against their 
will through violence, threats of violence, and other forms of 
coercion. Typically, they work very long hours without receiving lawful 
pay, and often work, live and are transported in unsafe conditions. 
These practices not only harm the victimized workers, but also permit 
the abusive employers to gain an unfair competitive advantage over the 
vast majority of law-abiding employers. Regardless how simple or how 
sophisticated trafficking enterprises may be, they all deny the 
essential humanity of their victims.
    Department of Labor agencies have important roles to play in 
implementing each of the three prongs of the TVPA's anti-trafficking 
strategy. The agencies receive direction, and support, from the highest 
levels of the Department. Just three weeks ago Secretary Chao met with 
the Secretary of State, Attorney General, National Security Advisor, 
and other senior administrators to discuss implementation of the Act. 
Two days ago, I attended a meeting of a senior interagency policy group 
that has been charged with developing a comprehensive plan to address 
trafficking in persons. We intend to use the authority and resources 
that we have at the Labor Department to deter domestic and 
international trafficking and bring its perpetrators to justice, while 
also providing available departmental services to the victims so that 
they may work productively, and with dignity, in the future.
    With regard to the prevention prong of the Act, the Department's 
Bureau of International Labor Affairs (ILAB) has initiated a number of 
projects to combat trafficking in persons in the countries of origin, 
and in transit. These projects enhance international compliance, help 
countries avoid sanctions under the TWA, and are intended not only to 
help trafficking victims, but more importantly, to prevent women and 
children from being trafficked in the first place. In short, through 
ILAB's efforts overseas, we aim to help stop this problem at its 
source.
    ILAB has negotiated a $1.2 million cooperative agreement with the 
International Research and Exchanges Board (IREX), a non-governmental 
organization, to conduct a two-year anti-trafficking project in Eastern 
Europe. Started in November 2001, this program aims to prevent the 
trafficking of women by creating viable economic alternatives for at-
risk women in seven major cities. IREX will develop training and 
empowerment centers with existing women's organizations to train 13,500 
women and provide support services to 5,800 women annually. 
Specifically, this program's activities will include providing 
marketable job skills to at-risk women and girls, providing job 
placement services to those who have been trained, conducting outreach 
activities to raise awareness among women and girls, identifying legal 
aid and psychological support services, and promoting entrepreneurship.
    ILAB also supports projects to combat trafficking in children for 
exploitative labor through the International Labor Organization's 
International Program on the Elimination of Child Labor (ILO-IPEC). 
ILAB has supported projects to address child trafficking in 17 
countries in West and Central Africa, Southeast Asia, South Asia and 
South America. These projects rescue children from trafficking and 
exploitative work situations, and provide them with rehabilitation 
services and educational opportunities, as well as undertaking efforts 
to prevent children from being trafficked in the first place. ILAB 
currently is supporting programs through IPEC to combat trafficking of 
children in South Asia (Bangladesh, Nepal and Sri Lanka), and in West 
and Central Africa (Benin, Burkina Faso, Cameroon, Gabon, Ghana, Cote 
d'Ivoire, Mali, Nigeria and Togo). In addition, ILAB is supporting 
comprehensive, national ``Timebound Programs,'' through IPEC, to 
eliminate the worst forms of child labor in Nepal, Tanzania and El 
Salvador. ILO Convention 182 identifies trafficking of children as one 
of the worst forms of child labor, and as such, children who are 
victims of trafficking will receive priority attention in each of these 
three countries.
    While the Department is extensively involved in preventing 
trafficking overseas, we recognize that we have a special obligation to 
help trafficking victims within our own borders. Thus, with regard to 
the protection and assistance prong of the TVPA, the Department's 
Employment and Training Administration (ETA) takes very seriously its 
obligation when providing services to treat victims of severe forms of 
trafficking as refugees, without regard to their immigration status. We 
expect the services provided at One-Stop Career Centers, such as job 
search assistance, career counseling and occupational skills training, 
to benefit trafficked individuals. The Job Corps program also may 
provide useful job training opportunities for victims.
    We also intend to work alongside other federal agencies to make 
victims aware of the services available to them. To this end, the 
Department's Women's Bureau prepared a publication entitled 
``Trafficking in Persons: A Guide for Nongovernmental Organizations,'' 
in collaboration with the Department's Wage and Hour Division, the 
Employment and Training Administration, and components of the 
Departments of Justice, Health and Human Services, and State. The 
publication is intended to provide NGOs with information about federal 
laws that prohibit trafficking in persons and the services and benefits 
that victims may receive.
    Finally, to carry out the prosecution prong of the TVPA, we have 
redoubled our efforts to root out abusive labor practices in this 
country. The Department's Wage and Hour Division, supported by the 
Solicitor's Office, has increased its emphasis on compliance with labor 
standards laws, such as the Fair Labor Standards Act (FLSA) and the 
Migrant and Seasonal Agricultural Worker Protection Act (MSPA), in low-
wage industries such as garment manufacturing and agriculture. These 
industries often include a substantial concentration of undocumented, 
and sometimes trafficked, workers.
    Wage and Hour investigators are in workplaces everyday, and often 
are the first government authorities to witness exploitative conditions 
and talk to victims. Through the Trafficking in Persons and Worker 
Exploitation Task Force, which I co-chair with Assistant Attorney 
General Boyd, and under the TVPA, Wage and Hour closely coordinates 
investigations of egregious workplace conditions with the Department of 
Justice. Most relevant for today's hearing, Wage and Hour and the 
Solicitor's Office have assisted the Department of Justice's ongoing 
prosecution of the owner of a garment sweatshop in American Samoa, the 
first criminal prosecution under the TVPA. At the Department, our 
Office of the Inspector General has participated in several 
investigations with the Task Force, and we also have taken recent steps 
to enlist OSHA inspectors in identifying workplace exploitation of 
trafficking victims.
    As the Solicitor of Labor, I intend to build on our notable 
successes in prosecuting trafficking and worker abuse cases. The 
following are examples of recent cases in which the Labor Department 
played a significant role, balancing the special needs of trafficking 
victims with swift punishment for traffickers:

  <bullet> In 1999, three defendants were convicted of slavery and 
        immigration violations arising from their use of threats of 
        force to enslave Mexican farm workers in the agricultural 
        fields of southern Florida. The lead defendant received a 
        three-year prison term. The victims received legal status and 
        are working in Florida, where they participate in a farm worker 
        advocacy group.

  <bullet> In 2000, the federal government obtained convictions against 
        four garment shop owners in Manhattan's Chinatown for lying to 
        Wage and Hour investigators. The Department's Inspector 
        General's Office also played an important role in this matter. 
        The garment manufacturers, who engaged in widespread wage 
        violations and kept several sets of records to deceive 
        investigators, were assessed criminal fines, ordered to pay 
        back wages as restitution, and given probation.

  <bullet> In 2000, two garment companies based in the Commonwealth of 
        the Northern Mariana Islands were ordered to each pay a fine of 
        $100,000 and to serve five years probation after pleading 
        guilty to criminal contempt charges for violating a consent 
        judgment that ordered them to pay legally-required wages to 
        their employees. A Wage and Hour investigation had discovered 
        that the companies had underpaid 336 workers by almost $1 
        million, after previously underpaying their workers by 
        $560,000.

  <bullet> In the last several years, four notorious farm labor 
        contractors in the Southeastern United States who exploited 
        farm workers were convicted under various criminal provisions. 
        Most recently, in 2001, a Florida farm labor contractor was 
        sentenced to four years in prison after pleading guilty to 
        charges that he used insurmountable debts for cocaine, beer and 
        cigarettes, as well as threats and violence, to enslave field 
        workers.

    In conclusion, we at the Department of Labor thank the Members of 
Congress for providing us the tools we need to combat the scourge of 
trafficking in persons, and commit the Labor Department to working with 
our sister agencies to eradicate this problem.
                                 ______
                                 

            Prepared Statement of Equality Now, New York, NY

    Equality Now is an international human rights organization based in 
New York dedicated to the protection of the rights of girls and women. 
It currently has over 20,000 members in its Women's Action Network from 
more than 100 countries. Equality Now would like to express its thanks 
to the Senate Foreign Relations Committee for the opportunity to 
present a statement on sex tourism to this hearing.
    Among issues of concern to Equality Now are the trafficking of 
girls and women and the practice of sex tourism. Of particular interest 
to us is the connection between these two activities, which are 
responsible for the death, disease and deprivation of tens of thousands 
of girls and women every year. Sex tourism from the United States is a 
thriving business. Big Apple Oriental Tours of Bellerose, New York, for 
example transports men to the Philippines and Thailand and once there 
guides them to bars and brothels where sex can be purchased from local 
girls and women. Although Big Apple and other sex tour operators 
officially deny that they arrange for sex between their customers and 
underage girls, interviews by their operatives with various journalists 
have revealed a different story. In a 1993 broadcast report, the 
television news program Inside Edition recorded Big Apple tour guide 
Louis Schonberger promising an undercover reporter that sex with 15 and 
16 year-old girls could be arranged for Big Apple customers. In a March 
1998 interview with the Associated Press, Norman Barabash, an owner of 
Big Apple Oriental Tours, responded to a question concerning the age of 
the girls that his company arranged for his customers by stating 
``There is no way of knowing for certain. Short of giving them lie 
detector tests who can tell?''
    Despite more than five years of campaigning for the prosecution of 
Big Apple Oriental Tours by Equality Now and other human rights 
organizations in the United States and abroad, that company still 
brazenly conducts its tours without fear of criminal sanction. Equality 
Now's efforts in seeking the prosecution of Big Apple Oriental Tours 
and other sex tour companies have met with the same response from 
numerous federal, state and local prosecutors. While agreeing that sex 
tourism is abhorrent, the prosecutors felt generally that current 
legislation is inadequate to pursue a successful prosecution. Although 
Equality Now believes that certain state legislation could be used to 
prosecute sex tourism, strong unequivocal federal legislation 
criminalizing sex tourism would both send a hard-hitting message to sex 
tour operators that sex tourism from the United States is unacceptable, 
and would also provide an invaluable tool against those who persist in 
promoting the practice. We urge you therefore to amend the current 
statutes to provide prosecutors with the laws that they need to stop 
the activities of sex tour operators.
    Comprehensive legislation will need to consider the following facts 
about sex tourism: A large number of the women who work in the bars and 
brothels in sex tour destinations are actually 14, 15 or 16 years of 
age. However these girls are able to obtain necessary identifications 
indicating that they are of legal age through the connivance of corrupt 
local officials, politicians, pimps, police officers and traffickers. 
These false identifications enable Big Apple Oriental Tours and other 
sex tour operators to plausibly deny that their customers have sex with 
underage girls. Tackling corruption in the hugely profitable 
trafficking industry overnight is a mammoth task. One simple way of 
protecting underage girls from abuse and exploitation irrespective of 
any identity cards they might hold would be to amend the laws in the 
United States, to make liable to prosecution any individual who commits 
an act that would constitute a sex crime in the United States. Only in 
this manner can those individuals having sex with underage girls with 
false identifications be sure of falling within the prohibition of the 
legislation.
    It must also be taken into account that sex tour operators attempt 
to hide their illicit activities behind otherwise legitimate 
activities. The brochure and web site of Big Apple Oriental Tours 
promises its customers access to a range of activities including 
military history tours, golf, barbecues and even museums. Sex tour 
operators also hide behind the same excuse offered by escort services 
and pimps everywhere: that they only make introductions and that 
anything that follows is not their responsibility. Thus, they are able 
to deny actual ``knowledge'' of precisely what their customers do. To 
avoid the difficulty in proving actual knowledge by sex tour operators 
of what their customers do, statutes should be amended to provide a 
more reasonable standard. We recommend and urge that any statutory 
amendment directed to the practice of sex tourism only require that sex 
tour operators ``knew or should have known'' of the conduct of their 
customers. For example, Big Apple Oriental Tours engages in a range of 
activities that could be used to establish that they should have known 
what their customers were doing. These activities include reports made 
to them by previous customers of use of prostitutes, introduction by 
Big Apple tour guides to bars that permit the purchase of sex from the 
girls working there, and actual negotiation of the price and nature of 
the sex act by Big Apple's tour guide with the girl's mamasan (the 
woman who acts as a pimp for the girls).
    We strongly encourage you to make any new or amended legislation 
very broad in scope. Practices that would be untenable in this country 
are woefully unregulated by the United States when perpetrated by its 
citizens abroad. Done mostly via the internet, hundreds of companies 
offer to take men to a variety of countries for the purpose of 
introducing them to prospective wives. These companies are not required 
to compile or maintain any information about their customers or the 
prospective brides. Therefore, introductions can be made to individuals 
with criminal records, histories of violence or any type of sexually 
transmittable disease and such information would be unavailable to the 
other party to the introduction. A 1999 investigation by Equality Now 
contacted more than 70 companies offering introductions for the purpose 
of marriage on the internet. Our investigator, posing as a potential 
customer, claimed to have a history of domestic violence and large 
child support and alimony payments and asked if these facts would 
disqualify him from using the companies' services. Only three of the 
responding companies said that it would. One respondent described the 
lack of regulation of this industry by stating ``The (United States) 
government doesn't care if you're Jack the Ripper.''
    Sex tour operators officially deny that they are such. By requiring 
all business entities (whether incorporated or not) or other 
associations that enable the introduction of United States citizens or 
residents to foreign nationals, in the foreign national's home country, 
to keep adequate records of the people using the services offered 
(which would be open to legitimate inspection by the appropriate 
regulating authorities), properly targeted United States legislation 
would discourage all but genuine introduction agencies as well as going 
some way to afford protection to those using the service. An added 
benefit to such a record-keeping requirement would be to provide a 
degree of needed regulation to the quickly growing ``mail order bride'' 
business.
    We urge your immediate attention to these inadequacies in current 
U.S. law. The conduct of sex tourists serves to diminish the respect 
and affection of foreigners for the United States. Sex tourism presents 
the worst of the United States. The conduct of relatively wealthy 
Americans engaging in conduct they would not dare do at home creates an 
image of Americans as predatory and parasitic. In Costa Rica alone for 
example, according to ECPAT, Americans account for 80% of arrests 
involving child sex tourism. The passage of effective laws to address 
such conduct would not only serve to protect thousands of girls and 
women who are victimized by sex tour operators and their customers, it 
would also demonstrate the best of the United States: the protection of 
the weak and vulnerable and ensuring that they will receive the 
protection and justice that they deserve. Thank you.
                              ----------                              


            Responses to Additional Questions for the Record


Responses of Hon. Paula Dobriansky, Under Secretary of State for Global 
 Affairs, to Additional Questions for the Record Submitted by Senator 
                               Wellstone

    Question 1. When do you plan to submit to the Senate for 
ratification the Trafficking Protocol to the UN Crime Convention 
against Transnational Organized Crime that the U.S. signed in December 
2000?

    Answer. The Administration is in the final stage of preparing the 
transmittal package to request the Senate's advice and consent to 
ratification of the Transnational Organized Crime Convention and its 
supplementary protocols on trafficking in persons and smuggling of 
migrants.
    We will update you as the process moves forward.

    Question 2. What role do you play in facilitating with other 
governments the repatriation of trafficking victims to their countries 
of origin and in providing funding to send victims home? How do you 
ensure victims who are repatriated receive adequate attention?

    Answer. Encouraging other countries to strengthen their capacity to 
receive and reintegrate victims is a cornerstone of our bilateral 
engagement. We are working closely with the Departments of Justice and 
HHS to strengthen our ties between our efforts to identify and assist 
victims in the U.S. and our international engagement to ensure safe 
return. We recently provided to the Department of Justice a list of NGO 
service providers in various countries that have received U.S. 
Government antitrafficking assistance and that may be able to assist 
these victims who are returned from the United States. We provide 
assistance to a number of groups that assist with repatriation in 
various countries, so that they can provide victims with assistance in 
returning home, as well as any medical or psychological care that they 
may need.

    Question 3. What have you done to address HIV/AIDS and other 
sexually transmitted diseases in relation to trafficking? Does the 
Department of State plan to request more funding than the current 2003 
budget proposal of $200 million for the Global Fund?

    Answer. The Office to Monitor and Combat Trafficking in Persons 
recently co-chaired an intra-Departmental meeting with the State 
Department's Office of International Health Affairs. Representatives of 
the Office of the Under Secretary of Global Affairs, the Bureaus of 
Democracy, Human Rights and Labor, and Population, Refugees and 
Migration also participated. The group is working to identify possible 
areas of collaboration to address the linkage between HIV/AIDS and 
other infectious diseases and trafficking. In addition to providing 
greater emphasis on trafficking and HIV/AIDS issues in programming, the 
Department also intends to expand successful efforts with other USG 
agencies, NGOs, and international organizations to promote action on 
HIV/AIDS and trafficking.
    The President's budget proposal of $200 million in FY 2003 for the 
Global Fund to Fight AIDS, Tuberculosis and Malaria brings the total 
U.S. pledge to the Fund to $500 million. In his March 14, 2002, remarks 
on global development at the Inter-American Development Bank, the 
President stated that as the Global Fund finalizes its organization, 
develops a strategy, and shows success, he would work with Congress to 
increase the U.S. commitment to the Fund. The United States remains the 
global leader in the fight against

    Question 4. In regard to the list of countries not reaching the 
minimum standards for the elimination of trafficking--the 3rd Tier 
countries--in the Trafficking in Persons Report, which countries have 
contacted you since the release of the report in July 2001? How many 
have asked for assistance to help fight trafficking?

    Answer. The Trafficking in Persons Report has prompted increased 
awareness--and, in some cases, action--by a large number of foreign 
governments on the issue of trafficking in persons. Several countries 
on the Tier 3 list of the 2001 Trafficking in Persons Report have taken 
steps towards recognizing or addressing this problem since the report 
was issued. These countries include Albania, Bosnia and Herzegovina, 
Gabon, Greece, Indonesia, Israel, Malaysia, Romania, Russia, South 
Korea, Turkey, and Yugoslavia.
    South Korea, for example, has undertaken an intensive effort to 
remedy the concerns cited in the TIP report. The South Korean 
government submitted an extensive report (``Current Status of Efforts 
to Eliminate Trafficking in Persons'') in early October detailing 
various anti-trafficking initiatives in the areas of prosecution, 
protection, and prevention initiatives. Since October, key Republic of 
Korea Foreign Ministry officials have met several times with high-level 
Department principals to seek USG views and to convey their 
government's determination to improve its record on this issue.
    The Romanian Foreign Minister met with U.S. officials in April 2002 
to review the Romanian anti-trafficking progress report submitted 
earlier to the Department of State. Romania has been active in trying 
to overcome shortcomings noted in the 2001 TIP Report, adopting a law 
to prevent and combat trafficking in persons, and establishing a 
National Action Plan against Trafficking. The Romanians also reported 
that the U.S. trafficking statute served as a source of inspiration for 
their new law. They also have taken a number of additional steps, 
including contacting the Romanian Orthodox Church to ask for its help 
in destigmatizing victims.
    Several countries in southeastern Europe have increased or started 
to take measures aimed at the problem, despite significant resource 
constraints in some cases.
  <bullet> The Government of Albania, for example, in close 
        coordination with our embassy, created and passed on December 
        7, a comprehensive National Action Plan, which charts their 
        course for combating trafficking.
  <bullet> Bosnia and Herzegovina is forming a strike force to improve 
        coordination and successful prosecution of those who organize 
        and direct human trafficking.HIV/AIDS, dedicating approximately 
        one-third of all international spending against the disease. 
        The President's FY 2003 budget request of $1.1 billion for the 
        fight against HIV/AIDS is a 53.9% increase over FY 2001.

  <bullet> In Yugoslavia, the government staffs working groups that 
        specifically address prevention, protection, and prosecution.
  <bullet> Greece established an Inter-Ministerial Committee to address 
        trafficking in women. In May and June 2001 the Government 
        passed new immigration and organized crime laws that increased 
        protection for women who press charges against their 
        traffickers by allowing them to remain in the country legally 
        and setting aside any previous convictions. Specific anti-
        trafficking legislation has been drafted. Meanwhile, police and 
        border guards are being trained on detection of trafficked 
        women.
    Russia has also cooperated with the U.S. on an Alaska trafficking 
case involving Russian women. Additionally, the MVD has formed an 
internal taskforce to determine how best to integrate the trafficking 
and migration issues into its portfolio.
    Indonesia co-sponsored, with Australia, the Regional Ministerial 
Conference on People Smuggling, Trafficking in Persons and Related 
Transnational Crime in Bali in February, at which the United States 
participated as an observer.
    Israel has significantly increased investigations of traffickers 
and also has improved protection for victims. Israel recently signed 
the UN Protocol to Prevent, Suppress, and Punish Trafficking in 
Persons, Especially Women and Children. Senior representatives from the 
Israeli embassy and the government met with State Department officials 
on several occasions to discuss their anti-trafficking efforts and ways 
to improve their record.
    In August 2001, the Turkish National Police sent a circular to 
provincial police chiefs strongly urging them to use a tough 1999 
organized crime law to investigate cases of trafficking. Last month, 
the Minister of Justice presented a bill to the Council of Ministers 
making trafficking a crime, with heavier penalties for organized 
criminal involvement. Previous laws had targeted prostitutes.
    In August 2001, the Gabonese Council of Ministers proposed 
legislation to establish penalties for the trafficking of persons.
    Malaysia has increased efforts to stop the flow of mala fide 
travelers including trafficking victims across its borders since the 
TIP report was issued. Three interagency groups have been formed to 
address organized crime, illegal migration and border control, all of 
which address trafficking in persons. The Malaysian government has 
consulted with U.S. officials in Washington and Kuala Lumpur about 
efforts to improve its performance in this area.

    Question 5. How often will the President's Inter-Agency Task Force 
on Trafficking meet? Have you developed a comprehensive strategy for 
fighting trafficking? Have you set benchmarks?

    Answer. We expect that the President's Inter-Agency Task Force on 
Trafficking in Persons will meet approximately twice a year. The Senior 
Policy Advisory Group, which I chair, will meet on a regular basis to 
provide policy oversight of the USG efforts on trafficking in persons, 
including the implementation of the Act. We are in the process of 
developing a three-year plan with goals and objectives for the TIP 
office, as well as an operational plan, timeline, and benchmarks for 
progress. In terms of a comprehensive strategy at the diplomatic level, 
we are raising the trafficking issue at senior levels with foreign 
governments, especially those in Tier 3 of the 2001 Trafficking in 
Persons Report. At the programmatic level, we are in the process of 
developing a strategy for targeted countries that have a significant 
problem of trafficking, have the political will and are eligible for 
U.S. foreign assistance.

    Question 6. What is the State Department doing to investigate 
allegations that some international military and police force personnel 
have been involved in trafficking and forced prostitution, either as 
customers, facilitators or principals? Has the State Department ever 
recommended the prosecution of any military or International Police 
Task Force members for such involvement? If so, has the Department of 
Justice prosecuted any of the cases?

    Answer. We cooperate and work closely with the Department of 
Defense on alleged incidences of criminal wrongdoing. We refer you to 
the Department of Defense for specific information on their policies. 
The Department of State has referred the alleged wrongdoing by U.S. 
civilian police force personnel to the Department of Justice Criminal 
Division for review. The Department of Justice should be contacted for 
information on the status of these cases.

    Question 7. What is being done to provide training and establish 
accountability for any U.S. military or police who are implicated in 
trafficking or forced prostitution?

    Answer. The State Department gives all U.S. civilian police 
(CIVPOL) officers a detailed pre-deployment briefing on trafficking. 
The briefing stresses that the State Department has a ``no tolerance 
policy'' with respect to involvement in trafficking and/or 
prostitution. Specifically, an officer will be removed from his/her 
position if any allegations of such activity are substantiated, as will 
any U.S. officers who knew of the involvement of others and failed to 
report it. They also will be ineligible for employment in future 
missions, must pay their own airfare home, forfeit their mission 
completion bonus, and may be subject to prosecution, either in the 
mission area or in the United States. All officers sign a letter of 
agreement before deployment acknowledging that they have been briefed 
on the issue of trafficking of persons, understand our policy, and are 
aware of the ramifications for failing to adhere by it.
    The State Department has, in a small number of cases in which such 
problems have arisen, taken action consistent with our policy, 
including making a referral to the Department of Justice Criminal 
Division for possible prosecution. We have also repeatedly stressed to 
the UN in New York and to individual CIVPOL field missions our 
expectation that the UN will investigate fully even the most minor 
infractions by any CIVPOL officer and take appropriate disciplinary 
action.

    Question 8. Has the State Department conducted any investigations 
into the alleged involvement in trafficking of the U.S. contingent of 
international police forces which have been recruited and hired by 
private contractors rather than the U.S. government directly? If so, 
what are the results of the investigation?

    Answer. The State Department has informed the United Nations--both 
headquarters and field missions--that we want full and complete 
investigations done on any and all U.S. CIVPOL personnel alleged to 
have been involved in trafficking and/or prostitution. We obtain a copy 
of the UN internal affairs investigative report on these activities and 
provide this report, any independent findings we have, and a 
description of the disciplinary action we have taken to the Department 
of State Office of the Inspector General Office (OIG) for review, and 
to the Department of Justice Criminal Division for possible 
prosecution.
    The OIG has reviewed several cases in which U.S. officers were 
dismissed from duty, but only to determine whether the U.S. response 
was appropriate and to assess whether additional action was called for.
    The OIG also conducted an audit related to U.S. support to the UN 
International Police Task Force (IPTF) in Bosnia. The audit was 
conducted at the request of the Chairman of the House Subcommittee on 
National Security, Veterans Affairs and International Relations, 
Committee on Government reform, based on a May 2001 Washington Post 
article on reported misconduct and corruption by U.S. police in the 
program. The audit deals with the adequacy of suitability standards 
used to screen and select task force officers sent to Bosnia, the 
number of task force officers sent home for cause or misconduct, and 
the procurement process used to select a contractor (DynCorp) to 
provide the police officers. The final report has not been released.
    The Office to Monitor and Combat Trafficking leads an interagency 
working group on this issue to develop and implement our policy on 
international multinational forces and trafficking in persons.

    Question 9. Are there presently any plans for the U.S. government 
to assume responsibility for hiring, training and supervising the U.S. 
international police contingents?

    Answer. The are no plans at this time for such functions to be 
carried out directly by the U.S. government. For practical reasons, the 
Department of State retains a contractor to provide these services and 
functions, which are carried out with guidance from, and direct 
oversight of, the State Department (Bureau for International Narcotics 
and Law Enforcement Affairs). The Department is considering the 
possibility of hiring an internal affairs expert to conduct independent 
investigations of U.S. CIVPOL misconduct.
    The State Department determines U.S. CIVPOL hiring standards and 
requirements for pre-mission training/preparation, as well as standards 
for conduct. Each U.S. CIVPOL contingent has a State Department-
approved command structure, which along with State Department personnel 
in the field, monitors the activities of U.S. CIVPOL while deployed in 
missions. U.S. contingent disciplinary decisions are made based on 
guidance from the State Department. As personnel are seconded to the 
UN, the UN also retains operational supervisory authority over all 
CIVPOL officers deployed in a mission, and may independently discipline 
officers within the mission for breach of its codes of conduct.
    The Office to Monitor and Combat Trafficking has designated a key 
officer to track and oversee this issue.

                                 ______
                                 

Responses of Viet D. Dinh, Assistant Attorney General, Office of Legal 
 Policy, Department of Justice, to Additional Questions for the Record 
                     Submitted by Senator Wellstone

    Question 1. Which office in the Department of Justice (DOJ), the 
Office of Victims of Crime (OVC) or the Violence Against Women Office 
(VAWO), is responsible for moving the money to help trafficking victims 
in 2002?

    Answer. OVC is responsible for administering the $10 million grant 
program for victims of trafficking established by the Victims of 
Trafficking and Violence Protection Act of 2000 (VTVPA). OVC has 
convened an interagency trafficking task force to develop the program, 
and VAWO has dedicated three staff members to serve on the three 
subcommittees that make up this task force. The subcommittees address 
victim needs, training needs, and the coordination of training, 
resources and research/evaluation.

    Question 2. What is the time frame for non-governmental 
organizations seeking bids on projects to fund direct services to 
trafficking victims?

    Answer. OVC anticipates publication of its solicitation for grant 
applications to assist victims of trafficking within 90 days.

    Question 3. Do you have any plans to coordinate a funding strategy 
with the Office of Refugee Resettlement (ORR), which has also received 
an appropriation to fund direct services, so that programs are not 
duplicative?

    Answer. OVC is actively coordinating with the key federal agencies 
involved in human trafficking issues. The most tangible, but by no 
means the sole, manifestation of such coordination is the establishment 
of the Interagency Trafficking Task Force on Program Development. The 
Department of Health and Human Services (HHS) and the Office of Refugee 
Resettlement (ORR) are included in the Task Force. Additionally, 
specific subcommittees have been created that focus on (1) Victim 
Needs; (2) Training Needs; and (3) Coordination of Resources and 
Research and Evaluation. From these discussions, OVC hears first-hand 
of the other proposed or actual efforts and programs directed at 
victims of trafficking.

    Question 4. What plans does the Immigration and Naturalization 
Service (INS) have for meeting the statutory requirement to provide 
facilities that are appropriate and safe for trafficked persons in 
cases in wbich no private shelter is available so that victims are not 
held in INS detention centers or other inappropriate facilities?

    Answer. As a matter of general policy, INS does not detain 
trafficking victims unless individual circumstances or the law require 
detention. The need to continue custody in order to protect the victim 
and the victim's desire to remain in custody for protection purposes 
are taken into consideration when making custody determinations. 
However, in general, victims of severe forms of trafficking in persons 
are not required to remain in custody for the sole purpose of 
protection.
    Meeting the housing needs of trafficking victims is one of the 
greatest challenges faced by the government agencies involved in 
investigating trafficking cases and providing services to trafficking 
victims. INS is partnering with other government agencies, such as HHS, 
and with non-governmental organizations (NGOs) in an effort to meet 
this need. INS uses a combination of mechanisms to ensure that victims 
of a severe form of trafficking are not detained in facilities 
inappropriate to their status as crime victims. Those mechanisms 
include placement with an NGO, placement through the HHS ORR, and 
housing victims in private hotels for a short period of time. The 
decision as to which mechanism is appropiate in any given case depends 
on the circumstances of the case and the resources available.
    In working with other government agencies and NGOs to make housing 
arrangements for trafficking victims, it has become apparent that there 
is a critical need for developing resources for immediate non-custodial 
emergency housing. As a case is developing, it is often unclear whether 
trafficking is involved, and even after an individual has been 
identified as a trafficking victim there is a short period of time 
between identification and HHS certification. It is during that time 
that INS resources face the greatest challenges. INS would welcome the 
opportunity to work with Congress to identify emergency housing 
resources.

    Question 5. Are there plans to expand the Worker Exploitation and 
Trafficking hotline to 24-hours, 7-days a week instead of just during 
business hours? What plans does DOJ have to investigate and prosecute 
in a timely matter the enormous increase in cases that have come as a 
result of the hotline?

    Answer. The Department believes that the Trafficking in Persons and 
Worker Exploitation Task Force complaint line is an important tool in 
our efforts to combat this problem. The Department notes however, that 
while complaint line activity has increased in recent months, we 
believe current coverage is adequate. We will continue to monitor the 
use of the complaint line and review the hours if there is an 
demonstrated need to do so. In the meantime, the Department is 
directing its current resources to ensure adequate attorney staffing in 
the Civil Rights Division's Criminal Section to handle the increasing 
caseload.
    The Department has seen a significant increase in cases arising not 
only from calls received through the complaint line but also from other 
outreach and training efforts. All available resources are being used 
to investigate and prosecute the new matters expeditiously. The Civil 
Rights Division is in the process of hiring new attorneys with the FY02 
appropriation in order to help handle the growing number of trafficking 
cases. We will pursue these cases as vigorously as our resources 
permit.

    Question 6. What is the INS doing to ensure uniform and consistent 
implementation of the new T-visa regulations around the country?

    INS has centralized processing of all T-visa applications by 
sending them to the Vermont Service Center (VSC) for adjudication. INS 
conducted training on the VTVPA, with a special focus on the T 
nonimmigrant visa, at the VSC in January 2002. This training included 
presenters from various offices within INS and other key agencies such 
as the Justice Department's Civil Rights Division and the State 
Department. This training was provided to all INS adjudicators, who 
will be processing those applications received by INS, as well as to 
key management at the VSC and essential contract employees.
    As part of the training, individuals from the government agencies 
presented a very comprehensive overview of human trafficking. The 
training covered all elements that comprise the legislation involving 
human trafficking, most notably INA 107(c) and 8 C.F.R. Sec. 214.11. 
The training also included non-governmental involvement with presenters 
from the Coalition to Abolish Slavery and Trafficking (CAST), the 
Florida Immigrant Advocacy Center, a noted psychologist with experience 
in treating symptoms and disorders associated with human trafficking, 
and a noted sociology professor with expertise in explaining culthral 
dynamics.
    The INS has also produced a training video for all INS officer 
corps employees. The video explains the VTVPA, instructs employees how 
to identify potential victims, and outlines benefits available to 
victims. This video aired on INS TV during March 2002, and copies have 
also been provided to all INS offices. Additionally, an interactive 
computer-based training program is being developed by INS, with an 
overview course for all INS employees and specific modules tailored for 
individual officers and activities. This training is also being 
incorporated into the basic and advanced courses conducted at INS 
officer training academies. All of these training initiatives will 
eventually be available for INS employees in a variety of media formats 
and delivery methods, and all will allow for tracking and verification 
that employees have attended the training.

    Question 7. What is the DOJ strategy to improve resources to 
investigate trafficking cases at the local level? Do you plan to fund 
INS victims coordinators at the local level so that agents do not have 
to coordinate victims services as a collateral duty on top of their 
investigative work?

    Answer. The Department is focusing existing resources to improve 
coordination among federal, state, and local law enforcement as well as 
among victim service and advocacy groups. Training and outreach are 
important aspects of this effort and complement our work with our 
federal partners in the field. This work is modeled on the national 
Trafficking in Persons and Worker Exploitation Task Force, chaired by 
the Justice Department's Civil Rights Division and the Labor 
Department's Solicitor's Office. This coordinated approach has provided 
a forum for interagency information sharing in potential cases and 
coordination of efforts in outreach, training, and public awareness 
raising. Nascent efforts to promote similar interagency collaboration 
and information sharing at the local level are already taking root 
through regional task forces.
    The Department is dedicated to providing increased training for 
prosecutors and agents on trafficking in persons. The Criminal Section 
of the Civil Rights Division has made presentations at several training 
sessions held at Quantico for FBI agents, and at a training of INS 
staff at the VSC, where T visa applications will be adjudicated. 
Division personnel have planned, coordinated, and presented training 
sessions for federal prosecutors, agents, and victim-witness 
coordinators from around the country at the Department's National 
Advocacy Center in Columbia S.C. Another such training is planned for 
October, 2002 and will consist of two two-day sessions primarily for 
federal prosecutors, but also for FBI and INS agents. We have provided 
training to local law enforcement at the FBI's National Academy, and 
are writing an article to be placed in the magazine of the 
International Association of Chiefs of Police (IACP), which reaches 
local police chiefs across the country. We hope to participate in the 
annual IACP conference this fall in order to focus more attention on 
the problem of trafficking, the new law, the Department's work in 
investigating and prosecuting cases, and the resources available to 
victims.
    With respect to INS victim-witness coordinators, INS employs such 
coordinators in all districts and sectors; however, their victim-
witness duties are collateral to their primary responsibilities as 
investigators and deportation officers. These coordinators are also 
responsible for victim notification and sex offender registrations in 
their districts and sectors, and they have only recently seen an 
increase in trafficking cases requiring the provision of direct 
services to victims. With an increasing number of trafficking cases, 
the victim-witness coordinators are being called upon with more 
frequency to provide direct services, which are very time and resource 
intensive. While funding full-time victim coordinators in some of the 
larger INS offices makes sense, the workload does not yet justify full-
time coordinators in all INS field offices. In addition, there are good 
reasons for having agents involved in providing victim services to 
victims of trafficking.

    Question 8. What role do you play in facilitating with other U.S. 
agencies and foreign governments the repatriation of trafficked victims 
to their countries of origin and for providing funding to send victims 
bome? Are you working with the State Department to ensure these victims 
get adequate protection once they get home?

    Answer. Some trafficking victims prefer to return home rather than 
seek the protections of Section 107 of the VTVPA. Financial assistance 
to pay the transportation costs of victim repatriation has been an 
obstacle. We are not aware of any federal funds currently available to 
assist victims to return to their home countries. In one instance in 
which the victim wished to be repatriated, the home country provided 
the airfare; in another, the International Organization for Migration 
(IOM) paid the travel expenses. In addition to funding, the Department 
has encountered delays in facilitating a victim's repatriation because 
the home country government needed to reissue identity and travel 
documents to replace those confiscated by the traffickers. In one such 
case, the Civil Rights Division's Criminal Section worked both with the 
community-based organization providing services to the victim and with 
officials from the embassy of the victim's home country to facilitate 
the issuance of travel documents. In these cases, the victims felt that 
their safety and well-being would be best assured by returning home. 
While the Department has not yet worked with the State Department on 
repatriation issues in specific cases, the State Department has 
provided us with a list of NGOs in various countries that have received 
funding from the State Department and the Agency for International 
Development to assist trafficking victims, thus enabling us to inform 
victims about programs that may be able to offer them assistance upon 
their return.

    Question 9. Are you doing follow-up on the American Samoa case in 
which DOJ uncovered a large-scale slavery operation involving more than 
200 Vietnamese victims? What are you doing to remedy the situation 
where victims, having been freed from slavery and debt bondage, are in 
a position of indebtedness and of having to take terrible sweatshop-
like jobs in order to pay off this debt and become independent?

    Answer. The Civil Rights Division's Criminal Section is currently 
prosecuting this case, United States v. Kil Soo Lee. Two defendants 
have already pled guilty to felony charges, and trial is set for the 
remaining defendants for October 22, 2002. Experienced slavery 
prosecutors are leading the prosecution team. They recently 
successfully defended the VTVPA's victim protection provisions from a 
constitutional challenge in which the defendant alleged that Section 
107 of the Act created a due process violation by making the victims 
too dependent on government services.
    Victim-witness coordinators from the Civil Rights Division, the 
U.S. Attorney's Office for the District of Hawaii, the FBI, and the INS 
have worked with the victims consistent with the VTVPA and the relevant 
Department policy guidance on victims and witnesses. The United States 
does not have jurisdiction over debts that the victims may have 
incurred in Vietnam or China, or in the United States. The victims' 
continued presence is being ensured under Section 107(c) of the Act so 
that they will be available for trial if subpoenaed by the government 
or the defense. The Act provides them with employment authorization, 
which allows them to work while they are in the United States. HHS has 
certified the victims pursuant to Section 107(b) of the Act, which 
allows them to apply for assistance programs, including job training. 
The sponsors and hosts who are housing or employing the former Daewoosa 
workers were not provided by the Government, but were obtained through 
relatives, church groups, and other volunteer organizations. Daewoosa 
workers are represented by private counsel who can provide legal advice 
on a variety of matters beyond the jurisdiction of the Department of 
Justice. A number of social service providers have been working with 
the attorneys in this case. Since raising concerns about re-
victimization, the service provider CAST has again been in contact with 
those attorneys so that they can assist in the ongoing efforts to 
ensure that the workers are safe and gainfully employed.

    Question 10. Is there a problem prosecuting under the new criminal 
statutes established by the Trafficking Victims Protection Act given 
that of the 89 investigations pending related to trafficking, only one 
of the current prosecutions involves one of the criminal statutes? Can 
you explain in detail why a prosecutor would choose to prosecute under 
the old involuntary servitude statute as opposed to the new forced 
labor one? Do we need to amend the bill to deal with this issue?

    Answer. The 103 open matters are ongoing investigations. It is 
premature to know with certainty how many will ripen into prosecutions 
and what specific charges would be brought.
    As for cases indicted since the passage of the new statute, VTVPA 
crimes have been charged in several cases, often in conjunction with 
the pre-existing servitude and Mann Act statutes: United States v. Kil 
Soo Lee (Samoa, Vietnamese sweatshop: 18 U.S.C Sec. Sec. 241, 1584 and 
1594); United States v. Virchenko (Alaska, Russian nude dancing: 18 
U.S.C. Sec. Sec. 2421 and 1589); United States v. Ng (New York, 
Indonesian prostitution: 18 U.S.C. Sec. Sec. 371/1584, 1589, 1584, 
1591, and 2422); United States v. Jimenez (New Jersey, Mexican child 
prostitution: 18 U.S.C. Sec. 1591); and the first conviction was 
recently obtained under the VTVPA in United States v. Gasanov (El Paso, 
Uzbek nude dancing: 18 U.S.C. Sec. Sec. 371, 1592, 1546).
    The majority of our current active cases predate the enactment of 
the VTVPA and therefore we cannot constitutionally bring charges under 
the new Act in those cases; however, victims in those cases can and are 
being helped through the victim protection provisions of the Act. The 
number of post-VTVPA investigations, however, is increasing, 
particularly in response to focused outreach efforts by the Civil 
Rights Division's Criminal Section. While we cannot comment on the 
details of cases under investigation, we are, as always, considering 
the full range of charges available to us as we proceed in these 
matters. It is typical practice in the federal system to charge several 
federal criminal statutes as appropriate to capture the various facets 
of the defendant's scheme. The exact scope of the new forced labor 
statute and the other criminal provisions of Section 112 of the Act 
will be defined in case law as cases are litigated. The well-
established involuntary servitude statutes, which have consistently 
been held to be constitutional and have well-developed bodies of 
interpretive case law, can be effective in prosecuting trafficking 
situations involving force and threats of force, especially when 
augmented with the victim protection provisions of the VTVPA. Their 
continued use in appropriate situations should not be interpreted in 
any way as a comment on the efficacy of the new statutory tools 
provided by the Act.

                                 ______
                                 

   Responses of Amb. Nancy H. Ely-Raphel, Senior Advisor, Office to 
  Monitor and Combat Trafficking in Persons, Department of State, to 
   Additional Questions for the Record Submitted by Senator Wellstone

    Question 1. What are you doing to assist the President's Inter-
Agency Task Force on Trafficking in regard to facilitating cooperation 
among countries of origin, transit and destination (and not just 
between the United States and those countries), and to strengthen their 
local and regional capacities to fight trafficking?

    Answer. Regional cooperation and transnational cooperation is 
imperative to combating trafficking.
    During meetings with foreign government officials we encourage 
destination countries to work more collaboratively with source and 
transit countries. As we begin preparations for a world summit on 
trafficking, we will be looking at models of bilateral, regional and 
international collaboration.
    The West Africa Trafficking in Persons Regional Conference in 
Nigeria last December developed an action plan, still in draft, for our 
posts to aid West African states build regional and bilateral 
cooperation. We are supporting regional cooperation in East Asia and 
the Pacific with the development of a website for governments and NGQs 
to use as a reference for cooperation on human anti-trafficking issues, 
including the sharing of best practices. We are in the process of 
issuing a request for proposals for a trafficking conference for Asia-
Pacific nations to prepare for the World Summit on Trafficking in 
Persons. In addition, we intend to raise with regional organizations 
the importance of developing their capacity to track and fight this 
issue within their respective regions in order to strengthen regional 
efforts.
    We are pleased that the OSCE has decided to make trafficking in 
persons, weapons and drugs the focus of the 2003 Economic Forum. This 
will present an ideal opportunity to raise with many Western European 
destination states the importance of coordination and cooperation with 
partners in Eastern Europe and beyond. We are looking at ways to 
encourage and strengthen other regional organizations' efforts against 
trafficking.
    No national anti-trafficking effort will be effective without 
transnational cooperation.

    Question 2. What are you doing to assist the Task Force in 
examining the role of the ``sex tourism'' industry in trafficking?

    Answer. A senior official from the Office to Monitor and Combat 
Trafficking in Persons (TIP Office) was part of the official U.S. 
delegation to the recent Second World Congress Against Commercial 
Sexual Exploitation of Children, which had as a primary goal the 
elimination of sex tourism. The World Congress works with the tourism 
and travel industry, NGOs, international organizations, and government 
officials in a variety of capacities to address sex tourism. We will 
continue to work closely with other governments and within the USG to 
follow-up on the initiatives of the World Congress.
    The TIP Office also co-hosted, with the Child Exploitation and 
Obscenity division of the U.S. Department of Justice, a follow-up 
briefing on trafficking, commercial sexual exploitation of children, 
and sex tourism. Over 35 U.S. Government agencies and bureaus attended. 
Further activities and programs are planned, including an internal 
State Department briefing on sex tourism and trafficking later this 
month. The goal of the meetings and briefings is to incorporate a plan 
of action for sex tourism into our comprehensive strategy on 
trafficking. We will also include this issue in our bilateral 
discussions with countries linked to this phenomenon.
                                 ______
                                 

   Responses of Nguyen Van Hanh, Ph.D., Director, Office of Refugee 
 Resettlement, Department of Health and Human Services, to Additional 
        Questions for the Record Submitted by Senator Wellstone

    Question 1. How much money will Health and Human Services (HHS) 
grant to non-governmental organizations (NGOs) for victim servies and 
how much of this money will come out of the $10 million appropriated 
for this year? If HHS does not plan to use any of the $10 million 
appropriation for funding victim services, please explain the rationale 
for this decision.

    Answer. HHS' Office of Refugee Resettlement (ORR) is currently 
developing an expansion of our grant program to increase outreach and 
services to victims and solicit expertise for a national outreach 
campaign designed to educate people about the existence of trafficking 
and the protections and benefits available for victims. We intend to 
issue a significant number of grants and contracts for a total of 
approximately $6 million. ORR plans to fund all of the awarded 
trafficking grants and contracts out of the HHS authorization.

    Question 2. Does HHS plan to tailor its programs to fit the special 
needs of trafficking victims, since although trafficking victims have 
similar needs of refugees, their needs are not identical?

    Answer. Our experience to date confirms that the needs of 
trafficking victims and refugees may differ significantly. Where 
appropriate, we are encouraging benefit and service providers to 
address the needs of trafficking victims through programmatic 
adjustments and to increase their capacity to provide culturally and 
linguistically appropriate assistance to trafficking victims within 
both existing programs and newly evolving programs. We are working to 
educate refugee service organizations, non-profit groups, law 
enforcement agencies, and others as to trafficking victims' needs, how 
they are manifested among victim populations, and how cooperation among 
service providers will ensure that the benefits and services are 
effectively provided to victims.

    Question 3. Does HHS plan to use funding to establish shelters for 
trafficked persons in the future? What can HHS do to help trafficking 
victims access existing shelter services until there is more funding or 
new types of shelter available?

    Answer. Providing appropriate shelter for trafficking victims is an 
area of high interest for HHS, however we are statutorily prohibited 
from establishing or constructing shelters vis-a-vis bricks-and-mortar 
buildings. There is a severe lack of shelter services, in great part 
due to a lack of funding in both the private and public sectors, 
specifically designed to meet the unique needs of trafficking victims. 
With our state and local partners, non-governmental organizations, and 
other federal agencies we are continuing to search for ways to provide 
resources and encourage shelter programs to increase their capacity to 
accommodate trafficking victims without sacrificing services to other 
populations being currently served.


</pre></body></html>
